  OFFICE OF JUSTICE PROGRAMS’ 

       RECOVERY ACT AND 

NON-RECOVERY ACT PROGRAMS FOR 

EDWARD BYRNE MEMORIAL JUSTICE 

 ASSISTANCE GRANTS AND BYRNE 

      COMPETITIVE GRANTS 


      U.S. Department of Justice 

    Office of the Inspector General 

             Audit Division 


          Audit Report 10-43 

             August 2010

     AUDIT OF THE OFFICE OF JUSTICE PROGRAMS’ 

   RECOVERY ACT AND NON-RECOVERY ACT PROGRAMS 

  FOR EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

       GRANTS AND BYRNE COMPETITIVE GRANTS


                        EXECUTIVE SUMMARY



      Through the Edward Byrne Memorial Grant Program (Byrne Program),
the Department of Justice awards grants to states, tribes, and local
governments to support a broad range of activities to prevent and control
crime based on local needs and conditions. The Byrne Program consists of
the Justice Assistance Grant Program (Byrne JAG Program) and the Byrne
Competitive Grant Program. Byrne JAG Program funds are awarded non-
competitively based on a formula established by law. Byrne Competitive
Grant Program funds are awarded using a competitive application process.
The funds awarded under both parts of the Byrne program can be used for
state and local initiatives, technical assistance, training, personnel,
equipment, supplies, contractual support, and information systems for
criminal justice purposes. The Byrne Competitive funds can also be used for
national initiatives and support.

      The American Recovery and Reinvestment Act of 2009 (Recovery Act),
enacted on February 17, 2009, provided approximately $4 billion in grant
funding to the Department of Justice (Department) to be used to enhance
state, local, and tribal law enforcement efforts. Of these funds, the
Department’s Office of Justice Programs (OJP) received $2 billion for the
Byrne JAG Program and $225 million for the Byrne Competitive Grant
Program. In addition, from FY 2005 through FY 2009, the Department
allocated about $1.869 billion in non-Recovery Act funds to the Byrne JAG
Program and about $788 million to the Byrne Competitive Grant Program.

       To distribute the Recovery Act funds, OJP developed a spending plan,
which the Office of Management and Budget approved. OJP allocated the
$2 billion in Byrne JAG funding and the $225 million in Byrne Competitive
Grant Program funding as shown in the following exhibits.
                  Exhibit 1: Recovery Act Funding Allocations
                             for the Byrne JAG Program

    Amount                                 Description
$1,989,000,000 For OJP’s Bureau of Justice Assistance to make formula grant
               awards to state and local governments for state and local
               initiatives, technical assistance, training, personnel, equipment,
               supplies, contractual support, information systems for criminal
               justice, and research and evaluation activities.
   $10,000,000 For OJP’s National Institute of Justice’s use for existing
               technology projects to achieve the goals of the Recovery Act
               and the purposes of the Byrne JAG Program.
    $1,000,000 For OJP’s Bureau of Justice Statistics’ use in improving the
               collection of crime data from tribal law enforcement agencies;
               exploring, developing, testing, and implementing methods for
               improving the estimation of violent crime data; developing,
               testing, and implementing automated Byrne JAG formula
               calculation procedures; and integrating law enforcement
               administrative data, reported crime, justice expenditures, and
               Byrne JAG allocation information into a publicly available
               format.
Source: Office of Justice Program’s Recovery Act Spending Plan

                  Exhibit 2: Recovery Act Funding Allocations
                   for the Byrne Competitive Grant Program

    Amount                                Description
  $120,750,000 For OJP’s Bureau of Justice Assistance to award competitive
               grants to state, local, and tribal jurisdictions to help improve
               the criminal justice system, provide assistance to victims of
               crime, and support communities in preventing drug abuse and
               crime.
    $4,500,000 For OJP’s Bureau of Justice Assistance to solicit training and
               technical assistance services, to include soliciting for a national
               organization to work collaboratively with state administering
               agencies to support local justice planning processes that
               influence the manner in which Byrne JAG funds are used.
   $97,500,000 For OJP’s Office of Juvenile Justice and Delinquency Prevention
               to award grants under its Fiscal Year 2009 Recovery Act Local
               and National Youth Mentoring Programs.
    $2,250,000 For OJP’s National Institute of Justice to perform research and
               evaluation to improve the functioning of the criminal justice
               system, assist victims of crime, and enhance youth mentoring
               programs.
 Source: Office of Justice Program’s Recovery Act Spending Plan




                                            ii
       As of June 30, 2010, the Department had obligated more than
$1.997 billion (99.9 percent) of the Byrne JAG Recovery Act funds and about
$223.5 million (99.3 percent) of the Byrne Competitive Recovery Act funds.
The Department had outlayed to state and local grantees about $1.631
billion (81.6 percent) of the Byrne JAG Recovery Act funds and about $40.5
million (18 percent) of the Byrne Competitive Recovery Act funds.

OIG Audit Approach

      The Department of Justice Office of the Inspector General (OIG) is
performing reviews of the Department’s use of Recovery Act funding. This
audit examines OJP’s implementation of the Byrne JAG Program and the
Byrne Competitive Grant Program, including the programs funded by the
Recovery Act. The objective of the audit was to determine if OJP was
properly managing Recovery Act funds in accordance with Recovery Act and
Office of Management and Budget guidelines and sound grant management
practices. To accomplish this objective, we evaluated both the Recovery Act
Byrne programs and the regular Byrne program. We believe our results for
the regular Byrne program are also relevant to the Recovery Act Byrne
programs.

      For the Recovery Act related work, the audit covered the period from
passage of the Recovery Act in February 2009 through August 2010. For the
non-Recovery Act related work, the audit covered Byrne-related activities
from FY 2005 through FY 2009.1

      Our audit work included interviews of OJP officials responsible for
implementation, monitoring, and oversight of the Byrne JAG Program and
the Byrne Competitive Grant Program. As part of this audit, we also
performed grant audits of the following 12 state and local recipients of Byrne
JAG Program funds.

         District of Columbia                       State of New Jersey
         State of Florida                           City of Atlanta, Georgia
         State of Indiana                           City of Jackson, Mississippi
         State of Kansas                            City of Kenosha, Wisconsin
         State of Louisiana                         City of Providence, Rhode Island
         State of Nevada                            Marion County, South Carolina

     The grant audits analyzed Byrne-related grants awarded using both
Recovery Act funds and non-Recovery Act funds.


      1
         The OIG is also conducting another audit that focuses on OJP’s monitoring and
oversight of Recovery Act and other grants.


                                            iii
      Appendix I contains a more detailed description of our audit
objectives, scope, and methodology.

OIG Results in Brief

      The $2 billion in Recovery Act funds received by OJP for the Byrne JAG
Program in fiscal year (FY) 2009 was more than the total Byrne JAG funds
for the preceding 4 fiscal years, and more than doubled OJP’s workload for
this program. Our audit found that, despite the large workload increase, OJP
generally managed the $2 billion in Recovery Act funds for the Byrne JAG
Program in accordance with guidelines and established grant management
practices. OJP made the formula awards to states, territories, and local
governments in a prompt and reasonable manner.

     However, we determined that some grantees who had received Byrne
JAG Recovery Act funds had submitted application packages missing
complete program narratives, project abstracts, and budget documents.

       Moreover, our individual audits of 12 Byrne JAG grantees also found
significant deficiencies in the grantees’ use of grant awards in the areas of
internal control environment, grant expenditures, property management,
monitoring of subrecipients, reporting, and program performance. The
deficiencies we identified included some grantees: (1) not segregating
duties over payroll functions; (2) not employing sufficient staff with the
training and experience to properly manage the grants; (3) not placing
equipment items purchased with grant funds into operation until years after
purchase; (4) not maintaining property disposal records; (5) not having
sufficient staff to adequately manage and oversee subrecipients of Byrne
JAG funds; or (6) not submitting timely and accurate financial, progress, and
Recovery Act reports. While most of the deficiencies we noted on these
audits were for the non-Recovery Act Byrne JAG grants, we believe the
results are applicable more broadly to management of the annual Byrne
programs.

      Our audit concluded that OJP generally managed the $225 million in
Recovery Act funds for the Byrne Competitive Grant Program appropriately.
OJP made the discretionary awards totaling approximately $222.75 million in
a prompt and reasonable manner. However, we identified some practices
that could be improved to strengthen OJP’s administration of these
programs. For example, OJP’s Bureau of Justice Assistance (BJA) and Office
of Juvenile Justice and Delinquency Prevention (OJJDP) allowed some grant
applicants to continue through the competitive process even though these
applicants did not meet one or more of the solicitation requirements for
which other applicants were denied further consideration. Also, a small


                                     iv
number of applicants that apparently did not meet solicitation requirements
were selected for grant awards.

       The BJA and the OJJDP informed applicants of their denial because
their applications did not pass the basic minimum requirements review.
However, the BJA and the OJJDP did not inform the applicants of the reason
for the denials. The BJA and the OJJDP also did not enter the correct reason
for the denials in OJP’s Grants Management System.

      We also noted deficiencies in the BJA’s and the OJJDP’s processes for
evaluating and scoring grant applications and in documenting the basis for
award recommendations. The BJA and the OJJDP funding recommendation
memoranda also did not fully disclose the process and criteria by which
applicants were selected to advance to peer review from the basic minimum
requirements review.

       We noted differences in the processes between the BJA and the OJJDP
for computing final scores for applications. The OJJDP uses a normalization
process to standardize the weighted average scores, while the BJA does not
use this normalization process. Having OJP bureaus and program offices use
different methodologies for calculating peer review scores for similar
Recovery Act programs may raise an appearance of inequitable treatment of
applicants.

      In our report, we make 15 recommendations to assist OJP in
strengthening the management of its two Byrne programs. However, while
our audit focused on the Recovery Act funding for the Byrne JAG Program
and the Byrne Competitive Grant Program, we believe the results are
applicable more broadly to management of the annual Byrne programs.
Therefore, our recommendations relate to all Byrne programs.

      The remaining sections of this Executive Summary provide a further
discussion of our audit findings. Our report contains detailed information on
the full results of our review of the Byrne Recovery Act formula and
competitive grant programs.




                                      v
Byrne JAG Program

      OJP’s Recovery Act spending plan provided $1.989 billion for formula
grants to states, territories, and local governments under the Byrne JAG
Program. Formula grants are non-competitive grants that are awarded
based on a formula established by law. The formula for the Byrne JAG
Program authorized the allocation of funds based on a combination of U.S.
Census Bureau population estimates for each state and violent crime data
reported to the Federal Bureau of Investigation (FBI). About 60 percent of
the funds were designated for state and territorial governments and 40
percent for local governments. State governments are also required to pass
through a portion of the funds they receive to local governments within their
states.

       The BJA developed two solicitations for the Byrne JAG Recovery Act
awards – one for states and territories and one for local governments. The
solicitations were posted to OJP’s and the BJA’s website. OJP’s Bureau of
Justice Statistics (BJS) developed the funding allocations for the Byrne JAG
Program using the formula established in the Safe Streets Act of 1968 as
amended in 2008.2

       We verified that the data used by the BJS to compute the allocations
was consistent and accurate. Using the established formula and the verified
population and crime data, we independently calculated the allocations for
all 56 states and territories, and the 5,472 local governments. We
concluded that the BJS calculated the Byrne JAG Program allocations for the
states, territories, and local government units in accordance with the
formula established by the statute.

       We also found that the BJA took prompt actions to develop and issue
the Byrne JAG Program solicitations, to obtain and review applications, and
to make the awards. The Recovery Act was signed on February 17, 2009.
Less than 3 weeks later, on March 6, 2009, the BJA had: (1) obtained the
BJS’s calculations of the allocations for the 56 states and territories, and the
5,472 local governments; and (2) issued both the state and the local
solicitations. The BJA awarded all 56 state and territory awards by July 16,
2009. By October 13, 2009, the BJA awarded funds to 3,210 eligible grant
applicants from local governments that submitted complete applications to
the BJA. BJA officials subsequently discovered that one application was
incorrectly identified as a duplicate. When the error was found, the BJA took


      2
          The Safe Streets Act of 1968 was codified in 42 U.S.C. § 3755.



                                             vi
prompt actions to process the application and award the funds. Therefore, a
total of 3,211 grants were awarded to local governments.

       However, we identified some instances where the BJA did not obtain
all the information required by the solicitation before making Recovery Act
awards. In reviewing the 56 state and territorial applications, we found that
1 application did not contain the required program narrative; 26 applications
had program narratives that did not include required elements such as
organizational capabilities and competencies, timelines or project plans, or
performance measures; 3 applications did not contain the required project
abstract; and 6 applications did not include budget details.

      In a December 2009 interim report, we provided OJP with preliminary
audit results communicating concerns about incomplete application packages
and the BJA’s decision to award funding despite the missing elements.3 In
response to our interim report, OJP told us that the BJA agreed that careful
consideration of "required" elements in formula grant solicitations is needed.
In the future, the BJA plans to describe material as “required” and send back
applications for additional information when the "required" information is not
included.

       Prior to our interim report, we also found that OJP’s Recovery Act
website did not describe the intended use for $11 million of the $2 billion in
Byrne JAG funding. OJP's website identified the $2 billion for the Byrne JAG
Program and provided a link to more specific information about the funding.
However, the website left the impression that the $2 billion was allocated
totally to the state and local formula grant awards because it did not
mention that $10 million had been allocated to the National Institute of
Justice (NIJ) and $1 million allocated to the BJS.

      We notified OJP of this issue in a March 2009 memorandum. In
response, the BJA updated the website to clarify that $1.989 billion would be
awarded to state and local governments under the Byrne JAG Program, while
the remaining $11 million would be used by the NIJ and the BJS. The BJA
also posted information on its website outlining the NIJ's and the BJS'
planned use of the funds and how the use supported Recovery Act goals.

      Our audit also included individual audits of 12 state and local grant
recipients that in FY 2009 received in total more than $201 million in

      3
         U.S. Department of Justice Office of the Inspector General, Review of the Edward
Byrne Memorial Justice Assistance Grant Program, Recovery Act Formula Awards
Administered by the Department of Justice’s Office of Justice Programs, (December 2009).



                                            vii
Recovery Act Byrne JAG Program awards. For the individual grant audits,
the OIG reviewed about $145 million in non-Recovery Act Byrne JAG
Program awards received by the 12 grant recipients since FY 2005.4 We
selected the state and local recipients to audit based on a variety of factors,
including the number and amount of Byrne JAG awards received, location,
and prior audit history. The purpose of these audits was to determine
whether costs claimed by the states and local governments under the Byrne
JAG grants were allowable, reasonable, and in accordance with applicable
laws, regulations, guidelines, and terms and conditions of the grants. The
audits generally tested compliance with grant requirements, such as:

      	 internal control environment to determine whether the controls
         in place for the processing and payment of funds adequately
         safeguarded grant funds and ensured compliance with the terms
         and conditions of the grants;

      	 grant drawdowns to determine whether the grantee adequately
         documented support for drawdowns and managed grant receipts in
         accordance with federal requirements;

      	 grant expenditures to determine the accuracy and allowability of
         costs charged to the grants;

      	 property management to determine if the grantee accounted for,
         and properly used, property acquired with grant funds;

      	 program income to determine if the grantee properly identified,
         reported, and used for allowable program expenses any program
         income;

      	 supplanting to determine if the grantee used federal funds to
         supplement existing state and local funds for program activities and
         not to replace state and local funds appropriated for the same
         purpose;

      	 management of subrecipients to determine how the grantee
         administered pass-through funds;

      	 Financial Status Reports, Progress Reports, and Recovery
         Act Reports to determine if the grantee submitted timely and


      4
         The specific Byrne JAG grant awards reviewed varied among the individual grant
audits. Details of the Byrne JAG awards reviewed for each of the 12 grantees are contained
in the Audit Objectives, Scope, and Methodology found in Appendix I.


                                           viii
           accurate Financial Status Reports, Progress Reports, and Recovery
           Act Reports; and

       	 grant objectives and accomplishments to determine if the
          grantee met or is capable of meeting the grants’ objectives.

      We found that 9 of the 12 audits identified significant weaknesses.5 As
a result of these weaknesses, the OIG audits made 83 recommendations,
questioned $618,915 in grant expenditures and identified $3,482,466 in
enhanced revenues.6 While the weaknesses we found were primarily in the
non-Recovery Act Byrne JAG Program awards or other Department of Justice
grants, we believe the results are applicable more broadly to management of
the annual Byrne programs. This is because many of the requirements for
the annual Byrne programs and the Recovery Act Byrne program are similar
such as the requirements to: (1) maintain supporting documentation for
drawdowns and expenditures, (2) account for property acquired with grant
funds, and (3) submit timely and accurate financial and progress reports.

       Examples of the deficiencies include:

       	 In December 2008, the City of Jackson, Mississippi spent
          $79,546 in grant funds for a “line of fire” targeting package for the
          Police Department’s firing range. As of January 2010, the targeting
          package had not been installed pending site preparation work that
          had not been completed because the estimated cost had risen from
          $15,000 to closer to $50,000.

           This same grant recipient also spent $49,776 for 262 global
           positioning system (GPS) units to assist police officers in responding
           to calls. More than 2 years later, 161 of those GPS units, valued at
           $31,418, were still in the Police Department’s warehouse because
           the units provide only geographic coordinates.

           In September 2007, this grant recipient also spent $204,600 in
           grant funds for 50 laptop computers to be installed in patrol cars.
           As of October 19, 2009, 47 of those laptops, valued at $192,324,
           were still in the Police Department’s warehouse because of:
           (1) delays in upgrading the city’s network infrastructure, and

       5
       Two of the 12 audits were limited-scope audits where we did not make
recommendations. While these two audits did not identify significant risks of improper grant
management, the audits identified weaknesses that we considered significant.
       6
         Enhanced revenues are additional future annual monies (usually recurring) that
can be obtained from management action on audit recommendations.


                                            ix
        (2) the Police Department wanting to install the laptops in newer
        vehicles that need additional equipment to complete the
        installation. By January 2010, only 19 of the laptops had been
        installed in patrol cars.

     	 The Indiana Criminal Justice Institute lacked adequate staff to
        properly oversee and manage the JAG awards. The Institute had
        one program monitor assigned to oversee 139 subrecipients under
        the 2007 and 2008 JAG awards, as well as 34 subrecipients under
        the 2009 Recovery Act JAG award. This individual was no longer
        employed by the grant recipient at the time of our audit, and no
        other employee had been trained to assume oversight of the grant
        recipient’s JAG-funded programs.

     	 The Atlanta, Georgia Police Department did not monitor its
        subrecipients and had no procedures for doing so. Consequently,
        61 percent of the reimbursements to one subrecipient were not
        adequately supported by purchase orders, receipts, timesheets, or
        other supporting documentation. The Police Department received
        funding under the 2009 Recovery Act grant to hire a Project
        Administrator for that grant. However, the Project Administrator
        was not scheduled to begin work until late June 2010.

     	 Marion County, South Carolina submitted one of the two required
        Financial Status Reports 84 days late for its 2009 Recovery Act
        Byrne JAG grant. Marion County had a similar deficiency with its
        2005 Byrne JAG grant reporting when it did not submit five of six
        required Financial Status Reports and submitted the final financial
        report 575 days late. Grant management officials said they had not
        had a grant manager and were not aware of the requirements for
        submitting the reports.

      By contrast, our audits found that three grantees (Providence, Rhode
Island; Florida Department of Law Enforcement; and New Jersey
Department of Law and Public Safety) had few or no deficiencies.

      When three or more grant recipients had deficiencies in the areas
tested, we considered the deficiencies to be systemic. We found systemic
weaknesses in the following areas:

     	 internal control environment (4 of 12 grantees);

     	 grant expenditures (5 of 12 grantees);



                                     x
       	 property management (5 of 12 grantees);

       	 management of subrecipients and contractors (7 of 12 grantees);

       	 Financial Status Reports, Progress Reports, and Recovery Act
          reports (8 of 12 grantees); and

       	 program performance and accomplishments (4 of 12 grantees).

      The deficiencies we found indicate that grant recipients lack
appropriate procedures and practices in implementing important grant
requirements established by OJP and the Office of Management and Budget.
The failure to implement the grant requirements can lead to
mismanagement or improper use of grant funds. Because multiple grantees
had deficiencies in the same areas, we recommend that OJP issue additional
guidance to all Byrne JAG grant recipients to help improve grantee
compliance in these areas.

Byrne Competitive Grant Program

      OJP’s Recovery Act spending plan provided $225 million for the Byrne
Competitive Grant Program. Of that amount, $125.25 million was allocated
to the Byrne competitive grants and training and technical assistance grants,
and $97.5 million was allocated to the local and national youth mentoring
grants. We reviewed these programs and found that OJP generally made
these awards in a prompt and reasonable manner.

       However, we noted deficiencies in the BJA’s and the OJJDP’s process
for:

       	 evaluating applications for basic minimum requirements;

       	 informing applicants of the reasons their applications did not meet
          the basic minimum requirements;

       	 populating OJP’s Grants Management System (GMS) with the
          proper reasons for denying applications; and

       	 evaluating and scoring grant applications, and fully documenting
          the basis for award recommendations.

       We found a similar transparency issue for the Recovery Act Byrne
competitive grant funding. OJP's Recovery Act website identifies the $225
million for the Byrne Competitive Grant Program without mentioning $2.25


                                       xi
million was allocated to the NIJ to perform research and evaluation of
various programs and that $4.5 million would be used by the BJA to solicit
training and technical assistance services. We recommend that OJP revise
the Byrne Competitive Grant Program funding information contained on
BJA’s Recovery Act website to make it clear that $2.25 million of program
funds will be used by the NIJ to perform research and evaluation and $4.5
million will be used by the BJA to obtain training and technical assistance
services.

BJA’s Byrne Competitive Grant Program Awards

       In September 2009, the BJA made Recovery Act awards under its
Byrne Competitive Program. The Byrne Competitive Grant Program
solicitation stated that only applications submitted by eligible applicants that
meet all other requirements, such as timeliness, proper format, required
attachments, and responsiveness to the scope of the solicitation, would be
evaluated, scored, and rated by a peer review panel. The solicitation
specifically required that the application package include a Standard Form
424 (Application for Federal Assistance); program abstract; program
narrative; budget and budget narrative; project timeline and position
descriptions; and certifications related to the appropriate use of funds,
reporting on the use of funds, and use of funds for infrastructure
investments. Of the 3,672 applications that BJA received in response to the
solicitation, 1,477 did not contain support for one or more of the solicitation
requirements. Nevertheless, the BJA selected 649 of these applications that
did not meet the solicitation requirements to continue through the
competitive process and be peer reviewed.7

       BJA officials told us that based on discussions among BJA and OJP
leadership, their unwritten policy was to not consider the lack of
certifications as a significant enough reason to warrant not sending the
applications to peer review. BJA and OJP officials acknowledge that the
certifications on use of funds and infrastructure investments are required
before a grantee can receive funds, but believe the certifications are not
essential before sending otherwise eligible applications to peer review.
       7
           A BJA official told us that technically the Byrne Competitive solicitation did not
require that application packages include the required certifications for the applications to
be peer reviewed. We disagree. Page 20 of the solicitation states that “Only applications
submitted by eligible applicants that meet all other requirements (such as timelines, proper
format, required attachments, and responsiveness to the scope of the solicitation) will be
evaluated, scored and rated by a peer review panel.” On pages 18 through 19, the
solicitation includes a section titled “What an Application Must Include” that requires the
applicant to submit the grant application and five attachments, with one attachment being
the certifications such as the Use of Funds certification and the Infrastructure Investments
certification.


                                             xii
Because only a small percentage of applications received are actually
selected for award, we agree that obtaining the certifications prior to
determining whether or not the applicant will be selected for award is not
essential and would be burdensome on BJA staff. A total of 508 applications
went to peer review that were missing only certifications, leaving 141
applications not meeting other solicitation requirements that continued
through the peer review process. While we agree that missing certifications
should not prevent applications from being peer reviewed, we also believe
that it is important to ensure that the solicitations clearly define grant
requirements and that BJA ensures requirements are met when it evaluates
grant applications.

       After we raised these issues to BJA, in April 2010 the BJA established a
written policy that clearly defined the requirements that must be met for
applications to be sent to peer review. The policy provided that future
solicitations must contain basic requirements and that additional
requirements must be clearly identified as required for peer review in the
solicitation.

      In addition, we found that the BJA selected some applications to
continue through the competitive process and undergo peer review that did
not meet one or more of the solicitation requirements for which other
applications were denied further consideration. Four of the applications did
not meet the solicitation requirements regarding certifications and
formatting, but those applications were selected for award while other
applications were rejected for not meeting these same solicitation
requirements. We recommend that OJP establish procedures to ensure that
applications are treated consistently when determining whether the
applications meet the solicitation requirements.

       For the Byrne Competitive Grant applications, the BJA’s records
indicated that the BJA denied 1,049 applications that failed the basic
minimum review, the BJA’s internal review, or both reviews. We reviewed a
sample of 95 of these applications and determined the BJA notified all 95
applicants of the denial but did not inform any of the applicants of the
reason for the denial.8 BJA officials told us they did not do so because of the
cost, time, and workload required to provide this information. The officials


       8
          The Office of Justice Programs Grant Application Peer Review Procedure Manual
states that “The peer review contractor should prepare and mail non-funded applicant
letters to unfunded applicants at the discretion of the Bureau Program Office (BPO). The
BPO will decide on a case-by-case basis, whether the non-funded applicant letter will include
a narrative summary that specifies the strengths and weaknesses of the individual
proposal."


                                            xiii
also told us that if the applicants had questions, they could use the contact
information provided in the denial letter to contact the BJA.

       We believe that the BJA should inform the applicants of the reason
their applications are denied. Doing so could lead to applicants submitting
better application packages in the future that meet the basic minimum
requirements.

      We also found that the BJA grant managers did not enter into the GMS
the reason for denying the 95 applications. For each of the 95 denials, the
grant managers recorded the denial reason in the GMS as the “Competitive
process selected other applicants.” However, none of these 95 applications
made it past the basic minimum requirements review or the initial internal
review and into the competitive peer review process. All 95 of the
applications were actually denied for one or more of the other 15 reasons
selectable in the GMS.

      Because the GMS does not accurately reflect reasons applications were
denied, it cannot be used to identify trend data that might help identify
weaknesses in the process. For example, the GMS could be used to
determine that a significant number of rejections resulted from a certain
reason, such as non-responsive applications. Such data could indicate a
need to clarify guidance in future solicitations, which could result in more
responsive applications and more competition among applicants. We
recommend that OJP ensure that accurate reasons for denying applications
are entered into the GMS.

       We also tested the BJA’s peer review process for evaluating and
scoring applications. According to the BJA’s records, 2,623 of the 3,672
applications for the Byrne competitive grants were peer reviewed by external
peer reviewers. We analyzed a sample of 283 of these applications and
found that the peer review process was generally implemented in a fair and
effective manner, with some exceptions as noted below.

      As required by OJP’s peer review guidelines, a minimum of 3 peer
reviewers were assigned to review 278 of the 283 applications we tested.
For the remaining five applications, only two peer reviewers reviewed the
applications. BJA officials told us that two peer review panels were
convened with only two peer reviewers each because of the late recusal of a
reviewer on one panel and because of the failure of a reviewer on another
panel to submit required review information. In both cases, the BJA
appropriately obtained a waiver from the Deputy Assistant Attorney General
to convene the panels with only two reviewers. However, we noted that the
non-funding letters that the BJA sent to the applicants stated incorrectly that


                                      xiv
three independent peer reviewers evaluated the applications and noted
strengths and weaknesses.

      We also found that the BJA senior leadership did not approve the peer
reviewers, as required by OJP’s Peer Review Manual. Instead, the BJA
delegated peer reviewer approval authority to lower level OJP managers for
each category under the solicitation.9

       A total of 251 different peer reviewers were assigned to review the
283 applications we sampled. We found that all 251 peer reviewers had
completed and signed the Confidentiality Agreement and the Disclosure of
Conflicts of Interest forms as required. Five of the 251 reviewers indicated
on their Disclosure of Conflicts of Interest form that they had a potential
conflict related to reviewing the applications. In all five instances, BJA
officials reviewed the conflicts and appropriately determined that the
potential conflicts were not significant enough to interfere with the
reviewers’ ability to fairly evaluate the applications.

      We examined the final peer review score for each of the 283
applications we sampled and found that the score for each application was
correctly calculated based on the scores of the individual peer reviewers and
the weighting criteria provided in the solicitation.

      BJA officials recommended 120 of the 2,623 applications peer
reviewed for awards totaling $125,250,000. We reviewed the BJA’s award
recommendation memorandum to determine if it complied with the
Associate Attorney General’s May 2008 memorandum requiring that all
discretionary funding recommendations and decisions be documented.
Specifically, the Associate Attorney General’s policy directed that future
award recommendation memoranda must:

       	 contain a list of all applications received including the lowest scoring
          application funded as well as every application scoring higher,
          regardless of whether it was selected for funding; and

       	 briefly explain why a listed application was not recommended for
          funding.

      We found the BJA’s recommendation memoranda appropriately
categorized selections based on the categories in the solicitation. The BJA
also attached a list identifying applications peer reviewed and the score of

       9
        In November 2009, BJA officials told us that in 2010 they plan to follow the Peer
Review Manual requiring Bureau Program Office leadership to approve the reviewers.


                                            xv
each application in order from highest-scoring to lowest-scoring for seven of
the eight categories. The BJA grouped the applications by category and
ranked within each category from highest average score to the lowest.
Separate selections were made for each category.

      However, we found that for 1 of the 8 solicitation categories, the BJA
excluded 24 applications that were peer reviewed. Twenty-two of the 24
excluded applications had a higher score than the lowest-scoring application
recommended for funding, including 10 of the 12 highest-scoring
applications. The BJA did not provide an explanation in its memorandum for
excluding these 22 higher scored applications. The BJA told us that it
excluded these 24 applications because the applications related to programs
for juveniles and domestic violence and other Department of Justice funding
was available for these programs, which we concluded was a reasonable
basis for the exclusion. However, we determined that the BJA did not
comply with the Associate Attorney General’s May 2008 policy requiring that
explanations for not recommending such applications be included in the
funding recommendation memorandum.

      After we brought this concern to the attention of BJA officials in
September 2009, on January 12, 2010, the officials prepared and submitted
an addendum to the July funding recommendation memorandum to include
the 24 Category I applications and explain why those applications were not
recommended for funding over lower scoring applications. We recommend
that for future solicitations, the BJA ensure that all applications scoring
higher than the lowest-scoring application recommended for funding are
included in the funding recommendation memorandum and that an
explanation for not recommending those applications for funding is also
included.

      We also noted that applications in four of the eight categories were not
recommended for funding even though the applications received the same
score as the lowest-scoring application that was recommended for funding.
While BJA officials provided us reasonable explanations for why these
applications were not recommended for funding, the BJA did not include an
explanation in the funding recommendation memorandum to show why the
identical scoring applications were not recommended for funding. We
recommend that future funding recommendation memorandum include
explanations for all applications not recommended for funding that received
an equal or higher score than the lowest-scoring application recommended
for funding.




                                     xvi
OJJDP’s National and Local Youth Mentoring Awards

       During August and September 2009, the OJJDP made awards under its
National and Local Youth Mentoring Programs. The OJJDP received 1,617
applications for the national and local youth mentoring solicitations.
Although 781 of the 1,617 applications did not meet one or more of the
solicitation requirements, the OJJDP selected 568 of these applications to
continue through the competitive process and be peer reviewed. OJJDP
officials also told us that, like BJA officials, they believed some of the
solicitation requirements were not significant enough to deny an application
from going to peer review if not met. Specifically, the OJJDP officials did not
consider missing timelines, abstracts, logic models, resumes, and job
descriptions to be significant enough reasons to deny the applications from
going to peer review. A total of 542 applications that went to peer review
were missing only these types of items that the OJJDP did not consider
significant. That left 26 applications that did not meet more significant
solicitation requirements, such as budget narratives and program narratives,
which nevertheless continued through the peer review process. As with BJA
grants, we believe that it is important to ensure that solicitations clearly
define the requirements and that the OJJDP ensures requirements are met.

      Like the BJA, the OJJDP selected applications to continue through the
competitive process and be peer reviewed even though those applications
did not meet one or more of the solicitation requirements for which other
applications were denied further consideration. One of the applications that
did not meet solicitation requirements was selected for award.

      The OJJDP denied 271 applications (140 national and 131 local) based
on the basic minimum review, an internal review, or both reviews. We
sampled 30 of the 271 applications (15 national and 15 local) and
determined that the OJJDP notified all 30 applicants of the denial. However,
the OJJDP did not inform any of the applicants of the reason for the denial.
OJJDP officials told us it was their practice to not inform applicants of the
reason for denial if the applications are denied during the basic minimum
requirements review or internal review processes. The officials said that the
standard letter they used has been the practice at the OJJDP for several
years and that it provided the applicant with contact information through
which it could obtain information about the reason for the denial. In
addition, for those applications that go on to peer review, but are not
awarded funds, the OJJDP does provide the applicant with a copy of the
comments made by the peer reviewers. We believe the OJJDP should inform
the applicants that do not pass the basic minimum requirements of the
reason for denying their applications. Doing so could lead to applicants



                                     xvii
submitting better application packages in the future that meet the basic
minimum requirements.

      We also found that the OJJDP grant managers did not enter the reason
in the GMS for denying the 30 applications. For each of the 30 denials, the
grant managers recorded the denial reason in the GMS as the “Competitive
process selected other applicants.” However, none of these 30 applications
made it past the basic minimum requirements review or the initial internal
review and into the competitive peer review process. All 30 of the
applications were denied for one or more of the other 15 reasons selectable
in the GMS. Because the GMS does not accurately document the reasons for
denial, it cannot be used to identify trend data that might help identify
weaknesses in the process.

       We also tested the OJJDP’s peer review process for evaluating and
scoring applications. According to OJJDP’s records, 1,346 of the 1,617
applications for the local and national youth mentoring grants were peer
reviewed. We analyzed a sample of 164 of these applications and found that
the peer review process was generally implemented in a reasonable manner,
with some exceptions as noted below. A minimum of three peer reviewers
were assigned to review 159 of the 164 applications. Waivers were granted
allowing only two peer reviewers to review the other five applications
because a peer reviewer for one review panel was sick, and a peer reviewer
for another panel could not finish the reviews due to unexpected work hours.
However, we noted that the OJJDP leadership did not approve the peer
reviewers as required by OJP’s peer review manual. Instead, the OJJDP Peer
Review Coordinator responsible for the Youth Mentoring Recovery Act grants
approved the peer reviewers. It is important that the OJJDP leadership is
aware of and approve peer reviewers to help ensure that peer review
policies and controls are followed.

      A total of 179 different peer reviewers were assigned to review the
164 applications we sampled. All but 2 of the 179 peer reviewers had
completed and signed the Confidentiality Agreement and all 179 reviewers
had signed the Disclosure of Conflicts of Interest forms as required. None of
the 179 reviewers indicated on their Disclosure of Conflicts of Interest form
that they had a potential conflict related to reviewing the applications.

      We examined the peer reviewers’ scores for the 164 applications we
sampled and found that the scores were generally correctly calculated based
on the scores of the individual peer reviewers and the weighting criteria
provided in the solicitation.




                                    xviii
      Before ranking the applications, the OJJDP subjected the peer review
scores to a normalization process. Normalization uses statistical procedures
to minimize variance among peer reviewers who may score applications
more or less strict than one another. Normalization also compensates for
the tendency of some reviewers to score higher or lower than other
reviewers for the same group of applications. OJJDP requires the
normalization process when three or more peer review panels are used to
evaluate applications.

      We reviewed the process used by the OJJDP to normalize peer review
scores for the youth mentoring program applications and found that the
normalized scores were accurately calculated by the OJJDP for the National
Youth Mentoring solicitation. However, they were not accurately calculated
for the Local Youth Mentoring solicitation.

       OJJDP normalized the peer review scores for the 1,328 Local Youth
Mentoring Program applications peer reviewed and this procedure resulted in
a significant change to the ranking of the applications compared to the non-
normalized scores. Using data provided by the OJJDP, we recalculated the
normalized scores for the 1,328 applications using the methodology OJJDP
told us it had used. The normalized scores that we calculated did not match
the normalized scores calculated by the OJJDP for 258 of the 1,328
applications. OJJDP officials told us that the mistakes occurred due to
manual entry of scores, which has since been automated. Therefore, the
officials do not believe this will be a problem in the future. In addition, we
found that the incorrect normalized scores did not affect the awards made,
because the mistakes occurred in lower scoring applications and not in the
top ranking scores. We recommend, however, that the OJJDP ensure that
future normalized scores are correctly calculated to avoid incorrect rankings
that could lead to improper awards.

Inconsistency Between the BJA’s and the OJJDP’s Scoring Processes

       As noted above, while the OJJDP normalized peer review scores for the
local and national youth mentoring program applications, the BJA did not
normalize peer review scores for the Byrne Competitive Grant Program. OJP
policy gives the bureaus and program offices discretion on whether or not to
normalize peer review scores. According to BJA officials, they instead had
program officials monitor the consensus calls of the peer review panels to
observe whether any of the peer reviewers appeared biased in their scoring
of applications or tried to exert undue influence over the other peer
reviewers on the panel. The program officials could then consider the peer




                                     xix
review scores based on any bias or undue influence observed when deciding
which applications to recommend for funding.10

       We agree with BJA officials that having program officials monitor and
observe the peer review consensus calls for bias and undue influence is
beneficial. However, use of the normalization process also could have been
used to reduce the effects of peer reviewers’ tendency to score applications
differently.

       Using peer review scoring data provided by the BJA, we calculated
normalized scores for each of the eight categories of the Byrne Competitive
Grant Program to determine if normalization would have identified significant
variations in the scores among the peer review scores, and whether
reduction of this potential bias through normalization would have
significantly changed the rankings of the applications. We found that
significant variations existed among the peer review scores for all eight
categories and that normalization of the scores would have significantly
changed the rankings of the applications for all eight categories.
Specifically, normalizing the BJA’s scores would have resulted in 79 high-
scoring applications dropping off the BJA’s list of applications recommended
for funding and being replaced by 79 applications that the BJA scored lower.

       Having bureaus and program offices choose different methodologies
for calculating peer review scores without consistent reasons can foster the
appearance of inequitable treatment of applicants. We recommend that OJP
consider standardizing the circumstances under which “normalization” of
peer review scores should be used for all bureaus and program offices.

Conclusion and Recommendations

     Overall, we found that OJP appropriately managed the $2 billion in
Recovery Act funds for the Byrne JAG Program and the $225 million in
Recovery Act funds for the Byrne Competitive Grant Program.

      For the Byrne Recovery Act JAG Program, we identified some
shortcomings with awards approved without all information required by the
grant solicitations. Our individual audits of Byrne JAG grantees also found

       10
          A BJA official told us that for one peer review panel in one category of the Byrne
Competitive Grant Program solicitation, the BJA program official monitoring the peer review
consensus call observed that the peer review scores were skewed abnormally high. The BJA
program official brought this matter to the attention of Office of Victims of Crime (OVC) staff
who were reviewing applications in this category. BJA and OVC performed additional
analyses of the applications for this peer review panel and for all applications in this
category and considered this peer review anomaly in making funding recommendations.


                                              xx
deficiencies in the areas of internal control environment, grant expenditures,
property management, monitoring of subrecipients, reporting, and program
performance. The audits generally concluded that grant recipients were
spending grant funds appropriately. However, the audits did find instances
where grant recipients did not properly manage grant funds, did not
effectively monitor subrecipients, and did not accurately and timely report
the status of financial and program-related grant activities. While most of
the deficiencies we noted on these audits were in the non-Recovery Act
Byrne JAG grants, we believe the results are applicable more broadly to
management of the annual Byrne programs.

      For the Byrne Competitive Grant Program we noted deficiencies related
to the BJA’s and the OJJDP’s evaluating applications for basic minimum
requirements, informing applicants of the reasons for denying applications,
recording the proper denial reasons in the Grants Management System, and
evaluating and scoring grant applications.

      Our report contains 15 recommendations to OJP, including
recommendations to: (1) establish procedures to ensure that future Byrne
JAG solicitations clearly describe what material is required to be submitted
with the grant application, (2) establish procedures to ensure that
applications are treated consistently when determining whether the
applications meet the solicitation requirements, (3) ensure that “normalized”
peer review scores are accurately calculated before making award
recommendations based on those scores, and (4) consider standardizing the
circumstances under which “normalization” of peer review scores should be
used for all bureaus and program offices.




                                     xxi
This page left intentionally blank.
                                TABLE OF CONTENTS




                                                                                             Page

INTRODUCTION .............................................................................         1   

  Byrne JAG Program .......................................................................        1   

  Byrne Competitive Grant Program ...................................................              3   

  OIG Audit Objective and Approach...................................................              6   


FINDINGS AND RECOMMENDATIONS.............................................. 8 


1. OJP’S MANAGEMENT OF AWARDS MADE UNDER THE 

   EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE 

   GRANT PROGRAM ....................................................................... 8

   Transparency of OJP’s Planned Use of the Byrne JAG Recovery Act 

    Funds ........................................................................................ 9 

   Byrne JAG Recovery Act Formula Awards......................................... 10 

   Review of Applications for the Recovery Act Byrne JAG 

     Formula Awards ........................................................................ 11 

   OIG Audits of Byrne JAG and Other Awards Made to State and Local 

    Governments............................................................................. 12 

   Recommendations........................................................................ 29 


   2. OJP’S MANAGEMENT OF RECOVERY ACT AWARDS MADE

      UNDER THE BYRNE COMPETITIVE GRANT PROGRAM .............                                     31 

   Recovery Act Funding for the Byrne Competitive Grant Program and 

    Training and Technical Assistance.................................................            33 

   Recovery Act Funding for the Office of Juvenile Justice and 

    Delinquency Prevention’s National and Local Youth Mentoring

    Programs ..................................................................................   52 

   Inconsistency Between the BJA’s and the OJJDP’s Peer Review 

    Scoring Processes ......................................................................      64 

   Recommendations........................................................................        65 


STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ..... 68 


STATEMENT ON INTERNAL CONTROLS........................................... 69 


ABBREVIATIONS ........................................................................... 70 


APPENDIX I – Audit Objectives, Scope, and Methodology .............. 71 

APPENDIX II – Planned Uses of Recovery Act Byrne JAG Funds by
 the 56 States and Territories Funded.......................................... 74

APPENDIX III – Basic Minimum Requirements Checklist Used by
 the Bureau of Justice Assistance to Review Recovery Act Grant
 Applications ............................................................................... 86

APPENDIX IV – Basic Minimum Requirements Checklist Used by
 the Office of Juvenile Justice and Delinquency Prevention to
 Review Recovery Act National Youth Mentoring Grant
 Applications ............................................................................... 87

APPENDIX V – Basic Minimum Requirements Checklist Used by
 the Office of Juvenile Justice and Delinquency Prevention to
 Review Recovery Act Local Youth Mentoring Grant
 Applications ............................................................................... 88

APPENDIX VI – Description of the Office of Juvenile Justice and
 Delinquency Prevention’s Process for “Normalizing” Peer
 Review Scores ............................................................................ 89

APPENDIX VII – Results of Normalizing Peer Review Scores
 for Categories I through VIII of the Byrne Competitive Grant
 Program ..................................................................................... 94

APPENDIX VIII – Office of Justice Programs’ Response to the
 Draft Audit Report ..................................................................... 101

APPENDIX IX – Office of the Inspector General Analysis and
 Summary of Actions Necessary to Close the Report ................... 124
                              Introduction

     On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act).

      The Recovery Act provided more than $4 billion to the Department of
Justice (Department), including $2 billion for the Office of Justice Programs’
(OJP) Edward Byrne Memorial Justice Assistance Grant Program (Byrne JAG)
and $225 million for the Byrne Competitive Grant Program. Both of these
programs are managed by OJP’s Bureau of Justice Assistance (BJA).

       As of June 30, 2010, the Department had obligated about $1.997
billion (99.9 percent) of the Byrne JAG funds and about $223.5 million
(99.3 percent) of the Byrne Competitive funds. The Department had
outlayed to state and local grantees about $1.631 billion (81.6 percent) of
the Byrne JAG funds and about $40.5 million (18 percent) of the Byrne
Competitive funds.

Byrne JAG Program

       Through the Byrne JAG Program the Department of Justice awards
grants to states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on local needs and conditions.

        For FY 2009, Byrne JAG funds could be used for state and local
initiatives, technical assistance, training, personnel, equipment, supplies,
contractual support, and information systems for criminal justice for any one
or more of the following seven purpose areas:

      • law enforcement programs;

      • prosecution and court programs;

      • prevention and education programs;

      • corrections and community corrections programs;

      • drug treatment programs;

      • planning, evaluation, and technology improvement programs; and

      • crime victim and witness programs (other than compensation).




                                      1

      The following exhibit shows the funding awarded for the Byrne JAG
Program since FY 2005.

                        Exhibit 3: Funding Allocations for the

                          Byrne JAG Program since FY 2005

                                     (in millions) 


                                                             Amount
                     Fiscal Year and Program                Allocated
                   2005 Byrne JAG                                   $492
                   2006 Byrne JAG                                   $291
                   2007 Byrne JAG                                   $445
                   2008 Byrne JAG                                   $159
                   2009 Byrne JAG                                   $482
                   2009 Recovery Act Byrne JAG                    $1,989
                    Total                                        $3,858
                  Source: Bureau of Justice Assistance

       OJP’s Recovery Act spending plan provided $1.989 billion for formula
grants to states, territories, and local governments under the Byrne JAG
Program. Formula grants are non-competitive grants awarded based on a
formula established by law. For the Byrne JAG Program, the formula
established in the Safe Streets Act of 1968 as amended in 2008 authorized
the allocation of funds based on a combination of U.S. Census Bureau
population estimates for each state and violent crime data reported to the
Federal Bureau of Investigation (FBI).11 Under the Byrne JAG Program
statute, about 60 percent of the funds are designated for state and territorial
governments and 40 percent for local governments.12 State governments
are also required to pass through a portion of the funds they receive to local
governments within their states.

      On March 6, 2009, about 3 weeks after the passage of the Recovery
Act, the BJA posted two solicitations for the Byrne JAG Program on the
Grants.gov website – one for state governments and U.S. territories and the
other for local governments.13 As of July 16, 2009, the BJA had awarded the

       11
            The Safe Streets Act of 1968 was codified in 42 U.S.C. § 3755.
       12
          The actual allocations for the Byrne JAG awards worked out to 62 percent
($1.236 billion) for the state awards and 38 percent ($753 million) for the local awards.
       13
           Grants.gov is a website managed by the Department of Health and Human
Services that contains information about finding and applying for federal grant programs. A
grant solicitation is the formal document used to announce the availability of funding for a
specific program and contains an overview of the program, details about the eligibility and
application requirements, and the process for evaluating and selecting the applications for
award.


                                              2

Byrne JAG grants totaling about $1.236 billion to all 56 states and U.S.
territories. By October 13, 2009, the BJA had awarded 3,210 Byrne JAG
grants totaling about $748 million of the $753 million available to eligible
units of local government.

      For the Byrne JAG Program, the Recovery Act, under the authority
provided by the Safe Streets Act of 1968 as amended in 2008, allows the
Attorney General to set aside up to $20 million for OJP’s National Institute of
Justice (NIJ) to assist units of local government to identify, select, develop,
modernize, and purchase new technologies for use by law enforcement. If
money is set aside for these purposes, the law requires that $1 million of the
set aside go to OJP’s Bureau of Justice Statistics (BJS) to collect data
necessary for those purposes. OJP’s spending plan for the $2 billion
allocated to the Byrne JAG Program set aside $10 million for the NIJ and
$1 million for the BJS.

Byrne Competitive Grant Program

      Byrne competitive grants are similar in purpose to the Byrne JAG
formula grants, but the BJA awards these funds based on a competitive
application process.14 The following exhibit shows the amount of funds
appropriated for the program since FY 2005.

                   Exhibit 4: Funding Appropriations for the 

                Byrne Competitive Grant Program since FY 2005

                                 (in millions) 


                                                           Amount
                           Fiscal Year                   Appropriated
                 2005 Byrne Discretionary Grants                  $170
                 2006 Byrne Discretionary Grants                  $192
                 2007 Byrne Discretionary Grants                  $192
                 2008 Byrne Discretionary Grants                  $188
                 2008 Byrne Competitive Grants                     $16
                 2009 Byrne Competitive Grants                     $30
                 2009 Recovery Act Byrne
                 Competitive Grant Program                          $225
                  Total                                           $1,013
               Source: Bureau of Justice Assistance



       14
          The Byrne Discretionary Grant Program was established in 1988 and the Byrne
Competitive Grant Program began in FY 2008. The Byrne program is named in honor of
New York City Police Department officer Edward R. Byrne, who was killed in the line of duty
in February 1988 while protecting a witness who had agreed to testify against local drug
dealers.


                                             3

      OJP’s spending plan for the Recovery Act allocated the $225 million for
the Byrne Competitive grant program as follows:

       	 $125.25 million for the BJA’s FY 2009 Recovery Act Edward Byrne
          Memorial Competitive Grant Program;15

       	 $97.5 million in total for OJP’s Office of Juvenile Justice and
          Delinquency Prevention’s (OJJDP) FY 2009 Recovery Act Local and
          National Youth Mentoring Programs;16 and

       	 $2.25 million for the NIJ to perform research and evaluation to
          improve the functioning of the criminal justice system, assist
          victims of crime, and enhance youth mentoring programs.

FY 2009 Recovery Act Byrne Competitive Grant Program

       The Byrne competitive grants help state, local, and tribal jurisdictions
improve the criminal justice system, provide assistance to victims of crime
(other than compensation) and support communities in preventing drug
abuse and crime. Applicants may be national, regional, state, or local public
and private entities, including for profit and nonprofit organizations, faith-
based and community organizations, institutions of higher education, tribal
jurisdictions, and units of local government that support the functioning of
the criminal justice system.

     The Byrne competitive grants are awarded in the following eight
program areas:

       	 preventing and reducing violent crime through community-based
          data-driven approaches;

       	 providing funding for neighborhood-based probation and parole
          officers;

       	 reducing mortgage fraud and crime related to vacant properties;



       15
           The $125.25 million included $4.5 million for the BJA to solicit training and
technical assistance services, to include soliciting for a national organization to work
collaboratively with state administering agencies to support local justice planning processes
that influence the manner in which Byrne JAG funds are used.
       16
           While the solicitations for the national and local youth mentoring programs did not
designate how much of the $97.5 million was for each program, the actual funding awarded
was split $85.1 million for the national program and $12.4 million for the local program.


                                              4

     	 hiring of civilian support personnel in law enforcement, such as
        training staff, analysts, and dispatchers;

     	 enhancing forensic and crime scene investigations;

     	 improving resources and services for victims of crime;

     	 supporting problem-solving courts; and

     	 national training and technical assistance partnerships.

      On March 19, 2009, about 5 weeks after the passage of the Recovery
Act, the BJA posted the solicitation for the Byrne Recovery Act competitive
grants to the Grants.gov website. As of September 30, 2009, the BJA had
awarded the 120 Byrne competitive grants for the $125.25 million available
for these awards.

FY 2009 Recovery Act Local and National Youth Mentoring Program

       The FY 2009 Recovery Act Local Youth Mentoring Program provides
funds awarded by the OJJDP for local faith- and community-based
organizations to develop, implement, and expand neighborhood mentoring
programs. The program seeks to reduce juvenile delinquency and gang
participation, improve academic performance, and reduce school drop-out
rates. Grantees are expected to enhance the capacity of local efforts to
develop or expand community collaboratives and partnerships, integrate
best practices into mentoring service models, and develop strategies to
recruit and maintain mentors serving hard-to-reach populations.

      The FY 2009 National Youth Mentoring Program supports organizations
that have mentoring programs ready for national implementation that will
strengthen and expand existing mentoring activities. The program seeks to
increase participation of mentors by underrepresented groups, such as
Hispanic and African-American adult males; target children of single-parent
families; and focus on making truancy prevention a priority in improving
school attendance.

       On March 19, 2009, about 5 weeks after the passage of the Recovery
Act, the OJJDP posted the solicitations for the Local Youth Mentoring
Program and for the National Youth Mentoring Program to the Grants.gov
website. As of September 24, 2009, the OJJDP had awarded 26 local youth
mentoring grants for the $12.4 million designated under the Local Youth
Mentoring Program and four national youth mentoring grants for the $85.1
million designated under the National Youth Mentoring Program.


                                     5

FY 2009 Recovery Act NIJ Research Awards

      This initiative is part of the NIJ’s research and evaluation activities in
support of OJP’s Recovery Act discretionary grant programs. Funds under
this program will be used to award a competitive evaluation contract or
grant to assess the 2009 grants awarded by the BJA under the Recovery Act
Byrne Competitive Grant Program. Funds under this initiative will also
support research on criminal justice or law enforcement workforce dynamics,
especially research related to cost-effectiveness of staffing strategies, job
creation, and retention. On March 19, 2009, the NIJ issued a solicitation for
research and evaluation of Recovery Act state and local law enforcement
assistance. On March 31, 2010, the NIJ issued a solicitation for evaluation
of a Recovery Act state and local law enforcement assistance. According to
OJP, as of August 20, 2010, it had awarded three grants totaling $1,277,568
under these two solicitations.

OIG Audit Objective and Approach

      The Department of Justice Office of the Inspector General (OIG)
conducted this audit as part of an OIG-wide effort to determine if
Department components are properly managing Recovery Act funds in
accordance with Recovery Act and Office of Management and Budget
guidelines and sound grant management practices. This audit examines
OJP’s implementation of the Byrne JAG Program and Byrne Competitive
Grant Program, whether funded by Recovery Act funds or non-Recovery Act
funds. We are conducting another audit that focuses on OJP’s monitoring
and oversight of Recovery Act and other grants.

      For the Recovery Act funded work, this audit covered the period from
passage of the Recovery Act in February 2009 through August 2010. For the
non-Recovery Act related work, this audit covered the period FY 2005
through FY 2009. For both the Byrne JAG Grant Program and Byrne
Competitive Grant Program, we evaluated OJP’s process for awarding the
grants to ensure the grants were awarded in a reasonable and prompt
manner. To accomplish the audit objective, we analyzed copies of award
decision documents and discussed award procedures and results with
various officials from the BJA, BJS, and OJJDP. We also performed grant
audits of Byrne JAG grant recipients in the District of Columbia; Florida;
Indiana; Kansas; Louisiana; Nevada; New Jersey; Marion County, South
Carolina; and the cities of Atlanta, Georgia; Jackson, Mississippi; Kenosha,
Wisconsin; and Providence, Rhode Island.

      During this audit, in October 2009 the Government Accountability
Office (GAO) initiated a review dealing with state and local use of Byrne JAG


                                       6

Program funds.17 The GAO limited their review to the District of Columbia
and 16 states (Arizona, California, Colorado, Florida, Georgia, Indiana, Iowa,
Massachusetts, Michigan, Mississippi, New Jersey, New York, North Carolina,
Ohio, Pennsylvania, and Texas). We coordinated with the GAO to avoid any
duplication of work in the locations that the GAO chose to review that we
had previously selected for review (Florida, Georgia, and New Jersey).




       17
           The objectives of GAO’s review are to determine: (1) for what purposes have
states used Byrne JAG funds awarded from FY 2006 through 2009; (2) how have states
ensured that funds are used in accordance with JAG requirements; (3) what, if at all, has
been the effect of funding fluctuations on plans for and implementation of states’ criminal
justice efforts; and (4) how do states share and identify best practices among recipients
that they fund.


                                              7

              FINDINGS AND RECOMMENDATIONS



      1. OJP’S MANAGEMENT OF AWARDS MADE UNDER THE
         EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE
         GRANT PROGRAM

      The Office of Justice Programs generally managed Recovery Act
      awards made under the Byrne JAG Program in accordance with
      guidelines and sound grant management practices. OJP made
      the formula awards to states, territories, and local governments
      in a prompt and reasonable manner. OJP’s Bureau of Justice
      Assistance acted quickly to develop solicitation, set reasonable
      deadlines for submitting applications, timely reviewed
      applications against solicitation requirements, and promptly
      made awards. However, some OJP practices could be improved.
      We found some grantees submitted application packages missing
      complete program narratives, project abstracts, and budget
      documents. In addition, OJP’s planned use of $11 million of the
      $2 billion in Byrne JAG Recovery Act funds was not readily
      transparent on its website. We disclosed these issues to OJP
      during the audit and OJP took corrective actions to address the
      issues.

      While OJP effectively awarded the Recovery Act Byrne JAG grants, our
      individual audits of 12 Byrne JAG grantees found that multiple
      grantees had deficiencies in the areas of internal control environment
      (4), grant expenditures (5), property management (5), monitoring of
      subrecipients and contractors (7), reporting (8), and program
      performance (4). Multiple grantees with deficiencies in the same areas
      indicate a need for additional guidance in these areas. While most of
      the deficiencies we noted on these audits were for the non-Recovery
      Act Byrne JAG grants, we believe the results are applicable more
      broadly to management of the annual Byrne programs.

       As noted above, the Recovery Act provided $2 billion to OJP for the
Byrne JAG Program. OJP developed a spending plan that allocated the
$2 billion for three purposes as shown in Exhibit 5. OMB approved OJP’s
spending plan in March 2009.




                                      8

                 EXHIBIT 5: OJP’s Allocation of Recovery Act 

                         Byrne JAG Program Funds


                             Purpose                                 Amount
    Byrne JAG Formula Awards                                     $1,989,000,000
    NIJ Science and Technology Research and Development              $10,000,000
    BJS Formula Crime Data Collection, Analysis, and
    Estimation                                                        $1,000,000
    Total                                                        $2,000,000,000
    Source: Office of Justice Program’s Recovery Act Spending Plan

     For this audit, we performed a detailed review of the Byrne JAG
formula awards process, and we reviewed the $11 million given to the NIJ
and BJS for transparency-related issues.

      In March 2009, we issued a Management Advisory Memorandum
related to the transparency of OJP’s planned use of Byrne JAG Recovery Act
funds. The memorandum, titled Improving Transparency in the Office of
Justice Programs' Planned Use of Edward Byrne Memorial Justice Assistance
Grant Program Funds Authorized by the Recovery Act, is on our website at
www.justice.gov/oig/recovery/oversightDocs.htm.

     The next section of this report summarizes the results detailed in our
March 2009 memorandum.

      In December 2009, we issued an interim report on OJP’s efforts to
award the Byrne JAG Recovery Act formula grants. The report titled
Review of the Edward Byrne Memorial Justice Assistance Grant Program,
Recovery Act Formula Awards Administered by the Department of Justice’s
Office of Justice Programs may be viewed on our website at
www.justice.gov/oig/recovery/oversightDocs.htm. In the two subsequent
sections of this report, we summarize the results detailed in our
December 2009 report.

Transparency of OJP’s Planned Use of the Byrne JAG Recovery Act
Funds

       As we reported in our Management Advisory Memorandum in
March 2009, OJP's website identified the $2 billion for the Byrne JAG
Program and provided a link to more specific information about the funding.
However, the website left the impression that the $2 billion was allocated
totally to the state and local formula grant awards. The website made no
mention of the $10 million allocated to the NIJ for research and evaluation


                                          9

purposes and the $1 million allocated to the BJS for multiple purposes
including improving the collection of crime data from tribal law enforcement
agencies, and implementing automated Byrne JAG formula calculation
procedures.

       After we advised OJP of this concern, OJP revised its website to make
it clear that $10 million of program funds would be used by NIJ and $1
million by BJS. The BJA also posted information on its website outlining the
NIJ's and the BJS' planned use of the funds and how the use supported
Recovery Act goals.

Byrne JAG Recovery Act Formula Awards

       As we noted in our December 2009 interim report, the BJA developed
two solicitations for the Byrne JAG Recovery Act awards – one for states and
territories and one for local governments. The solicitations were posted to
OJP’s and the BJA’s websites. OJP’s BJS developed the funding allocations
for the Byrne JAG Program using the formula established in the Safe Streets
Act of 1968 as amended in 2008.18 The formula authorized the allocation of
funds based on a combination of U.S. Census Bureau population estimates
for each state and violent crime data reported to the FBI.

       We verified that the data used by the BJS to compute the allocations
was consistent and accurate. Using the established formula and verified
population and crime data, we independently calculated the allocations for
all 56 states and territories, and the 5,472 local governments. We
concluded that BJS calculated the Byrne JAG Program allocations for the
states, territories, and local government units in accordance with the
formula established by the Safe Streets Act of 1968 as amended in 2008.

      We also determined that the BJA completed the allocations and issued
the solicitations in a timely manner that permitted prompt application and
award of the grants. The BJA issued the solicitations about 3 weeks after
the Recovery Act was passed. The BJA awarded all 56 state and territory
awards by July 16, 2009, 5 months after passage of the Recovery Act. By
October 13, 2009, the BJA had awarded funds to the 3,210 eligible grant
applicants from local governments that submitted complete applications to
the BJA. BJA officials told us that early in 2010, they discovered one
application that was incorrectly identified as a duplicate. When the error
was found, BJA immediately processed the application and awarded the
funds. Therefore, a total of 3,211 grants were awarded to local
governments.

     18
          The Safe Streets Act of 1968 was codified in 42 U.S.C. § 3755.


                                            10

      In the interim report, we noted that the BJA received an additional
2,177 local government applications for which it could not award funds
because the applications were duplicates, incomplete, or from localities that
were not eligible to apply directly to the BJA. After eliminating duplicates
and ineligible localities, the BJA identified 206 eligible units of local
government that either had not applied or had not submitted complete
applications. However, BJA officials determined that one unit had been
debarred and was not allowed to apply for the grant, which reduced the
number to 205. BJA officials told us that they contacted the 205 eligible
units of local government and gave them until January 21, 2010, to submit
complete applications. BJA officials also told us that two pairs of
government entities informed BJA that they wanted to apply together. After
consulting with legal counsel, the BJA agreed that each pair of entities could
apply together on one application. Therefore, the number of eligible
applicants was reduced from 205 to 203. Of the 203 eligible applicants, the
BJA received 120 applications. As of June 15, 2010, the BJA had awarded
funds to 68 of the 120 applicants. BJA officials told us that 33 applications
were in the process of being awarded and that they were working with the
other 19 applicants to resolve application issues.

      By allowing these eligible entities additional time to complete and
submit their applications, the BJA helped ensure that all potential recipients
of Recovery Act JAG funding had an opportunity to receive the funding.

      In sum, the BJA properly calculated Byrne JAG allocations using
appropriate population and crime data and made timely awards consistent
with the allocations. Given this, we concluded that the BJA awarded the
Byrne JAG Program Recovery Act awards in a prompt and reasonable
manner.

Review of Applications for the Recovery Act Byrne JAG Formula
Awards

      In our December 2009 interim report, we identified areas where the
BJA could improve its grant awarding process. For example, the BJA should
ensure that it obtains the information required by the solicitation before
making Recovery Act awards. For each of the 56 state and territorial
applications, we reviewed the application documentation in OJP’s Grants
Management System (GMS) to determine if the Recovery Act application was
complete. We found that 1 application did not contain the required program
narrative; 27 applications had program narratives that did not include
required elements such as organizational capabilities and competencies,
timelines or project plans, or performance measures; 3 applications did not



                                      11

contain the required project abstract; and 6 applications did not include
budget details.19

      In response to our interim report, OJP told us that the BJA agrees that
careful consideration of "required" elements in formula grant solicitations is
needed. In the future, the BJA plans to describe material as “required” and
send back applications for additional information when the "required"
information is not included. According to OJP, because the Byrne JAG
Recovery Act program involved formula awards, as opposed to competitive
discretionary awards, the BJA sought to balance its responsibility to process
awards quickly with the need for sound financial management. Therefore,
the BJA used special award conditions to withhold funding for those
applicants who were delayed in submitting the required information. For
future Byrne JAG awards, the BJA should have documented procedures to
ensure these actions are implemented.

       We also reviewed the applications data for the 56 state and territories
to determine whether their planned use of the Recovery Act funds was for
allowed law enforcement purposes. We found that all 56 states and
territories planned to use the Recovery Act funds for allowable purposes. A
summary of the planned uses of the Recovery Act funds for the 56 states
and territories is provided in Appendix II.

OIG Audits of Byrne JAG and Other Awards Made to State and Local
Governments

       As part of this audit of OJP’s Byrne JAG Program, we conducted Byrne
JAG grant audits of the 12 state and local grant recipients listed in the
following exhibit. We selected the state and local recipients to audit based
on a variety of factors, including number and amount of Byrne JAG awards,
location, and prior audit history. The audits included Byrne JAG awards
made using Recovery Act and non-Recovery Act funds. In addition, two of
the audits (Providence, Rhode Island, and Jackson, Mississippi) also included
other Department of Justice grants awarded with either Recovery Act funds
or non-Recovery Act funds, such as Office of Community Oriented Policing
Services (COPS) Hiring Recovery Program grants or COPS Technology
grants.




       19
           In our December 2009 interim report, we identified 27 states that did not include
all the required elements in their program narratives. Following issuance of the interim
report, we found that one of the 27 states had provided a program narrative with all of the
required elements. Therefore, 26 applications had incomplete program narratives.


                                             12

              EXHIBIT 6: Office of the Inspector General Audits of 

                    State and Local Byrne Grant Recipients


                                                                               Month and
              Report Title and Number                        Location         Year Issued
 Limited Scope Audit of Marion County, South              Marion County,
                                                                              February 2010
 Carolina, Report SR-40-10-003                            South Carolina
 Office of Justice Programs, Edward Byrne Memorial
 Justice Assistance Grants Awarded to the City of       Providence, Rhode
                                                                               March 2010
 Providence Police Department, Audit Report                   Island
 GR-70-10-003
 Limited Scope Audit of City of Kenosha, Wisconsin,
                                                       Kenosha, Wisconsin      April 2010
 Police Department, Report SR-50-10-006
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the Office of the             Topeka, Kansas         May 2010
 Governor of Kansas, Audit Report GR-60-10-003
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the Nevada
                                                      Carson City, Nevada      June 2010
 Department of Public Safety, Audit Report
 GR-40-10-003
 Office of Justice Programs Awards to Justice Grants
 Administration: Edward Byrne Memorial State and
                                                        Washington, D.C.       June 2010
 Local Law Enforcement Assistance Grant Program,
 Audit Report GR-30-10-002
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the New Jersey
                                                      Trenton, New Jersey      June 2010
 Department of Law and Public Safety, Audit Report
 GR-70-10-004
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the Florida Department
                                                       Tallahassee, Florida     July 2010
 of Law Enforcement, Audit Report
 GR-40-10-004
 Office of Justice Programs, Edward Byrne Memorial
 Justice Assistance Grants Awarded to the City of        Atlanta, Georgia       July 2010
 Atlanta, Georgia, Audit Report GR-40-10-005
 Office of Justice Programs Grants Awarded to the
 City of Jackson, Mississippi, Audit Report            Jackson, Mississippi     July 2010
 GR-40-10-006
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the Indiana Criminal
                                                      Indianapolis, Indiana   August 2010
 Justice Institute, Audit Report
 GR-50-10-005
 Edward Byrne Memorial Justice Assistance Grant
 Program Grants Awarded to the Louisiana                   Baton Rouge,
                                                                              August 2010
 Commission on Law Enforcement, Audit Report                 Louisiana
 GR-40-10-007
Source: Office of the Inspector General Audit Reports

       The individual audits reviewed about $347 million in Byrne JAG
 Program funds awarded to the grantees by OJP since FY 2005, including
 more than $201 million in Recovery Act Byrne JAG funds awarded in FY


                                             13
2009.20 Based on interviews with grantee officials and reviews of grant
documentation, we determined the grantees used the FY 2006 through FY
2009 Byrne JAG funds for a variety of purposes including: (1) law
enforcement programs; (2) prosecution and court programs; (3) prevention
and education programs; (4) corrections and community corrections
programs; (5) drug treatment and enforcement programs; (6) planning,
evaluation, and technology improvement programs; and (7) administrative
costs.

      The purpose of these audits was to determine whether costs claimed
by the states and local governments under the Byrne JAG grants were
allowable, reasonable, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grants.21 All of the audits,
except for the limited-scope audits of Kenosha, Wisconsin, and Marion
County, South Carolina, tested compliance with the following grant
requirements:

       	 internal control environment to determine whether the controls
          in place for the processing and payment of funds adequately
          safeguarded grant funds and ensured compliance with the terms
          and conditions of the grants;

       	 grant drawdowns to determine whether the grantee adequately
          documented support for drawdowns and managed grant receipts in
          accordance with federal requirements;

       	 grant expenditures to determine the accuracy and allowability of
          costs charged to the grants;

       	 property management to determine if the grantee accounted for
          and properly used property acquired with grant funds;

       	 program income to determine if the grantee properly identified,
          reported, and used for allowable program expenses any program
          income;



       20
          The specific Byrne JAG grant awards reviewed varied among the individual grant
audits. Details of the Byrne JAG awards reviewed for each of the 12 grantees are contained
in the Audit Objectives, Scope, and Methodology found in Appendix I.
       21
           The Kenosha, Wisconsin, and Marion County, South Carolina, audits were limited-
scope audits of Byrne JAG grants to identify significant risks that represent impediments to
effective grant management and administration.



                                            14

       	 supplanting to determine if the grantee used federal funds to
          supplement existing state and local funds for program activities and
          not to replace state and local funds appropriated for the same
          purpose;

       	 management of subrecipients to determine how the grantee
          administered pass-through funds;

       	 Financial Status Reports, Progress Reports, and Recovery
          Act Reports to determine if the grantee submitted timely and
          accurate Financial Status Reports, Progress Reports, and Recovery
          Act Reports; and

       	 grant objectives and accomplishments to determine if the
          grantee met or is capable of meeting the grants’ objectives.22

       As discussed in the following sections, 9 of the 12 audits identified
significant weaknesses. As a result of these weaknesses, the OIG audits
questioned $618,915 in grant expenditures, and identified $3,482,466 in
enhanced revenues. While most of the deficiencies we noted on these audits
were in the non-Recovery Act Byrne JAG grants, we believe the results are
applicable more broadly to management of the annual Byrne programs. We
summarized the results of the OIG audits to determine if any of the
weaknesses identified were systemic and should be addressed by OJP
through enhanced oversight efforts. We considered weaknesses to be
systemic when three or more of the OIG audits found similar weaknesses for
a particular award condition area. For the nine award condition areas
tested, we found systemic weaknesses in the following six areas:

       	 internal control environment;

       	 grant expenditures;

       	 property management;

       	 management of subrecipients and contractors;

       	 Financial Status Reports, progress reports, and Recovery Act
          reports; and



       22
          The OIG audits of state and local Byrne JAG grants, except for the limited scope
audits, can be found on the Internet at www.justice.gov/oig/RecoveryAct.htm.



                                            15

          program performance and accomplishments.

      We found with systemic weaknesses as discussed in the following
sections.

Internal Control Environment

      The OJP Financial Guide requires grant recipients to establish and
maintain an adequate system of internal controls, which are the
organization, policies, and procedures used to help program and financial
managers achieve results and safeguard the integrity of their programs. The
guide also requires recipients to ensure that an adequate system of internal
controls exists for each subrecipient. The 12 OIG Byrne JAG audits found
that 4 of the 12 grant recipients had deficiencies related to the internal
control environment. The deficiencies included the lack of segregation of
duties over payroll functions, the lack of sufficient staff with the training and
experience to properly manage the grants, and the lack of adequate
procedures for providing oversight and monitoring of federal grant
transactions. A summary of all the internal control weaknesses is listed in
the following table.

           Exhibit 7: Internal Control Environment Deficiencies Found

                During OIG Audits of Byrne JAG Grant Recipients


       Grant Recipient                              Deficiencies Found
Washington, D.C., Justice Grants   The single audit identified multiple control weaknesses
Administration                     for the District of Columbia: (1) investment and cash
                                   counts not reconciled timely; (2) lack of segregation of
                                   duties within People Soft (payroll system);
                                   (3) noncompliance with procurement regulations;
                                   (4) inadequate monitoring of subrecipients;
                                   (5) inadequately supported time charges; (6) inaccurate
                                   Financial Status Reports; and (7) journal entries not
                                   supported by adequate documentation to help
                                   determine whether the underlying transactions were
                                   allowable under the grant.
City of Jackson, Mississippi       The 2008 Single Audit Report had multiple findings that
                                   directly affected federal awards, including a finding that
                                   the city’s procedures for the administration of grants do
                                   not provide for appropriate oversight and monitoring of
                                   its federal award transactions.
Atlanta, Georgia, Police           The City of Atlanta did not have sufficient staff with the
Department                         training and experience to properly manage the grants.
                                   The city’s 2009 Single Audit contained multiple findings
                                   that could affect DOJ grants. The Single Audit stated
                                   that the city is “not a low-risk grantee”.




                                            16

        Grant Recipient                              Deficiencies Found
 Indiana Criminal Justice InstituteControls did not appear adequate to ensure compliance
                                   with applicable requirements of both the JAG and
                                   Recovery Act JAG Programs. The grantee lacked
                                   sufficient staff and procedures to adequately monitor its
                                   subrecipients’ grant activities, records, and reports.
Source: Office of the Inspector General Audit Reports

 Grant Expenditures

        The OJP Financial Guide requires grantees to use the grant funds only
 for allowable expenses and maintain support for all expenses charged
 against the grant. The guide also requires income earned from federal grant
 programs or interest earned on federal grant funds to be recorded and used
 to further program objectives, or refunded to the federal government.

        We asked grantee officials how they ensure that funds are used in 

 accordance with JAG requirements. The primary methods that the grantee 

 officials told us they used were on-site monitoring and desk reviews of

 subrecipients. Despite these monitoring efforts, our 12 OIG Byrne JAG 

 audits found that 5 of the 12 grant recipients had deficiencies related to 

 grant expenditures and program income. The audits found $618,915 in 

 unsupported and unallowable expenditures and more than $3.4 million in 

 enhanced revenue. A summary of all the grant expenditure weaknesses is 

 listed in the following table. 


                 Exhibit 8: Grant Expenditure Deficiencies Found 

                 During OIG Audits of Byrne JAG Grant Recipients


        Grant Recipient                              Deficiencies Found
 Washington, D.C., Justice Grants   The grantee could not provide supporting documentation
 Administration                     for $324,011 in grant expenditures. The grantee also
                                    made $53,495 in unallowable grant expenditures.
 City of Jackson, Mississippi       The grantee could not provide supporting documentation
                                    for $5,407 in grant expenditures.
 Atlanta, Georgia, Police           The grantee could not provide supporting documentation
 Department                         for $167,793 in grant expenditures. The grantee made
                                    $23,368 in unallowable grant expenditures.
 Indiana Criminal Justice Institute The grantee could not provide supporting documentation
                                    for $36,323 in grant expenditures and made $1,546 in
                                    unallowable grant expenditures. Further, the grantee
                                    did not identify and report $3,482,466 in program
                                    income related to the grant.
 Louisiana Commission on Law        The grantee could not provide supporting documentation
 Enforcement                        for $6,972 in grant expenditures.
Source: Office of the Inspector General Audit Reports




                                             17
Property Management

       The OJP Financial Guide requires that property acquired with federal
funds be adequately protected from loss. Grant recipient and subrecipient
property records must also be maintained and include, at a minimum, a
description of the property, serial number or other identification number,
location of the property, and records that indicate the use and condition of
the property. The 12 OIG Byrne JAG audits found that 5 of the 12 grant
recipients had deficiencies related to property management. The
deficiencies included not placing equipment items purchased with grant
funds into operation for years after purchase, not maintaining property
disposal records, and not reporting the loss of grant funded equipment to
the appropriate state officials. A summary of all the property management
weaknesses is listed in the table below.

              Exhibit 9: Property Management Deficiencies Found

               During OIG Audits of Byrne JAG Grant Recipients


       Grant Recipient                              Deficiencies Found
Kenosha, Wisconsin, Police         The Kenosha Police Department did not maintain
Department                         property disposal records.
Nevada Department of Public        The grantee could not account for 1 of the 10 property
Safety                             items we tested. The item was a camcorder that was
                                   lost during a police operation in July 2008. The grantee
                                   could not provide documentation to support the
                                   disposition of the camcorder. The grantee did not report
                                   the loss to the appropriate state office as required until
                                   after we notified the grantee of the missing item.
Washington, D.C., Justice Grants   The Justice Grants Administration did not maintain a
Administration                     property inventory list or an inventory system capable
                                   of meeting the requirements in OJP’s Financial Guide.
Atlanta, Georgia, Police           The Police Department could not account for a $2,975
Department                         property item used to enforce speed limits. A police
                                   officer stated he did not know the location of the item
                                   that was assigned to an officer on duty in Iraq.




                                            18

        Grant Recipient                               Deficiencies Found
                                23
 City of Jackson, Mississippi        In December 2008, the city spent $79,546 in grant
                                     funds for a “line of fire” targeting package for the Police
                                     Department’s firing range. As of January 2010, the
                                     targeting package had not been installed pending site
                                     preparation work that had not been completed because
                                     the cost had risen from $15,000 to closer to $50,000.

                                     The city also spent $49,776 for 262 global positioning
                                     system (GPS) units to assist police officers in responding
                                     to calls. More than 2 years later, 161 of those GPS
                                     units, valued at $31,418, were still in the Police
                                     Department’s warehouse because the units provide only
                                     geographic coordinates. The GPS units are now
                                     obsolete because the Police Department is now installing
                                     laptop computers with GPS software.

                                   In September 2007, the city spent $204,600 in grant
                                   funds for 50 laptop computers to be installed in patrol
                                   cars. As of October 19, 2009, 47 of the laptops, valued
                                   at $192,324, were still in the Police Department’s
                                   warehouse because of: (1) delays in upgrading the city’s
                                   network infrastructure, and (2) the Police Department
                                   wanting to install the laptops in newer vehicles needing
                                   additional equipment to complete installation. By
                                   January 2010, only 19 of the laptops had been installed
                                   in patrol cars.
Source: Office of the Inspector General Audit Reports

 Management of Subrecipients and Contractors

        The OJP Financial Guide states that grant recipients are responsible for
 monitoring subrecipients’ activities to provide reasonable assurance that
 subrecipients administer Federal awards in compliance with Federal
 requirements. The 12 OIG Byrne JAG audits found that 7 of the 12 grant
 recipients had deficiencies related to management of subrecipients. The
 deficiencies included the lack of staff to adequately manage and oversee
 subrecipients of Byrne JAG funds, lack of procedures for validating the
 accuracy of performance data reported by Byrne JAG subrecipients, and lack
 of support for decisions to award Byrne JAG funds to subrecipients with
 lower scoring peer review scores than subrecipients with higher peer review
 scores that were not selected. A summary of all the weaknesses in the



        23
           The property management issues we found during the City of Jackson, Mississippi,
 Byrne JAG audit were related to the Office of Community Oriented Policing Services
 Technology grant and not the city’s Byrne JAG grants. However, we believe these issues
 could occur on Byrne JAG grants if significant quantities of equipment items are purchased
 on those grants.


                                              19

management of subrecipients and contractors activities is listed in the table
below.

           Exhibit 10: Management of Subrecipients and Contractors 

                    Deficiencies Found During OIG Audits of 

                           Byrne JAG Grant Recipients 


       Grant Recipient                              Deficiencies Found
Office of the Governor of Kansas   Monitoring practices were not adequate to prevent
                                   discrepancies in progress and Recovery Act reports.

                                   One subrecipient made unapproved expenditures
                                   totaling $29,388, two subrecipients did not provide
                                   accurate support for progress reports, and one
                                   subrecipient was not able to provide any supporting
                                   documentation for progress reports.

                                   Also, 14 of 26 subrecipients' Job Creation and Retention
                                   Reports were accurate and supported, while 12 of 26
                                   subrecipients reported incorrect data on their Job
                                   Creation and Retention Reports.
Nevada Department of Public        The Office of Criminal Justice Assistance (OCJA),
Safety                             responsible for administering the grants, had no controls
                                   to ensure that progress reports submitted by
                                   subrecipients were accurate. An OCJA official stated
                                   that verifying the data would be time consuming and
                                   unnecessary because subrecipients would not
                                   intentionally report inaccurate data.
Washington, D.C., Justice Grants   The JGA did not always award funds to subrecipients
Administration                     with the highest ranking peer review scores. The
                                   grantee indicated that these decisions were made at the
                                   Director’s discretion, but could not provide
                                   documentation justifying or supporting the decisions.

                                   The grantee did not have a finalized policy in place
                                   outlining the solicitation and award processes.

                                   The grantee did not verify the accuracy of program
                                   information submitted by subrecipients in their quarterly
                                   reports.

                                   The grantee does not use the findings from reviews of
                                   subrecipients to assess risk when considering the
                                   subrecipients for future awards.




                                            20

       Grant Recipient                                Deficiencies Found
Indiana Criminal Justice Institute   The Institute lacked adequate staff to properly oversee
                                     and manage the JAG awards. The Institute had one
                                     program monitor assigned to oversee 139 subrecipients
                                     under the 2007 and 2008 JAG awards, as well as 34
                                     subrecipients under the 2009 Recovery Act JAG award.
                                     This individual was no longer employed by the Institute
                                     at the time of our audit, and no new employee had been
                                     hired to assume oversight of the Institute’s JAG-funded
                                     programs. The Institute also did not have a policies and
                                     procedures manual for subrecipients to use in managing
                                     awards.

                                     During the 39-month review period of the audit, the
                                     Institute’s documentation indicated that the Institute
                                     had only conducted site visits for 21 of the 139 sub-
                                     awards under the 2007 and 2008 JAG awards.

                                     One subrecipient received a site visit related to its 2007
                                     JAG-funded sub-award. At that time, the subrecipient’s
                                     program had few participants and the award lacked the
                                     specifics necessary to measure program goals and
                                     objectives. As a result, the Institute recommended the
                                     subrecipient develop more measurable grant objectives.
                                     The subrecipient never responded to the
                                     recommendation, yet the Institute awarded additional
                                     funds to this subrecipient under the 2008 JAG award.

                                     The Institute did not review or follow up with
                                     subrecipients when required forms or reports contained
                                     missing, incomplete, erroneous, or questionable
                                     information. Also, the grantee did not require its
                                     subrecipients to submit any supporting documentation
                                     with their reimbursement requests. Instead, the
                                     Institute simply paid subrecipients the amounts
                                     reflected on their submitted claims.

                                     The Institute staff approved numerous subrecipient
                                     budget proposals containing salary terms that were
                                     vaguely worded and were an open-ended portion of the
                                     employee’s total activity. In one instance, the Institute
                                     approved a subrecipient budget where it was estimated
                                     that one employee would work approximately one extra
                                     day each week and would receive an additional
                                     approximately one-half of that employee’s salary costs.




                                              21

        Grant Recipient                               Deficiencies Found
 City of Jackson, Mississippi      A City of Jackson official stated there were no policies or
                                   procedures for monitoring Hinds County because the
                                   city was not aware of the monitoring requirements. The
                                   only monitoring the City of Jackson did was to review
                                   the invoices that one county submitted for
                                   reimbursement of its grant costs. However, those
                                   reviews were not adequate because some payments to
                                   that county included unallowable and unsupported
                                   costs.
 Atlanta, Georgia, Police          The Police Department did not monitor its subrecipients
 Department                        and had no procedures for doing so. Consequently, 61
                                   percent of reimbursements to one subrecipient were not
                                   adequately supported by purchase orders, receipts,
                                   timesheets, or other supporting documentation. The
                                   Police Department received funding under the 2009
                                   Recovery Act grant to hire a Project Administrator to
                                   oversee eight subrecipients of Recovery Act funds. On
                                   June 15, 2010, a city official stated that a Project
                                   Administrator had been hired and was scheduled to
                                   begin work the following week.
 Louisiana Commission on Law       The staff conducting the monitoring reviews generally
 Enforcement                       spent only 4 hours during the visits and the audit found
                                   that the site visit reports contained unanswered
                                   questions or inaccurate information. In addition, the
                                   grantee did not complete 7 of 10 monitoring reports.
Source: Office of the Inspector General Audit Reports

 Reporting

        The OJP Financial Guide required grantees to submit to OJP two types
 of reports: Financial Status Reports and annual program progress reports.
 Financial Status Reports provided information on funds spent and the
 unobligated amounts remaining for the grants.24 The Financial Guide
 required that grantees submit the Financial Status Reports within 45 days
 after the end of each calendar quarter.25 The Byrne JAG annual progress
 reports provide information on the status of funded activities. FY 2008 and
 prior awards have a permanent annual progress reporting period of
 January 1 through December 31, with reports due March 31. For FY 2009
 and later awards, including Recovery Act Byrne JAG grants, recipients must
 submit quarterly Performance Metric Tool reports in addition to annual

        24
            Grant funds are obligated when a valid purchase order or requisition is issued to
 cover the cost of purchasing an authorized item on or after the begin date of the grant and
 up to the last day of the grant period.
        25
           Beginning with the quarter ended December 31, 2009, the Financial Status Report
 was replaced with the Federal Financial Report. The Federal Financial Report is required to
 be submitted 30 days after the end of the calendar quarter.


                                              22

progress reports. Grantees receiving Recovery Act funding also must submit
quarterly reports, which require both financial and programmatic data
specific to Recovery Act activities. Recovery Act grant recipients are
required to submit the Recovery Act Reports within 10 days after the close of
each quarter.

       Financial Status Reports

      The 12 OIG Byrne JAG audits found that 2 of the 12 grant recipients
submitted Financial Status Reports that were significantly late, with one as
late as 575 days. In addition, 2 of the 12 grantees submitted Financial
Status Reports containing significant inaccurate financial data, such as
incorrect grant expenditures. Exhibit 11 summarizes these findings.

             Exhibit 11: Financial Status Report Deficiencies Found

               During OIG Audits of Byrne JAG Grant Recipients


       Grant Recipient                              Deficiencies Found
Marion County, South Carolina      Marion County submitted the required Financial Status
                                   Reports 84 and 4 days late for its 2009 Recovery Act
                                   Byrne JAG grant. Marion county had a similar deficiency
                                   with its 2005 Byrne JAG grant reporting when it did not
                                   submit five of six required Financial Status Reports and
                                   submitted the final financial report 575 days late. Grant
                                   management officials said they had not had a grant
                                   manager and were not aware of the requirements for
                                   submitting the Financial Status Reports.
Washington, D.C., Justice Grants   The Financial Status Reports submitted for the 2008
Administration                     Byrne JAG award contained expenditures for
                                   unapproved subrecipients. A difference of more than
                                   $466,000 existed between what was reported on the
                                   Financial Status Reports and the actual expenditures for
                                   the approved subrecipients.
Atlanta, Georgia, Police           Three of 27 Financial Status Reports tested were
Department                         submitted from 1 to 82 days late. Two of the Financial
                                   Status Reports were late because the person responsible
                                   for preparing the reports had only been in her position
                                   for a short time and was not aware that she was
                                   responsible for submitting the Financial Status Reports.
                                   City officials could not explain why the other report was
                                   submitted late.




                                            23

        Grant Recipient                               Deficiencies Found
 Indiana Criminal Justice InstituteThe grantee did not report program income on the
                                   Financial Status Reports submitted to OJP even though
                                   the quarterly financial reports from some subrecipients
                                   reflected program income. Grantee personnel
                                   responsible for preparing the Financial Status Reports
                                   stated that they were not aware that program income
                                   earned should have been included on the Financial
                                   Status Reports.
Source: Office of the Inspector General Audit Reports

        Annual Progress Reports

       The 12 OIG Byrne JAG audits found that 5 of the 12 grant recipients
 submitted annual progress reports that were significantly late, with one as
 late as 339 days. In addition, 6 of the 12 grantees submitted annual
 progress reports containing significantly inaccurate data, including
 inaccurate performance measurement data. Exhibit 12 summarizes these
 findings.

             Exhibit 12: Annual Progress Report Deficiencies Found

                During OIG Audits of Byrne JAG Grant Recipients


        Grant Recipient                               Deficiencies Found
 Marion County, South Carolina        The grant recipient did not submit any of the annual
                                      progress reports for its 2005 Byrne JAG grant, except
                                      for the final progress report. The grant period was from
                                      October 1, 2004, through September 30, 2008. Grant
                                      management officials said they had not had a grants
                                      manager and were not aware of the requirements for
                                      submitting progress reports.
 Kenosha, Wisconsin, Police           One of five annual progress reports tested was not
 Department                           submitted in a timely manner. The progress report
                                      associated with the 2006 Byrne JAG award for the
                                      period ending December 31, 2008, was filed 26 days
                                      late.
 Office of the Governor of Kansas     Only three of the six subrecipients sampled provided
                                      adequate and accurate support regarding progress
                                      reports submitted. Two subrecipients did not provide
                                      accurate support for progress report data and one
                                      subrecipient was not able to provide any supporting
                                      documentation for progress report data. Grant officials
                                      could not explain why the subrecipients were unable to
                                      support the reported information.
 Nevada Department of Public          The eight performance measures tested in the annual
 Safety                               progress report for one of the grant recipient’s 2008
                                      Byrne JAG grants for October 1, 2007, through
                                      December 31, 2008, were inaccurate. Seven
                                      performance measures were understated and one
                                      performance measure was overstated.


                                              24

       Grant Recipient                              Deficiencies Found
Washington, D.C., Justice Grants   For the 2008 Byrne JAG award, the grant recipient
Administration                     submitted the first progress report timely, but had not
                                   submitted the second required progress report by the
                                   March 31, 2010, due date. For the 2009 Recovery Act
                                   Byrne JAG award, the grant recipient did not submit the
                                   progress report in a timely manner. In addition, the
                                   Justice Grants Administration did not verify the accuracy
                                   of program information submitted by subrecipients in
                                   their quarterly reports.
Atlanta, Georgia, Police           Eleven annual progress reports for six Byrne JAG grants
Department                         were submitted from 6 to 339 days late. In addition, for
                                   one of the grant recipient’s 2006 Byrne JAG grants, the
                                   final progress report had not been submitted and was
                                   163 days late as of June 10, 2010. City officials cited
                                   various reasons for the late reports including layoffs of
                                   hundreds of city workers that put added responsibilities
                                   on the remaining staff, and failure to understand the
                                   reporting requirements.

                                   The audit also found four annual progress reports for
                                   two Byrne JAG grants that were either inaccurate or
                                   unsupported. For one of the 2006 Byrne JAG grants,
                                   the progress reports for the periods ended June 30,
                                   2008, and August 31, 2008, showed that 756 and 257
                                   youth, respectively, had completed nonviolence training.
                                   However, city officials could only provide one sign-in
                                   sheet showing that 19 youth attended conflict resolution
                                   training on June 2, 2007. For one of the city’s 2007
                                   Byrne JAG grants, the progress report for the period
                                   ended December 31, 2008, stated that in cooperation
                                   with the Police Athletic League, the city had organized
                                   several youth sports teams and purchased uniforms.
                                   The final progress report for the period ended
                                   March 31, 2009, cited numbers of arrests for various
                                   types of crimes. City officials could not provide support
                                   for these actions reported in the progress reports.




                                            25

        Grant Recipient                               Deficiencies Found
 Indiana Criminal Justice InstituteThe grantee significantly underreported three metrics on
                                   its Calendar Year 2008 annual report for its 2007 Byrne
                                   JAG grant. Regarding methamphetamine-related
                                   arrests, the number of arrests was underreported by
                                   705, the amount seized was underreported by at least
                                   2,763 grams, and the street value of the seizures was
                                   underreported by at least $785,917. While grantee staff
                                   knew about the inaccuracies prior to our audit, they had
                                   not notified OJP of the errors. Grantee staff said that
                                   the inconsistencies were caused from a lack of clarity on
                                   the subrecipient quarterly reporting forms for drug task
                                   forces, which were totaled for the annual report.
 Louisiana Commission on Law       The grantee submitted a single progress report for the
 Enforcement                       period ended December 31, 2008, for all of its Byrne
                                   JAG grants, instead of issuing a separate report for each
                                   grant as required. The report was also submitted 86
                                   days late. The report contained data on the
                                   accomplishment of goals, but the grant recipient could
                                   not provide baseline data for the goals we tested. The
                                   same situation occurred for the performance
                                   measurement tool report submitted for the 2009 Byrne
                                   JAG grant for the period ended September 30, 2009.
                                   Therefore, we could not determine if the performance
                                   data in this report was accurate.
Source: Office of the Inspector General Audit Reports

        Quarterly Recovery Act Reports

       The 12 OIG Byrne JAG audits found that 3 of the 12 grantees
 submitted Recovery Act reports containing significant inaccurate data, such
 as overstated and understated subrecipient data.

         Exhibit 13: Quarterly Recovery Act Report Deficiencies Found

               During OIG Audits of Byrne JAG Grant Recipients


        Grant Recipient                               Deficiencies Found
 Atlanta, Georgia Police              In its Recovery Act report for the quarter ended
 Department                           December 31, 2009, the city reported that it had
                                      created 22 new positions. However, documentation
                                      provided by the city showed that 3 of the 22 positions
                                      were filled after December 31, 2009. Therefore, the city
                                      overstated the December 31, 2009, report by three
                                      positions.
 Indiana Criminal Justice Institute   The grantee’s Recovery Act report for the quarter ended
                                      December 31, 2009, double counted three
                                      subrecipients, which resulted in an overstatement of
                                      sub-awards made by three and total funds awarded by
                                      $5,773,533.




                                              26

        Grant Recipient                             Deficiencies Found
 Louisiana Commission on Law       The grantee’s Recovery Act report for the period ended
 Enforcement                       December 31, 2009, did not include data for 9 of the
                                   grantee’s 131 subrecipients. A grantee official stated
                                   they did not have any notes about why one report was
                                   late, one subrecipient submitted its report after the
                                   federal reporting deadline, and another subrecipient had
                                   not accepted its award by the reporting deadline. The
                                   official did not know why three subrecipients did not
                                   submit data. The other three subrecipients provided a
                                   variety of reasons for not submitting reports including:
                                   (1) the agency had a backlog of reports, (2) staff had a
                                   family emergency, and (3) staff was not informed of the
                                   notices to report.
Source: Office of the Inspector General Audit Reports

 Program Performance and Accomplishments

        The grant award documents require grant recipients to perform
 activities related to meeting the program goals and accomplishments stated
 in the grant solicitation and application.

        We asked grantee officials how they identify and share best practices
 among subrecipients. While some grantee officials told us they had no
 formal procedures for identifying and sharing best practices, the methods
 other grantee officials told us they used included: (1) using customer
 satisfaction surveys, (2) using e-correspondence to communicate
 information, (3) conducting training programs with subrecipients, and
 (4) holding staff and community justice meetings to share information. 

 Despite these efforts, the 12 OIG Byrne JAG audits found that 4 of the 12 

 grant recipients had deficiencies related to program performance and 

 accomplishments. 


            Exhibit 14: Program Performance and Accomplishments 

                    Deficiencies Found During OIG Audits of 

                           Byrne JAG Grant Recipients 


        Grant Recipient                             Deficiencies Found
 Nevada Department of Public       Information contained in the progress report indicated
 Safety                            that activities had occurred that matched the goals of
                                   the JAG program. However, the progress reports
                                   submitted were based on information provided by
                                   subrecipients, and the Nevada Office of Criminal Justice
                                   Assistance does not verify the information. Therefore,
                                   we could not confirm whether progress was made
                                   towards program goals and objectives.




                                            27

        Grant Recipient                             Deficiencies Found
 City of Jackson, Mississippi      We could not determine whether the City of Jackson met
                                   or was meeting the goals and objectives of the grants
                                   because it had not identified appropriate measures of
                                   performance or a method for measuring progress.
 Atlanta, Georgia, Police          The grant recipient did not meet, or could not show that
 Department                        it met, most grant goals and objectives.
 Louisiana Commission on Law       The grant recipient made sub-awards for allowable
 Enforcement                       programs according to the JAG purpose areas.
                                   However, we were not able to determine how well the
                                   grant recipient is accomplishing its goals and objectives
                                   because it reported performance based upon
                                   subrecipient reports that are not verified to supporting
                                   documentation.
Source: Office of the Inspector General Audit Reports

       We also asked grantee officials what effect has Byrne JAG funding
 fluctuations had on their plans to implement their criminal justice efforts.
 Some grantee officials told us that projects went underfunded and had to be
 cut back, while other projects were not funded at all. Officials from the
 Florida Department of Law Enforcement told us that they fund programs that
 can be completed in one year so that the funding fluctuations will not affect
 program progress. New Jersey officials said that because of the uncertainty
 of federal funds, New Jersey develops new programs by setting aside several
 years of funding within federal funding cycles to stabilize new projects for
 implementation.

 Conclusion

       Our individual audits of 12 Byrne JAG grantees concluded that multiple
 grantees had deficiencies in the following areas:

           internal control environment (4 grantees),

           grant expenditures (5 grantees),

           property management (5 grantees),

           monitoring of subrecipients and contractors (7 grantees),

           reporting (8 grantees), and

           program performance (4 grantees).

      The deficiencies we found indicate that grant recipients lack 

 appropriate procedures and practices in implementing important grant 



                                             28

requirements established by OJP and the Office of Management and Budget.
The failure to implement the grant requirements can lead to
mismanagement or improper use of grant funds. Because multiple grantees
had deficiencies in the same areas, we believe that OJP should issue
additional guidance to all Byrne JAG grant recipients to help improve grantee
compliance in these areas. While most of the deficiencies we noted on these
audits were in the non-Recovery Act Byrne JAG grants, we believe the
results are applicable more broadly to management of the annual Byrne
programs. This is because many of the requirements for the annual Byrne
programs and the Recovery Act Byrne program are similar such as the
requirements to: (1) maintain supporting documentation for drawdowns and
expenditures, (2) account for property acquired with grant funds, and
(3) submit timely and accurate financial and progress reports.

Recommendations

We recommend that the Office of Justice Programs:

1.	 Establish procedures to ensure that future Byrne JAG solicitations:
    (1) clearly describe what material is required to be submitted with the
    grant application, and (2) instruct applicants that applications lacking
    any of the required material will be sent back for additional information.

2.	 Do not process future Byrne JAG applications until required material is
    received.

3.	 Provide additional training and oversight of Byrne JAG grant recipients to
    ensure that they:

    	 establish adequate internal controls for managing and safeguarding
       Byrne JAG Program funds;

    	 expend Byrne JAG funds in accordance with program guidelines and
       maintain adequate documentation to support expenditures;

    	 establish and implement adequate property management procedures
       to ensure property purchased with grant funds are adequately
       protected against loss and waste;

    	 establish policies and procedures for monitoring subrecipients’
       activities to provide reasonable assurance that subrecipients
       administer Byrne JAG funds in accordance with program guidelines;

    	 submit financial and progress reports in a timely manner;


                                      29

	 submit financial, progress, and Recovery Act reports containing
   accurate data; and

	 maintain adequate documentation to show they are meeting the
   goals and objectives of their Byrne JAG grants.




                                30

     2. OJP’S MANAGEMENT OF RECOVERY ACT AWARDS MADE
        UNDER THE BYRNE COMPETITIVE GRANT PROGRAM

     OJP’s management of Recovery Act awards made under the
     Byrne Competitive Grant Program was generally appropriate,
     and OJP made the discretionary awards in a prompt and
     reasonable manner. However, we noted some processes that
     could be improved. For instance, the BJA and the OJJDP allowed
     some grant applicants to continue through the competitive
     process even though the applications did not meet one or more
     of the solicitation requirements for which other applicants were
     denied further consideration. Some applicants that did not meet
     the solicitation requirements were selected for grant awards.
     The BJA and the OJJDP informed applicants of their denial when
     the applications were not passed during the basic minimum
     requirements review but did not tell the applicants the reason for
     their denial. The BJA and the OJJDP also did not enter the
     correct reasons for the denials in the Grants Management
     System. In addition, we noted deficiencies in the BJA’s and the
     OJJDP’s peer review processes for evaluating and scoring grant
     applications, and for fully documenting the basis for award
     recommendations.

      The Recovery Act provided $225 million to OJP for the Edward Byrne
Competitive Grant Program. OJP developed a spending plan that allocated
the $225 million for four purposes as shown in Exhibit 15. OMB approved
OJP’s spending plan in March 2009.

               EXHIBIT 15: OJP’s Allocation of Recovery Act 

                 Byrne Competitive Grant Program Funds


                             Purpose                                 Amount
    Edward Byrne Memorial Competitive Grant Program                 $120,750,000
    BJA Training and Technical Assistance                             $4,500,000
    OJJDP National and Local Youth Mentoring Programs                $97,500,000
    NIJ Research                                                      $2,250,000
    Total                                                           $225,000,000
   Source: Office of Justice Program’s Recovery Act Spending Plan

      For this audit, we reviewed the Byrne Competitive Grant Program and
the OJJDP National and Local Youth Mentoring Programs. The BJA Training
and Technical Assistance funding was included in the Byrne Competitive
Grant Program solicitation and we included that funding in our review. We


                                         31
did not review the NIJ Research funding because of the low amount of
funding involved. In total, our review encompassed $222.75 million, or
99 percent, of the Recovery Act Byrne Competitive Grant funding received
by OJP.

Byrne Competitive Grant Recovery Act Funds

       After we informed OJP of transparency problems with their JAG
website in March 2009, we noted another transparency issue pertaining to
the web-posting of information pertaining to the Byrne Competitive grants.
OJP's Recovery Act website identifies the $225 million for the Edward Byrne
Competitive Grant Program and provides a link to the BJA’s Recovery Act
website that provides more specific information about the funding.26
However, the BJA’s website discusses the planned use of only $222.75
million of the $225 million authorized for the Byrne Competitive Grant
Program as follows.

      	 $125.25 million was identified for the Byrne Competitive Grant
         Program.

      	 $97.5 million was identified for the OJJDP’s FY 2009 Recovery Act
         Local Youth Mentoring Program and FY 2009 Recovery Act National
         Youth Mentoring Program.

      OJP’s planned use of the remaining $2.25 million was not readily
disclosed on either OJP’s or the BJA’s Recovery Act websites. OJP officials
told us that the remaining $2.25 million would be used by the NIJ to perform
research and evaluation to improve the functioning of the criminal justice
system, assist victims of crime, and enhance youth mentoring programs.

       In addition, neither OJP’s nor the BJA’s websites disclose that $4.5
million of the $125.25 million allocated to the Byrne Competitive Grant
Program will be used by the BJA to solicit training and technical assistance
services, to include soliciting for a national organization to work
collaboratively with state administering agencies to support local justice
planning processes that influence the manner in which Byrne JAG funds are
used.

      OJP should revise the Byrne Competitive Grant Program funding
information contained on the BJA’s Recovery Act website to make it clear
that $2.25 million of program funds will be used by the NIJ to perform

      26
          OJP’s Recovery Act website can be found at www.ojp.usdoj.gov/recovery/, and
BJA’s Recovery Act website can be found at www.ojp.usdoj.gov/BJA/recoveryact.html.


                                          32

research and evaluation and $4.5 million will be used by the BJA to obtain
training and technical assistance services. In clarifying the website
information, OJP should include details about the planned use of the funds, a
description of how the transfer and use of the NIJ funds meet the purposes
of the Recovery Act, and links to any solicitations associated with these
funds.

Recovery Act Funding for the Byrne Competitive Grant Program and
Training and Technical Assistance

      On March 19, 2009, OJP’s BJA issued a solicitation for the Byrne
Competitive Grant Program. The solicitation provided that potential
grantees could apply for funding under one of the following eight categories.

     	 Category I: Comprehensive Data Driven Approaches to Preventing
        and Reducing Violent Crime

     	 Category II: Providing for Funding of Neighborhood Based
        Probation and Parole Officers as a compliment to Community
        Oriented Policing Services

     	 Category III: Reducing Mortgage Fraud and Crime Related to
        Vacant Properties

     	 Category IV: Hiring of Civilian Law Enforcement Support Personnel

     	 Category V: Enhancing Forensic and Crime Scene Investigations

     	 Category VI: Improving Resources and Services for Victims of
        Crime

     	 Category VII: Supporting Problem Solving Courts

     	 Category VIII: Training and Technical Assistance

     The BJA used a multi-step process to evaluate applications for its
Byrne Competitive Grant Program that included:

     	 basic minimum review of applications by an OJP contractor,

     	 a basic minimum and internal review of applications by BJA staff,

     	 a peer review by subject matter experts of applications that make it
        through the basic minimum review and internal review processes,


                                     33

     	 an internal review of high scoring applications by BJA staff,

     	 discussions with BJA leadership regarding strengths and
        weaknesses of high scoring applications,

     	 discussions with the Acting Assistant Attorney General regarding
        strengths and weaknesses of high scoring applications,

     	 an award recommendation process by the BJA program managers
        and the Acting Director of BJA, and

     	 an approval of awards by the Acting Assistant Attorney General.

     Exhibit 16 provides a more detailed overview of the multi-step award
process used by the BJA.




                                     34

              EXHIBIT 16: Overview of the BJA Competitive Award Process
                   for the Recovery Act Byrne Competitive Grants27



    Basic Minimum                                                          Award
                          Internal Review      Peer Review                                    Award Selection
    Requirements                                                      Recommendations


  Checks application      Checks proposals   Conducts peer             Conducts internal      BJA Director
  format (margins,        for programmatic   reviewer orientation      review of high         makes final award
  spacing and page        scope, as          calls to provide          scoring applications   recommendations
  lengths)                applicable         reviewers guidance        Discusses with BJA     Assistant Attorney
                                             on performing             leadership the
  Ensures that each       Eliminates                                                          General approves
                                             reviews                   strengths and
  application is          duplicate                                                           or disapproves
  complete (program       applications       Reviews each              weaknesses of high     award
  narratives, budgets,                       application for:          scoring applications   recommendations
  abstracts, and                             (1) statement of the
                                                                       Discusses with         BJA announces
  certifications)                            problem;
                                                                       Acting Assistant       final award
                                             (2) program design
  Excludes incomplete                                                  Attorney General the   decisions
                                             and implementation;
  and incorrectly                                                      strengths and
                                             (3) capabilities and
  formatted                                                            weaknesses of high
                                             competencies;
  applications                                                         scoring applications
                                             (4) budget; and
  Completes basic                            (5) impact/               Considers number
  minimum review                             outcomes,                 of jobs created and
  conducted by OJP                           evaluation,               retained
  contractor and BJA,                        sustainment, and          Considers other
  including the initial                      description of the        factors such as
  basic minimum                              applicant's plan for      geographic
  requirements                               collection of the data    location, peer
  checklist                                  required for              review
                                             performance               recommendations,
                                             measures                  scope and nature of
                                             Convenes                  proposal, past
                                             teleconference peer       performance, and
                                             review panels to          total dollar amount
                                             discuss evaluations       and budget items
                                             and change ratings,       requested
                                             if necessary, based       Excludes proposals
                                             on discussion             ranked low by peer
                                             Scores applications       review scores
                                             and scores are            Determines final
                                             weighted                  award amounts
                                             and averaged              Compiles funding
                                             to get final score        recommendation
                                             Ranks proposals           memorandum that
                                             based on scores           recommends award
                                                                       recipients

Source: OIG Analysis of the BJA competitive award selection process

         The BJA’s competitive award selection process generally begins by
   screening applications for basic minimum requirements. This screening is
   performed by contractor personnel for each of the eight solicitation
   categories using a checklist to ensure that each application is complete,

            27
             During the process for the Byrne Competitive Recovery Act awards, both the BJA
   Director position and the Assistant Attorney General position were filled by officials in an
   acting capacity.


                                                    35

formatted correctly, and submitted under the correct category. At the same
time, applications in categories I, III, V, VII, and VIII undergo an internal
review by BJA personnel who check each application to ensure that it meets
the scope of the category and that duplicate applications are excluded.
Categories II, IV, and VI did not go through an additional full internal review
because of the type of projects funded. BJA officials explained that these
categories had straight-forward objectives that did not require additional
internal reviews.

       According to BJA officials, applications that do not pass the basic
minimum review or the internal review are rejected and the applicants are
notified by the BJA of the rejection. The remaining applications move to the
peer review process, where they are usually reviewed by a panel of three
subject matter experts based on the program specific criteria outlined in the
solicitation. The peer reviewers assess and score each application in five
evaluation areas consisting of statement of problem; program design;
capabilities and competencies; budget; and impact/outcomes, evaluation,
sustainment, and description of the applicant’s plan for the collection of data
required for performance measures.

       After the peer reviewers evaluate and score each assigned application,
the BJA holds “consensus calls” with each peer review panel. The consensus
calls allow the three peer reviewers on each panel to discuss their ratings
with each other. The discussion allows the peer reviewers to share
considerations that some reviewers may have missed. Following the
consensus call, the peer reviewers may change their scores if they deem
appropriate. According to BJA officials, BJA staff monitors the consensus call
and makes notes of any peer reviewer bias and whether peer reviewers
appear to exert undue influence over other peer reviewers. BJA officials told
us that BJA staff takes these factors into consideration when making funding
recommendations. Peer reviewers may adjust their own scores during the
consensus call. The OJP contractor uses the final peer review scores to
compute a final weighted and averaged score for each applicant. The
scoring computation is done electronically in the Grants Management System
based on weights established in the grant solicitation as shown in the
following exhibit.




                                      36

              Exhibit 17: Weighted Scoring for the Recovery Act 

                          Byrne Competitive Grants


                                Element                       Weight
                 Statement of Problem                          15%
                 Program Design                                30%
                 Capabilities and Competencies                 25%
                 Budget                                        10%
                 Impact/Outcomes                               20%
                  Total                                       100%
                Source: BJA’s Solicitation for the Byrne Competitive Grants

       These weights were applied to each peer reviewer’s score for each
application. After the scores were weighted, the three weighted scores from
the three peer reviewers for each application were averaged to obtain the
final score for each application. The final score was then used to rank the
applications.

       After determining the final score rankings, to help determine which
applications to recommend for funding BJA staff conducted an internal
review of high scoring applications; held discussions with BJA leadership
regarding strengths and weaknesses of the high scoring applications; held
discussions with the Acting Assistant Attorney General regarding strengths
and weaknesses of the high scoring applications; considered the number of
jobs created and retained; and considered other factors, such as geographic
location, peer review recommendations, scope and nature of the proposal,
past performance, and total dollar amount and budget items requested.

      BJA staff then compiled for the BJA Director’s approval a funding
recommendation memorandum. The memorandum listed all the applications
peer reviewed, the final peer review scores, whether or not the applications
were recommended for award, and explanations for why any applications
scored higher than others were not recommended for funding. Under DOJ
guidelines, funding recommendation memoranda should document reasons
for providing awards to applicants whose proposals do not receive the
highest peer review scores.28

     After receiving the funding recommendation memorandum, the Acting
BJA Director made the final award recommendations and the Acting

      28
           In May 2008, the DOJ’s Associate Attorney General issued a memorandum
requiring that awarding agencies document their discretionary award decisions. The award
recommendation memorandum should include the peer review scores given to each
application and explain why an application that received a high peer review score did not
receive an award.


                                           37

Assistant Attorney General for OJP approved the recommendations. Given
that numerous in-depth discussions and reviews took place among BJA staff,
the BJA Acting Director, and the Acting Assistant Attorney General regarding
the high scoring and recommended applications, the Acting Assistant
Attorney General did not disapprove of the final recommendations.

     The following sections detail our assessment of the BJA’s
implementation of each phase of the award process described above for the
Byrne Competitive Grant Program.

Basic Minimum Requirements Review of Applications

      For the Byrne Competitive Grant Program, the BJA received 3,672
applications distributed among the 8 solicitation categories as shown in the
following exhibit.

                Exhibit 18: Applications Received for the Byrne

                   Competitive Grant Program Solicitation 

                                  By Category 


                                                                  Applications
   Category                   Category Description                 Received
               Comprehensive Data Driven Approaches to
        I
               Preventing and Reducing Violent Crime                      890
               Providing for Funding of Neighborhood Based
       II      Probation and Parole Officers as a Compliment to
               Community Oriented Policing Services                       227
               Reducing Mortgage Fraud and Crime Related to
       III
               Vacant Properties                                          124
               Hiring of Civilian Law Enforcement Support
       IV
               Personnel                                                  859
               Enhancing Forensic and Crime Scene
       V
               Investigations                                             398
               Improving Resources and Services for Victims of
       VI
               Crime                                                      630
      VII      Supporting Problem Solving Courts                          394
      VIII     Training and Technical Assistance                          150
                   Total Applications Received                          3,672
  Source: OIG Analysis of Bureau of Justice Assistance Data

       A BJA contractor used the basic minimum requirements checklist
included in this report as Appendix III to review the 3,672 applications and
identified 1,477 applications (40 percent) that did not meet one or more of
the solicitation requirements as shown in the following exhibit.



                                          38

            Exhibit 19: Applications Failing to Meet One or More
                      of the Solicitation Requirements

                                       Applications

                                   Did not Meet        Percent Failing
                                    One or More           to meet
           Category Reviewed       Requirements        Requirements
                I        890                 352                  40%
               II        227                  63                  28%
              III        124                  40                  32%
              IV         859                 364                  42%
               V         398                 171                  43%
              VI         630                 257                  41%
              VII        394                 170                  43%
             VIII        150                  60                  40%
            Totals     3,672               1,477                 40%
           Source: OIG Analysis of Bureau of Justice Assistance Data

      The solicitation for the Byrne Competitive Grant Program stated that
only applications submitted by eligible applicants that meet all other
requirements, such as timeliness, proper format, required attachments, and
responsiveness to the scope of the solicitation, would be evaluated, scored,
and rated by a peer review panel. The solicitation specifically required that
the application package include a Standard Form 424 (Application for Federal
Assistance), program abstract, program narrative, budget and budget
narrative, project timeline and position descriptions, and certifications
related to the appropriate use of funds, reporting on the use of funds, and
use of funds for infrastructure investments. However, although the 1,477
applications did not meet one or more of the solicitation requirements, we
found that the BJA selected 649 of these applications to continue through
the competitive process and be peer reviewed. The solicitation requirements
that were not met by these 649 applications included the following:

        application did not include a budget,

        application did not include a program narrative,

        application did not include a project timeline,

        application did not meet formatting requirements,

        application did not contain a Use of Funds Certification form, and




                                         39

      	 application did not contain an Infrastructure Investments
         Certification form.

       BJA officials told us that based on discussions among BJA and OJP
leadership, their unwritten policy was to not consider the lack of
certifications as a significant enough reason to warrant not sending 508
applications missing certifications to peer review. BJA and OJP officials
acknowledge that the certifications on use of funds and infrastructure
investments are required before a grantee can receive funds, but believe the
certifications are not essential before sending otherwise eligible applications
to peer review. Because only a small percentage of applications received are
actually selected for award, we agree that obtaining the certifications prior
to determining whether or not the applicant will be selected for award is not
essential and would be burdensome on BJA staff. However, 141 applications
not meeting other solicitation requirements also continued through the peer
review process.

       After we raised these issues to BJA, in April 2010 the BJA established a
written policy that clearly defined the requirements that must be met for
applications to be sent to peer review. The policy provided that future
solicitations must contain basic requirements and that additional
requirements must be clearly identified as required for peer review in the
solicitation.

      Further analysis showed that the BJA selected some applications to
continue through the competitive process and be peer reviewed that did not
meet one or more of the solicitation requirements, at the same time it
denied other applications for not meeting those same basic minimum basic
requirements. Four of these applications that did not meet the solicitation
requirements were selected for award. We found these issues for the
applications in Categories I, II, V, VII, and VIII as detailed in the following
sections.

      Category I Applications

       For the Category I applications, we found that the BJA denied 84
applications that failed to meet one or more of the solicitation requirements.
Thirty-five of these 84 applications were denied because the applications
failed to meet a single requirement. These 35 applications either had no
budget (3), no program narrative (1), no project timeline (8), incorrect
formatting (21), or were missing certifications (2).

     The BJA did not deny 123 applications in Category I that failed to meet
one or more of these same solicitation requirements. Specifically, 3


                                      40

applications had no budget, 2 applications had no program narrative, 5
applications had no project timeline, 9 applications had incorrect formatting,
and 112 applications had missing certifications.29 Instead, the BJA selected
these 114 applications to continue through the competitive process and be
peer reviewed. Three of these 123 applications were selected for award.
The missing components for these three applications were either that the
application was missing certifications (2), or the formatting was wrong (1).
As previously discussed, even though the solicitation required the
certifications for the applications to be peer reviewed, BJA did not consider
missing certifications to be significant enough to warrant not sending the
applications to peer review. Consequently, BJA subsequently established
policy that does not require certifications in order for an application to go to
peer review. This discussion of certifications applies to certification issues
discussed in the following sections for Category VII and VIII applications.

      Category II Applications

       For the Category II applications, the BJA denied 17 applications that
failed to meet one or more of the solicitation requirements. Six of these 17
applications were denied because the applications did not contain a project
timeline (4) or were not formatted correctly (2).

      The BJA did not deny two applications in Category II that failed to
meet the formatting requirements. The BJA selected these applications to
continue through the competitive process and be peer reviewed. However,
these applications were not selected for award.

      Category V Applications

       For the Category V applications, the BJA denied 69 applications that
failed to meet one or more of the solicitation requirements. Seventeen of
these 69 applications were denied because the applications did not contain a
project timeline (6) or were not formatted correctly (11).

      The BJA did not deny three applications in Category V that failed to
meet the formatting requirements. The BJA selected these three
applications to continue through the competitive process and be peer
reviewed. However, none of the three applications was selected for award.




      29
         The total requirements not met add up to more than the 120 applications not
meeting the requirements because some applications did not meet multiple requirements.


                                          41

      Category VII Applications

       For the Category VII applications, the BJA denied 50 applications that
failed to meet one or more of the solicitation requirements. Twenty-four of
these 50 applications were denied because the applications did not contain a
project timeline (2), were not formatted correctly (21), or were missing
certification forms (1).

       The BJA did not deny 60 applications in Category VII that were missing
certification forms. The BJA selected these 60 applications to continue
through the competitive process and be peer reviewed. One of the 60
applications was selected for award.

      Category VIII Applications

      For the Category VIII applications, the BJA denied five applications
that failed to meet one or more of the solicitation requirements. Four of
these five applications were denied because the applications were not
formatted correctly (3) or were missing certification forms (1).

      The BJA did not deny 15 applications in Category VIII that were
missing certification forms. The BJA selected these 15 applications to
continue through the competitive process and be peer reviewed. However,
none of the 15 applications was selected for award.

       We asked BJA officials why they did not consistently apply the
solicitation requirements to all applicants. The officials told us that based on
meetings and discussions among BJA and OJP leadership, BJA established an
unwritten policy that applications would not be denied from going to peer
review because of missing certifications because they did not believe this
deficiency was significant. If the applications made it through peer review
and were selected for award, BJA officials told us that they would then make
sure the applicant submitted the certifications before drawing down any
grant funds.

       We note that while it is critical that BJA and OJP obtain certifications
prior to allowing grantees to draw down money, we agree that missing
certifications should not prevent applications from being peer reviewed. In
addition, we also believe that it is important to ensure that the solicitations
clearly define grant requirements and that BJA ensures requirements are
met when it evaluates grant applications. Failure to evaluate and deny
applications consistently for solicitation requirements creates the appearance
that some applicants are not being treated equally or fairly. We believe the
BJA’s newly established policy will help ensure the solicitations clearly define


                                      42

the requirements that applications must meet to be passed on to peer
review.

Notification of Applicants Not Passing the Basic Minimum Requirements
Review or the Internal Review

       The OJP’s Grant Manager’s Manual requires that rejected applicants be
provided a letter explaining the reason why the application was rejected. In
OJP’s Grant Management System, grant managers select one of several
listed reasons for rejecting applications.30

       According to the BJA’s records, the BJA denied 1,049 applications that
failed the basic minimum review, the internal review, or both reviews. We
selected a sample of 96 of the 1,049 applications and requested
documentation from BJA officials to determine whether the applicants were
notified of the denial and of the reason for the denial. We found that for 1 of
the 96 applications, the BJA’s records incorrectly showed the application had
been denied when in fact the application had been peer reviewed.
Therefore, we reviewed the remaining 95 applications and determined the
BJA notified all 95 applicants of the denial. However, the BJA did not inform
any of the applicants of the reason for the denial. BJA officials told us it was
their practice to not inform applicants of the reason for denials resulting
from the basic minimum requirements review or internal review processes
because of the cost, time, and workload required to provide this
information. The officials also told us that the denial letter contained contact
information for the BJA which the applicants could use to contact the BJA if
they had questions.

      We recommend that, to make the process more transparent, the BJA
should inform the applicants that fail the basic minimum requirements
review of the reasons for denying their applications. Doing so could lead to
applicants submitting better application packages in the future that meet the
basic minimum requirements and thus increase the competition for awards.


       30
           The reasons for rejecting an application that can be selected in the GMS are:
(1) applicant rejected due to disbarment or suspension, (2) applicant did not demonstrate
financial capability, (3) applicant failed to meet civil rights requirements, (4) applicant failed
to respond after submitting grant application, (5) applicant failed to satisfy grant
requirements, (6) applicant not eligible to apply, (7) applicant rejected due to unsatisfactory
past performance, (8) applicant submitted more than one application, (9) applicant
withdrew application, (10) application incomplete, (11) application submission in conflict
with other state or local applicant, (12) application submitted after deadline, (13) applicant
applied under the wrong solicitation, (14) competitive process selected other applicants,
(15) concept paper application that will not result in an award, and (16) funding withdrawn
or discontinued.


                                               43

        We also found that the BJA grant managers did not enter into the GMS
the appropriate reason for denying the 95 applications. For each of the 95
denials, the grant managers recorded the denial reason in the GMS as the
“competitive process selected other applicants.” However, none of these 95
applications made it past the basic minimum requirements review or the
initial internal review and into the competitive peer review process. All 95 of
the applications were actually denied for one or more of the other 15
reasons selectable in the GMS. While this is not required by the Peer Review
Manual, we believe this is important information that should be entered
accurately.

      Because the GMS does not accurately reflect reasons applications were
denied, it cannot be used to identify trend data that might help identify
weaknesses in the process. For example, the GMS could be used to
determine that a significant number of rejections resulted from a certain
reason, such as non-responsive applications. Such data could indicate a
need to clarify guidance in future solicitations that could result in more
responsive applications and thus more competition among applicants.

Peer Review Process

       OJP employed a contractor to coordinate and conduct the peer review
process for all competitive grants awarded by OJP’s bureaus and offices. For
the Byrne Competitive Grant program, the contractor established 92 peer
review panels comprised of subject matter experts selected by the BJA.
Prior to each peer reviewer reading and scoring applications, the peer
reviewers participated in a category-specific conference call with the BJA to
discuss:

         peer reviewers’ responsibilities,

         specific requirements of each category evaluated, and

         how the peer reviewers should evaluate and score applications.

      If an OJP program office requires a deviation from the standard peer
review procedures, program office officials must submit a waiver to the
Office of the Assistant Attorney General for approval.

     For peer reviewers who could not participate in the call, the contractor
made available a recording of the call.

    To help guide the peer review process, OJP developed a peer review
manual containing the requirements for selecting peer reviewers and


                                       44

performing the peer reviews. We identified the following key requirements
for testing OJP’s peer review process on the Byrne Competitive Grant
applications.

     	 Each peer review panel must consist of a minimum of three peer
        reviewers.

     	 The peer reviewers must be approved by the bureau or program
        office leadership.

     	 Each peer reviewer must complete and sign a confidentiality
        agreement through which the peer reviewer agrees to not disclose
        information to any person or entity without the written consent of
        the BJA Director or the Director’s designee.

     	 Each peer reviewer must complete and submit a Disclosure of
        Conflicts of Interest form identifying any potential conflicts with the
        applications assigned to review, or any other applications submitted
        under the solicitation for which the reviewer is aware. The reviewer
        must also agree to immediately stop work and make OJP aware of
        any conflicts that the reviewer becomes aware of during the review
        process.

     	 If a peer reviewer identifies any conflicts, those conflicts must be
        satisfactorily resolved before the peer reviewer can participate in
        the peer review process, or continue participation if the conflict
        arose during the review process.

     	 Each peer reviewer must score each evaluation category listed in
        the solicitation.

      To test these peer review requirements, we selected a sample of 283
of the 2,623 peer reviewed applications. We analyzed the 283 applications
and found that the peer review process was fairly and effectively
implemented, with some minor exceptions, as discussed below.

     Assignment of Peer Reviewers

      A minimum of 3 peer reviewers were assigned to review 278 of the
283 applications. For the remaining five applications, only two peer
reviewers reviewed the applications. BJA officials told us that two peer
review panels were convened with only two peer reviewers each because of
the late recusal of a reviewer on one panel and because of the failure of a
reviewer on another panel to submit required review information. In both


                                     45

cases, the BJA obtained a waiver from the Deputy Assistant Attorney
General to convene the panels with only two reviewers. Therefore, we do
not take exception to the two panels being convened with less than three
reviewers.

      However, the BJA did not inform the rejected applicants from these
peer review panels of the departure from normal procedures. Instead, the
non-funding letters that the BJA sent to the applicants stated incorrectly that
three independent peer reviewers evaluated the application and noted
strengths and weaknesses.

       In addition, we found that the BJA senior leadership did not approve
the peer reviewers as required by OJP’s peer review manual. Instead, the
BJA delegated peer reviewer approval authority to the staff level managers
for each category under the solicitation. It is important for the BJA senior
leadership to approve the reviewers in order to avoid the appearance that
BJA staff members are manipulating the process by selecting the peer
reviewers. In November 2009, BJA officials told us that in 2010, they plan
to follow the Peer Review Manual requiring Bureau Program Office leadership
to approve the reviewers.

      Completion of Confidentiality Agreements and Disclosure of Conflicts of
      Interest Forms

       A total of 251 different peer reviewers were assigned to review the
283 applications we sampled. All 251 peer reviewers had completed and
signed the Confidentiality Agreement and the Disclosure of Conflicts of
Interest forms as required. Five of the 251 reviewers indicated on their
Disclosure of Conflicts of Interest form that they had a potential conflict
related to reviewing the applications. For all five instances, BJA officials
reviewed the conflicts and appropriately determined that the potential
conflicts were not significant enough to interfere with the reviewers’ ability
to fairly evaluate the applications.

      Scoring of Applications

      The solicitation for the Byrne competitive grants required that the
applications be evaluated and scored in the categories of:

         statement of the problem;

         program design and implementation;

         capabilities and competencies;


                                       46

         budget; and

         impact/outcomes, evaluation, sustainment, and description of the
          applicant's plan for the collection of the data required for
          performance measures.

      The peer reviewers evaluated and scored each of the five categories as
required for all 283 applications we sampled. The reviewers scored each
category on a scale of 0 to 10, with 0 being the lowest score possible and 10
being the highest.

      After the peer reviewers evaluated and scored each assigned
application, BJA staff held conference calls with each peer review panel as
required. The calls allowed the peer reviewers on each panel to discuss their
scores, and the basis for their scores, with each other. Each peer reviewer
was then allowed to consider whether they wanted to adjust their score
based on the conference call discussion. After the conference call, each peer
reviewer finalized their scores of each application and these finalized scores
were used by the BJA to compute the overall score for each applicant.

       The scoring computations were done electronically in the Grants
Management System based on the following weights established in the
solicitation for each category.

             Exhibit 20: Weighted Scoring for the Recovery Act 

                         Byrne Competitive Grants


                              Element                        Weight
               Statement of Problem                           15%
               Program Design                                 30%
               Capabilities and Competencies                  25%
               Budget                                         10%
               Impact/Outcomes                                20%
                Total                                        100%
              Source: BJA’s Solicitation for the Byrne JAG
                      Competitive Grants

      After each peer reviewer’s score of an application was weighted, the
weighted scores from the three peer reviewers on the panel were then
averaged to come up with the final score that the BJA used to rank the
applications and make award recommendations. We verified that the final
scores for the 283 applications we sampled were correctly calculated based
on the scores of the individual peer reviewers and the weighting criteria
provided in the solicitation.



                                         47

Award Recommendations

      After the final scores were calculated for all the applications in each of
the eight solicitation categories, the OJP contractor ranked the applications
from highest to lowest final score within each category. Based on the
funding level that the BJA allotted to each category, BJA officials further
analyzed the top scoring applications to determine how many and which
ones would be funded. This analysis took into consideration factors such as:

      	 whether or not jobs were proposed to be created or retained,

      	 the cost of the proposed project in relation to the number of jobs to
         be created or retained,

      	 the scope and nature of the proposed criminal justice effort,

      	 whether the applicant is receiving grant funds to support similar
         activities through other Department of Justice funding sources,

      	 whether the applicant included unallowable construction or
         renovation costs in its proposal,

      	 the number and location of applications submitted for each state,

      	 past performance, and

      	 total dollar amount requested.

     Based on this analysis for each category, BJA officials recommended
120 of the 2,623 applications peer reviewed for awards totaling
$125,250,000 as shown in the following exhibit.




                                      48

             Exhibit 21: Applications Recommended for Award

                                   Applications

                       Peer    Recommended
            Category Reviewed    for Award      Amount
                I          551             20  $29,037,385
                II         186             19  $29,061,477
               III          98              8  $10,751,902
               IV          645             33  $22,747,487
                V          280             12   $8,313,977
               VI          517             14   $8,458,559
               VII         264              9  $12,379,213
              VIII          82              5   $4,500,000
             Totals      2,623           120 $125,250,000
           Source: OIG Analysis of Bureau of Justice Assistance Data

      In May 2008, the Associate Attorney General directed the OJP Acting
Assistant Attorney General to document all discretionary funding
recommendations and decisions. The Associate Attorney General’s policy
directed that future award recommendation memoranda must:

      	 contain a list of all applications received including the lowest scoring
         application funded as well as every application scoring higher,
         regardless of whether it was selected for funding;

      	 briefly explain why a listed application was not recommended for
         funding; and

      	 only categorize selections by categories published in the original
         program solicitation.

      Department officials said that this policy was implemented to ensure
that OJP documents its reasons for selecting certain proposals over others.
The policy allows OJP bureaus and program offices to exercise discretion
when awarding competitive grants, but also requires each bureau or
program office to list reasons for not funding proposals with high-ranking
peer review scores.

      We reviewed the BJA’s July 22, 2009, award recommendation
memorandum to determine if the memoranda complied with the Associate
Attorney General’s May 2008 policy directive. The BJA’s recommendation
memoranda appropriately categorized selections based on the categories in
the solicitation. The BJA also attached a list identifying all of the applications



                                         49

that were peer reviewed and the score of each application in order from
highest scoring to lowest scoring for seven of the eight categories.

      On the list for Category I, the BJA excluded 24 applications that were
peer reviewed. Twenty-two of the 24 excluded applications had a higher
score than the lowest scoring application recommended for funding,
including 10 of the 12 highest scoring applications. The BJA did not provide
an explanation in its memorandum for excluding these 22 higher scored
applications. The BJA told us that it excluded these 24 applications because
the applications related to programs for juveniles and domestic violence and
other Department of Justice funding was available for these programs, which
we concluded was a reasonable basis for the exclusion. The BJA also told us
that these applications were discussed with the Acting Assistant Attorney
General. According to BJA officials, the Acting Assistant Attorney General
agreed to keep the applications separate from the other Category I
applications and to not consider them for recommendation because they
were focused on juveniles and domestic violence and other funding was
available for this purpose. BJA officials said they forgot to put these
applications back into the mix after discussions with the Acting Assistant
Attorney General. Therefore, we determined that the BJA did not comply
with the Associate Attorney General’s May 2008 policy requiring that
explanations for not recommending such applications be included in the
funding recommendation memorandum.

       After we brought this concern to the attention of BJA officials, on
January 12, 2010, the officials prepared and submitted an addendum to the
July funding recommendation memorandum to include the 24 Category I
applications and explain why those applications were not recommended for
funding over lower scoring applications. For future solicitations, the BJA
should ensure that all applications scoring higher than the lowest scoring
application recommended for funding are included in the funding
recommendation memorandum and that an explanation for not
recommending those applications for funding is also included.

      We also noted that applications in four of the eight categories were not
recommended for funding even though the applications received the same
score as the lowest scoring application that was recommended for funding.
While BJA officials provided us reasonable explanations for why these
applications were not recommended for funding, BJA did not include an
explanation in the funding recommendation memorandum to show why the
identical scoring applications were not recommended for funding. We
recommend that future funding recommendation memoranda include
explanations for all applications not recommended for funding that received



                                     50

an equal or higher score than the lowest scoring application recommended
for funding.

Award Selections

      The Acting Director of BJA approved the July 22, 2009, funding
recommendation memorandum as submitted by the BJA program officials.
The Acting Director did not deny any applications recommended for funding
and did not approve any applications not recommended for funding. As a
result, the Acting Director sent the funding recommendation forward to the
Acting Assistant Attorney General for OJP for final approval of the 120
applications recommended for funding. The Acting Assistant Attorney
General for OJP approved the 120 applications for award on July 31, 2009.

        We noted that the funding recommendation memorandum contained
omissions, such as applications not meeting solicitation requirements that
were passed on to peer review, but such was not identified and explained in
the memorandum. Because it is possible that omissions from the funding
recommendation memorandum could affect the final approval by the Acting
Director of BJA or the Acting Assistant Attorney General for OJP, we believe
it is important for the funding recommendation memorandum to accurately
explain the circumstances regarding the evaluation and resulting
recommendation of applications for funding.

      We also noted that the funding recommendations appear to indicate
that only 2,623 applications met the solicitation requirements and
applications not meeting the solicitation requirements were excluded from
further consideration and peer review. However, as discussed in the
preceding sections, we found that the BJA sent 649 applications forward to
peer review that did not meet the solicitation requirements. In addition,
some of these 649 applications did not meet one of more of the solicitation
requirements for which other applications were denied further consideration.
These facts were not contained in and explained by the funding
recommendation memorandum. We asked BJA officials why the
memorandum did not correctly contain this information. The officials told us
that the basic minimum requirements checklist contained some items that
BJA wanted to collect but that BJA did not believe were essential for the
applications to go to peer review. However, as we noted during the audit,
the solicitation required that these items be submitted for the applications to
be peer reviewed, and some applications were passed on to peer review
even though they did not contain certain requirements while other
applications were denied because they failed to contain those same
requirements.



                                      51

      Approving officials should have a complete and accurate understanding
of how applications were evaluated and recommended for funding.
Approving applications for award without such complete and accurate details
increases the risk that all applications are not treated fairly. When preparing
future funding recommendation memoranda, the BJA needs to fully and
accurately describe the process used to evaluate applications and make
funding recommendations.

Recovery Act Funding for the Office of Juvenile Justice and
Delinquency Prevention’s National and Local Youth Mentoring
Programs

       On March 19, 2009, OJP’s Office of Juvenile Justice and Delinquency
Prevention (OJJDP) issued two separate solicitations for its Recovery Act
youth mentoring programs – one for the national program and one for the
local program. The solicitations included descriptions of each program and
instructed applicants to clearly document which program their application
focused on. The solicitation included an explanation of how the applications
would be reviewed and the scoring criteria for each required element of the
application.

       OJJDP used essentially the same multi-step process for evaluating
applications for its youth mentoring programs as the BJA used to evaluate
applications for its Byrne Competitive Grant Program. The primary
difference between OJJDP’s process and the BJA’s process was OJJDP
subjected the peer review scores to a statistical “normalization” process to
minimize variance related to peer reviewers who may have a predisposition
to score applications either too strictly or too leniently. The “normalization”
process is discussed in more detail later in this report.

     The following sections detail our assessment of OJJDP’s
implementation of each phase of the award process for its national and local
youth mentoring programs.

Basic Minimum Requirements Review of Applications

       OJJDP received 1,617 applications for its Recovery Act national and
local youth mentoring programs as shown in the following exhibit.




                                      52

           Exhibit 22: Applications Received for the National and
                   Local Youth Mentoring Program Solicitations

                                                                Applications
                           Solicitation                          Received
         Recovery Act National Youth Mentoring Program                   158
         Recovery Act Local Youth Mentoring Program                    1,459
           Total Applications Received                                 1,617
        Source: OIG Analysis of Office of Juvenile Justice and Delinquency
                Prevention Data

      An OJJDP contractor used the basic minimum requirements checklist at
Appendix IV to review the 158 applications for the National Youth Mentoring
Program and the checklist at Appendix V to review the 1,459 applications for
the Local Youth Mentoring program. The contractor identified 781
applications (48 percent) that did not meet one or more of the solicitation
requirements as shown in the next exhibit.

                 Exhibit 23: Applications Failing One or More
                     of the Basic Minimum Requirements

                                                    Applications
                                                            Percent
                                            Did not Meet   Failing to
                                             One or More     Meet
             Category              Reviewed Requirements Requirements
    National Youth Mentoring
    Program                               158                 92              58%
    Local Youth mentoring
    Program                             1,459               689               47%
      Totals                            1,617               781               48%
   Source: OIG Analysis of Office of Juvenile Justice and Delinquency Prevention Data

      The solicitations for the youth mentoring programs stated that only
applications submitted by eligible applicants that meet all other
requirements, such as timeliness, proper format, required attachments, and
responsiveness to the scope of the solicitation, would be evaluated, scored,
and rated by a peer review panel. The solicitations specifically required that
the application package include a Standard Form 424 (Application for Federal
Assistance), program narrative including a program abstract, budget and
budget narrative, logic model, timeline, resumes of all key personnel, job
descriptions for all key positions, and letters of support and commitment and
memoranda of understanding. Although the 781 applications did not meet
one or more of the solicitation requirements, the OJJDP selected 568 of
these applications to continue through the competitive process and be peer


                                          53

reviewed. The solicitation requirements that were not met by these 568
applications included multiple applications that were either not properly
formatted or did not include:

         a budget narrative,

         a program narrative,

         a timeline,

         an abstract,

         a logic model,

         resumes, or

         job descriptions.

       OJJDP officials also told us that, like BJA officials, they believed that
some of the solicitation requirements were not significant enough to deny an
application from going to peer review if not met. Specifically, the OJJDP
officials did not consider the missing timelines, abstracts, logic models,
resumes, and job descriptions to be significant enough reasons to deny the
applications from going to peer review. A total of 542 applications went to
peer review missing only items that the OJJDP did not consider significant.
The 26 applications not meeting other more significant solicitation
requirements, such as incorrect formatting, missing budget narratives and
worksheets, and missing program narratives, continued through the peer
review process. We agree that these missing items should not prevent
applications from being peer reviewed, but we also believe that it is
important to ensure that the requirements stated in the solicitation are
followed when evaluating the applications and that the solicitation clearly
defines the requirements as intended by the OJJDP.

      We asked an OJJDP official if the OJJDP had established a policy for
future solicitations similar to BJA’s policy that clearly defines the
requirements that must be met for applications to be sent to peer review.
The official told us that the OJJDP had not established such a policy, but
such a policy would be beneficial. We believe that the OJJDP should
establish a policy similar to BJA’s policy.

     Like the BJA, OJJDP selected applications to continue through the
competitive process and be peer reviewed although those applications did
not meet one of more of the solicitation requirements for which other


                                      54

applications were denied further consideration. One of the applications that
did not meet solicitation requirements was selected for award. These
selection issues are detailed in the following sections.

       National Youth Mentoring Program Applications

      For the National Youth Mentoring Program, the OJJDP denied 83
applications that failed to meet one or more of the solicitation requirements.
The tracking documentation provided to us by the OJJDP indicated that 22 of
these 83 applications were denied because the applications had either:

           no budget (1),

           no project timeline (1),

           incorrect formatting (4),

           no job descriptions (4),

           missing letters of support or memoranda of understanding (5),

           resumes consisting only of short biographical statements (5), or

           missing descriptions of capabilities and competencies (2).

       An OJJDP official told us that while the 22 applications had the above
noted deficiencies, 21 of the 22 applications were actually denied because
they did not meet the eligibility criteria requiring the organization meet the
definition of a national organization. The OJJDP official told us the remaining
application was denied because it did not meet formatting requirements.31
Yet, while 21 of the 22 applications were denied for not meeting the
definition of a national organization, the reasons for those denials were not
recorded on the tracking documentation provided to us by the OJJDP. OJJDP
should ensure that it properly records the reasons for denying applications
on its tracking documentation.

       According to the tracking documentation provided to us by the OJJDP,
OJJDP did not deny nine applications for the national program that also
failed to meet one or more of the solicitation requirements. The OJJDP

       31
          OJJDP, BJA, and OJP consider formatting problems to be important because
applicants using improper formatting, such as single spacing or wider margins, can include
much more detail in the allowed space than applicants that comply with the formatting
requirements. The use of improper formatting could give applicants a competitive
advantage over the format-compliant applicants.


                                            55

official told us that seven of the nine applications were missing only
solicitation requirements that the OJJDP did not consider significant enough
to warrant not sending the applications to peer review. For one of the
remaining two applications, the OJJDP official stated the application was not
formatted correctly and the OJJDP either considered the formatting issue to
be minimal or that the OJJDP sent the application to peer review in error.
For the other application, the OJJDP official told us that the application was
not formatted correctly and that the OJJDP sent the application to peer
review in error. Of the nine applications, one that was missing resumes was
selected for award.

      Local Youth Mentoring Program Applications

      For the Local Youth Mentoring Program, we found that the OJJDP
denied 130 applications that failed to meet one or more of the requirements.
Twenty-five of these 130 applications were denied because the applications
had either:

         no budget,

         no program narrative, or

         incorrect formatting.

       However, based on the tracking documentation provided to us by the
OJJDP, the OJJDP did not deny 24 applications for the local program that
failed to meet one or more of these same solicitation requirements. Instead,
the OJJDP selected the 24 applications to continue through the competitive
process and be peer reviewed. None of the 24 applications was selected for
award. An OJJDP official told us that for the 11 applications for which the
tracking documentation showed the applications contained either no
program narrative or budget documentation, the OJJDP determined that 7 of
the applications did actually contain a program narrative or budget
documentation and the remaining 4 applications were sent to peer review in
error. For the other 13 applications, the OJJDP official told us the
applications did contain incorrect formatting and were either sent to peer
review in error or the OJJDP determined the formatting issues were minimal
and did not warrant not sending the applications to peer review. However,
such determinations were not documented.

       We asked an OJJDP official why they did not consistently apply the
solicitation requirements to all applicants. The official told us that every
effort was made to apply the requirements to all applications consistently,



                                      56

and that if mistakes were made they were inadvertent because of the high
volume of applications being processed in a very compressed time.

      Not applying the solicitation requirements consistently results in the
appearance that applicants are not treated fairly. In addition, to ensure
fairness, the OJJDP needs to clearly define in its solicitation what
requirements are significant enough to result in the rejection of applicants
that fail to provide those requirements.

Notification of Applicants Not Passing the Basic Minimum Requirements
Review or the Internal Review

      As discussed for the BJA applicants, OJP’s Grant Manager’s Manual
requires that applicants not selected for award be provided a letter
explaining the reason why the application was not selected. In the GMS,
grant managers select one of several listed reasons for note selecting
applications.

      The OJJDP denied 271 applications (140 national and 131 local) based
on the basic minimum requirements review, the internal review, or both
reviews. We selected a sample of 30 of the 271 applications (15 national
and 15 local) and requested documentation from OJJDP officials to
determine whether the applicants were notified of the denial and informed of
the reason for the denial. The OJJDP notified all 30 applicants of the denial,
but did not inform any of the applicants of the reason for the denial. We
asked OJJDP officials why they do not inform the applicants of the reason for
denial. OJJDP officials told us it was their practice to not inform applicants of
the reason for denial if the applications are denied during the basic minimum
requirements review or internal review processes. The officials said that the
standard letter they used has been the practice at the OJJDP for several
years and that it provided the applicant with contact information through
which it could obtain information about the reason for the denial. In
addition, for those applications that go on to be peer reviewed but are not
awarded funds, the OJJDP does provide the applicant with a copy of the
comments made by the peer reviewers.

      We believe the OJJDP should inform the applicants of the detailed
reason for denying their applications during the basic minimum requirements
review process. Doing so could lead to applicants submitting better
application packages in the future that meet the basic minimum
requirements and therefore, increase the competition for awards.

     The OJJDP grant managers did not enter the correct reason in GMS for
denying the 30 applications. For each of the 30 denials, the grant managers


                                       57

recorded the denial reason in GMS as the “competitive process selected
other applicants.” However, none of these 30 applications made it past the
basic minimum requirements review or the initial internal review and into
the competitive peer review process. All 30 of the applications were denied
for one or more of the other 15 reasons selectable in GMS.

       Because the GMS does not accurately document the reasons for denial,
it cannot be used to identify trend data that might help identify weaknesses
in the process. For example, the GMS could be used to determine that a
significant number of rejections resulted from a certain reason, such as non-
responsive applications. Such data could indicate a need to clarify guidance
in future solicitations that could result in more responsive applications and
thus more competition among applicants.

Peer Review Process

       OJP’s peer review contractor established 1 peer review panel for the
OJJDP’s National Youth Mentoring Program solicitation and 67 peer review
panels for the Local Youth Mentoring Program solicitation. Prior to each peer
reviewer reading and scoring applications, the peer reviewers participated in
a solicitation-specific conference call with OJJDP to discuss:

     	 the peer reviewers responsibilities,

     	 specific requirements of the category being evaluated, and

     	 how the peer reviewers should evaluate and score the applications
        assigned to them.

     For peer reviewers who could not participate in the call, the contractor
made available a recording of the call.

      As with the Byrne competitive grant applications, we reviewed the
following key requirements for the OJJDP’s youth mentoring program
applications.

     	 Each peer review panel must consist of a minimum of three peer
        reviewers.

     	 The peer reviewers must be approved by the bureau or program
        office leadership.

     	 Each peer reviewer must complete and sign a confidentiality
        agreement through which they agree to not disclose information to


                                     58

        any person or entity without the written consent of the OJJDP
        Director or the Director’s designee.

     	 Each peer reviewer must complete and submit a Disclosure of
        Conflicts of Interest form identifying any potential conflicts with the
        applications assigned to review, or any other applications submitted
        under the solicitation for which the reviewer is aware. The reviewer
        must also agree to immediately stop work and make OJP aware of
        any conflicts that the reviewer becomes aware of during the review
        process.

     	 If a peer reviewer identifies any conflicts, those conflicts must be
        satisfactorily resolved before the peer reviewer can participate in
        the peer review process, or continue participation if the conflict
        arose during the review process.

     	 Each peer reviewer must score each evaluation category listed in
        the solicitation.

      To test these peer review requirements, we selected a sample of 164
of the 1,346 applications that the OJJDP selected for peer review for the two
youth mentoring solicitations. We analyzed the 164 applications and found
that the peer review process was fairly and effectively implemented, with
some minor exceptions, as discussed below.

     Assignment of Peer Reviewers

      A minimum of three peer reviewers were assigned to review 159 of the
164 applications. Waivers were granted allowing only two peer reviewers to
review the other five applications because a peer reviewer for one review
panel was sick, and a peer reviewer for another panel could not finish the
reviews due to unexpected work hours. However, we noted that the OJJDP
leadership did not approve the peer reviewers as required by OJP’s Peer
Review Manual. Instead, the OJJDP Peer Review Coordinator responsible for
the Youth Mentoring Recovery Act grants approved the peer reviewers. It is
important to ensure that OJJDP leadership is aware of and approves peer
reviewers to help ensure that peer review policies and controls are followed.

     Completion of Confidentiality Agreements and Disclosure of Conflicts of
     Interest Forms

     A total of 179 different peer reviewers were assigned to review the
164 applications we sampled. Of the 179 peer reviewers, 177 had
completed and signed the Confidentiality Agreement and all 179 had


                                     59

completed the Disclosure of Conflicts of Interest forms as required. None of
the 179 reviewers indicated on their Disclosure of Conflicts of Interest form
that they had a potential conflict related to reviewing the applications.

      Scoring of Applications

      The solicitation for the youth mentoring program grants required that
the applications be evaluated and scored in the categories of:

         statement of the problem;

         program design and implementation;

         capabilities and competencies;

         budget; and

         impact/outcomes, evaluation, sustainment, and description of the
          applicant's plan for the collection of the data required for
          performance measures.

      The peer reviewers evaluated and scored each of the five categories as
required for all 164 applications we sampled. The reviewers scored each
category on a scale of 0 to 10, with 0 being the lowest score possible and 10
being the highest.

      After the peer reviewers evaluated and scored each assigned
application, the OJJDP held conference calls with each peer review panel as
required. The calls allowed the peer reviewers on each panel to discuss the
basis for their scores with each other. Peer reviewers were then allowed to
adjust their score based on the conference call discussion. After the
conference call, peer reviewers finalized their scores and these finalized
scores were used by the OJJDP to compute the overall score for each
applicant.

       The scoring computations were done electronically in the Grants
Management System based on the following weights established in the
solicitation for each category.




                                      60

             Exhibit 24: Weighted Scoring for the Recovery Act 

                      Youth Mentoring Program Grants 


                             Element                           Weight
           Statement of Problem/Program Narrative               20%
           Project/Program Design and Implementation            35%
           Capabilities/Competencies                            20%
           Budget                                               10%
           Impact/Outcomes and
           Evaluation/Performance Measure Data
           Collection Plan                                      15%
            Total                                              100%
           Source: Office of Juvenile Justice and Delinquency Prevention’s
                   Solicitations for the Recovery Act Youth Mentoring Program
                   Grants

      After each peer reviewer’s score of an application was weighted, the
weighted scores from the three peer reviewers on the panel were averaged
to obtain a preliminary final score. We verified that the preliminary final
scores for the 164 applications we sampled were correctly calculated based
on the scores of the individual peer reviewers and the weighting criteria
provided in the solicitation.

      Before ranking the applications, the OJJDP subjected the peer review
scores to a normalization process. Normalization uses statistical formulas
and analyses to minimize variance related to peer reviewers who may have
a predisposition to score applications either more strictly or more leniently
than the average peer reviewer. OJJDP requires the normalization process
when three or more peer review panels are used to evaluate applications.
Details of OJJDP’s “normalization” process are contained in Appendix VI.

      We reviewed the process used by the OJJDP to normalize peer review
scores for the youth mentoring program applications and found that the
normalized scores were accurately calculated by the OJJDP for the National
Youth Mentoring solicitation, but were not accurately calculated for the Local
Youth Mentoring solicitation. The details of our review are discussed in the
following sections.

      National Youth Mentoring Program Normalized Scores

      The OJJDP normalized the peer review scores for the 18 National Youth
Mentoring Program applications peer reviewed. After the scores were
normalized, the ranking of the 18 applications was the same based on both
the normalized scores and the non-normalized scores. Using data provided
by the OJJDP, we recalculated the normalized scores for the 18 applications.


                                         61

The normalized scores that we calculated matched the normalized scores
calculated by the OJJDP.

      Local Youth Mentoring Program Normalized Scores

      The OJJDP also normalized the peer review scores for the 1,328 Local
Youth Mentoring Program applications peer reviewed. The normalized scores
resulted in a significant change to the ranking of the applications compared
to the non-normalized scores. Using data and formulas provided by the
OJJDP, we recalculated the normalized scores for the 1,328 applications.
The normalized scores that we calculated did not match the normalized
scores calculated by the OJJDP for 258 of the 1,328 applications. OJP’s
contractor determined that data entry errors caused the miscalculations.

      Because our recalculated normalized scores differed from those
calculated by the OJJDP, we analyzed whether the recalculated scores
changed the ranking of the applications and therefore, would have changed
the awards made. The OJJDP awarded grants totaling $12,410,553 to the
25 highest ranked applicants and to the 27th highest ranked applicant based
on the normalized scores. The OJJDP skipped the 26th highest ranked
applicant because it would have been the fourth application funded for a
single state and the OJJDP wanted to ensure fair distribution of the funds to
other states. As a result of our recalculated normalized scores, the ranking
of the top 27 applications did not change. Therefore, the incorrect
normalized scores did not affect the awards made. However, we believe
that the OJJDP should ensure that future normalized scores are correctly
calculated to avoid incorrect rankings that could lead to improper awards.

Award Recommendations

      After the final scores were calculated for all the applications and the
scores were normalized, the OJJDP ranked the applications from highest to
lowest final score for both the national and local youth mentoring programs.
OJJDP officials further analyzed the top scoring applications to determine
how many and which ones would be funded. This analysis took into
consideration factors such as:

      	 the peer review scores,

      	 geographic distribution,

      	 the applicants’ capacity to achieve the Recovery Act objective of
         promoting economic recovery by preserving or creating jobs, and



                                     62

      	 the amount of funds available to support this initiative.

       Based on this analysis for each program, OJJDP officials initially
recommended four national youth mentoring applications for award.
However, because of a lack of available funding, the OJJDP cut the funding
for all 4 applications by 26 percent. After the cut, the OJJDP initially
recommended funding $84,786,629 for the 4 applicants. The OJJDP
recommended 26 local youth mentoring applications totaling $12,410,553
for award. Because the amount of these 30 awards totaled $97,197,182
and the OJJDP had $97,500,000 available for award, the OJJDP prepared an
addendum to its initial funding recommendations for the national program
and awarded the remaining balance of $302,818 to the 2 highest scoring
national applicants.

      The OJJDP issued its funding recommendation memoranda for the local
youth mentoring solicitation and the national youth mentoring solicitation on
July 6, 2009, and July 7, 2009, respectively. The OJJDP issued the
addendum for the national program on August 3, 2009. We reviewed the
funding recommendation memoranda to determine if the memoranda
complied with the Associate Attorney General’s May 2008 policy directive
requiring that the memorandum:

      	 contain a list of all applications received that includes the lowest
         scoring application funded as well as every application scoring
         higher, regardless of whether it was selected for funding; and

      	 briefly explain why a listed application was not recommended for
         funding.

      We found that the OJJDP’s recommendation memoranda contained an
attached list that identified all applications peer reviewed and the score of
each application in order from highest scoring to lowest scoring. The list
also contained an explanation why a listed application was not funded.

Award Selections

       On July 7, 2009, the Acting Administrator for the OJJDP approved the
funding recommendation memoranda submitted by the OJJDP program
officials for the national youth mentoring solicitation, and on July 6, 2009, he
approved the memorandum for the local solicitation. The Acting
Administrator did not deny any applications recommended for funding and
did not approve any applications not recommended for funding. The Acting
Administrator sent the funding recommendation memoranda forward to the
Acting Assistant Attorney General for OJP for final approval of the 4 national


                                       63

program applications and 26 local program applications. The Acting
Assistant Attorney General for OJP approved the 4 national applications for
award on July 7, 2009, and approved the 26 local applications for award on
July 9, 2009.

Inconsistency Between the BJA’s and the OJJDP’s Peer Review
Scoring Processes

      OJP policy gives the bureaus and program offices discretion on
whether or not to normalize peer review scores. As discussed in this
section, the OJJDP used a “normalization” process to eliminate potential
variances amongst individual peer reviewers scoring applications that arise
from the tendency of peer reviewers to score differently for the youth
mentoring program awards. The BJA did not use the “normalization”
process for scoring the Byrne Competitive Grant Program applications.
According to BJA officials, they instead had program officials monitor the
consensus calls of the peer review panels to observe whether any of the
peer reviewers appeared biased in their scoring of applications or tried to
exert undue influence over the other peer reviewers on the panel. The
program officials could then adjust the peer review scores based on any bias
or undue influence observed before ranking the applications.

      We agree with BJA officials that having program officials monitor and
observe the peer review consensus calls for potential bias and undue
influence is beneficial. However, as discussed below, this monitoring did not
compensate for inconsistency among reviewers in scoring applications higher
or lower than other reviewers of the applications. The normalization process
would compensate for this inevitable effect.

       Because the BJA did not normalize the peer review scores for the
Byrne Competitive Grant Program applications, we normalized the scores for
each of the eight categories to determine if normalization would have
identified significant variations among the peer review scores arising from
the tendency for some reviewers to score more or less strictly, and whether
reduction of the variations in scoring through normalization would have
significantly changed the rankings of the applications. We found that
significant variations did exist among the peer review scores for all eight
categories and that normalization of the scores would have significantly
changed the rankings of the applications for all eight categories
Overall, only 46 percent of the applications that made the BJA’s lists of
highest scoring applications for the 8 categories would have made the lists
had the peer review scores been normalized. As shown in the following
exhibit, the percentage of applications that would have made the highest



                                     64

scoring applications lists after normalization ranged from 73 percent for
categories II and III to 14 percent for category V.

          Exhibit 25: Effects of Normalization of Peer Review Scores 

                    on the Ranking of Applications for the 

                     Byrne Competitive Grant Solicitation 


                                              Number of These
                 Number of Highest           Applications in the
                Scoring Applications           Highest Scoring          Percentage of
                from which Awards            Applications Group          Applications
  Category          Were Made                after Normalization          Remaining
      I                    28                            14                      50%
     II                    22                            16                      73%
     III                   11                             8                      73%
     IV                    33                            15                      45%
      V                    14                             2                      14%
     VI                    20                             3                      15%
    VII                     9                             3                      33%
    VIII                    8                             5                      63%
   Totals                 145                            66                     46%
Source: Bureau of Justice Assistance Final Peer Review Data and the Office of
         	                                                                      the
         Inspector General’s Normalization of the Final Peer Review Data

     The detailed results of normalizing the scores for each category are
shown in Appendix VII.

       Because the BJA and the OJJDP disagreed on whether to normalize
peer review scores, we inquired whether OJP’s other bureaus and program
offices normalize peer review scores. We were told that the OJP’s Office of
Sex Offender Sentencing, Monitoring, Apprehending, Registering, and
Tracking normalizes peer review scores, while OJP’s other bureaus and
program offices do not. Having bureaus and program offices use different
methodologies for calculating peer review scores for similar Recovery Act
programs may give the appearance of inequitable treatment of applicants.
Consequently, OJP should consider standardizing the circumstances under
which normalization of peer review scores should be used for all bureaus and
program offices.

Recommendations

We recommend that the Office of Justice Programs:

4.	 Revise the Byrne Competitive Grant Program funding information
    contained on its website to make it clear that $2.25 million of program
    funds will be used by the NIJ. The revised website information should


                                           65

   include details about the planned use of the funds, a description of how
   the transfer and use of the NIJ funds meets the purposes of the
   Recovery Act, and links to any solicitations associated with these funds.

5.	 Direct the OJJDP to establish a policy similar to BJA’s policy that clearly
    defines the solicitation requirements that must be met for applications to
    be peer reviewed.

6.	 Establish procedures to ensure that applications are treated consistently
    when determining whether the applications meet the solicitation
    requirements and should be passed on to the peer review process.

7.	 Establish and implement a requirement that applicants be notified of the
    reasons for denying the applications.

8.	 Ensure that the reasons for denying applications are accurately recorded
    in the program offices’ tracking documentation and in the Grants
    Management System.

9.	 Ensure that denial letters sent to rejected applicants accurately explain
    any deviations from the stated policy of having three peer reviewers
    evaluate the applicants’ applications.

10. Ensure that the peer reviewers selected to evaluate applications are
    approved by Bureau of Justice Assistance leadership.

11. Establish a requirement that future funding recommendation memoranda
    include explanations for all applications not recommended for funding
    that received an equal or higher score than the lowest scoring application
    recommended for funding.

12. Ensure that future funding recommendation memoranda comply fully
    with the requirements contained in the Associate Attorney General’s May
    2008 policy directive, and the requirement established based on
    Recommendation 8 above.

13. Ensure that future funding recommendation memoranda accurately
    describe the process used to evaluate applications and make funding
    recommendations.

14. Ensure that the normalized peer review scores are accurately calculated
    before making award recommendations based on the normalized scores.




                                      66

15. Consider standardizing the circumstances under which normalization of
    peer review scores should be used for all bureaus and program offices.




                                   67

               STATEMENT ON COMPLIANCE WITH 

                   LAWS AND REGULATIONS 


       As required by the Government Auditing Standards we tested, as
appropriate given our audit scope and objective, selected transactions,
records, procedures, and practices, to obtain reasonable assurance that
OJP’s management complied with federal laws and regulations for which
noncompliance, in our judgment, could have a material effect on the results
of our audit. OJP’s management is responsible for ensuring compliance with
federal laws and regulations applicable to OJP. In planning our audit, we
identified the following laws and regulations that concerned the operations of
the auditee and that were significant within the context of the audit
objective.

      	 American Recovery and Reinvestment Act of 2009

         (Public Law 111-5) 


      	 42 U.S.C. § 3751

      	 42 U.S.C. § 3755

      Our audit included examining, on a test basis, OJP’s compliance with
the aforementioned laws and regulations that could have a material effect on
OJP’s operations, through interviewing auditee personnel, analyzing grant
applications, assessing internal controls over the grant award process, and
examining grant monitoring and oversight processes.

      Except for the instances of non-compliance identified in our audit, we
did not identify any areas where OJP was not in compliance with the laws
and regulations referred to above. With respect to activities that were not
tested, nothing came to our attention that caused us to believe that OJP
management was not in compliance with the laws and regulations cited
above.




                                     68

              STATEMENT ON INTERNAL CONTROLS

      As required by the Government Auditing Standards we tested as
appropriate, internal controls significant within the context of our audit
objective. A deficiency in an internal control exists when the design or
operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of OJP’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. OJP’s management is responsible for the establishment and
maintenance of internal controls.

      As noted in the Findings and Recommendations section of this report,
we identified deficiencies in OJP’s internal controls that are significant within
the context of the audit objective and based upon the audit work performed
that we believe adversely affect OJP’s ability to ensure that: (1) the use of
Recovery Act funds are fully disclosed to the public, and (2) grant awards
are made in a fair and equitable manner. To address these deficiencies we
made multiple recommendations related to revising OJP’s Recovery Act
website to clearly describe its planned use of all Recovery Act funds, and
establishing procedures to strengthen certain aspects of the grant award
process.

       Because we are not expressing an opinion on OJP’s internal control
structure as a whole, this statement is intended solely for the information
and use of the auditee. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                       69

                        ABBREVIATIONS


BJA            Bureau of Justice Assistance
BJS            Bureau of Justice Statistics
Byrne JAG      Edward Byrne Memorial Justice Assistance Grant Program
COPS           Office of Community Oriented Policing Services
Department     Department of Justice
FBI            Federal Bureau of Investigation
GAO            Government Accountability Office
NIJ            National Institute of Justice
OIG            Office of the Inspector General
OJJDP          Office of Juvenile Justice and Delinquency Prevention
OJP            Office of Justice Programs
OMB            Office of Management and Budget
OVC            Office for Victims of Crime
OVW            Office on Violence Against Women
Recovery Act   American Recovery and Reinvestment Act of 2009
U.S.C.         United States Code




                                 70

                                                              APPENDIX I

            Audit Objectives, Scope, and Methodology

Objectives

      The objective of this audit was to determine if the Office of Justice
Programs (OJP) was properly managing Recovery Act funds in accordance
with Recovery Act and Office of Management and Budget guidelines and
sound grant management practices.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      We accomplished the audit objective by evaluating both the Recovery
Act Byrne programs and the regular Byrne program. We believe our results
for the regular Byrne program are directly relevant to the Recovery Act
Byrne programs. For the Recovery Act related work, the audit covered the
period from passage of the Recovery Act in February 2009 through August
2010. For the non-Recovery Act related work, the audit covered Byrne-
related activities from FY 2005 through FY 2009. We conducted fieldwork at
OJP headquarters in Washington, D.C., including the following OJP bureaus
and offices.

         Bureau of Justice Assistance (BJA) 

         National Institute of Justice (NIJ) 

         Office of Juvenile Justice and Delinquency Prevention (OJJDP) 

         Bureau of Justice Statistics (BJS) 


      We also conducted audits of Byrne JAG Program grants at the following
state and local locations.

         District of Columbia 

         State of Florida 

         State of Indiana 

         State of Kansas 



                                      71

          State of Louisiana 

          State of Nevada 

          State of New Jersey 

          City of Atlanta, Georgia 

          City of Jackson, Mississippi 

          City of Kenosha, Wisconsin 

          City of Providence, Rhode Island 

          Marion County, South Carolina 


        We selected the state and local recipients to audit based on a variety
 of factors including number and amount of Byrne JAG awards, location, and
 prior audit history.

        For the 12 state and local recipients, we reviewed the following Byrne
 JAG awards totaling about $145 million and Recovery Act Byrne JAG awards
 totaling more than $201 million.

               Exhibit 26: Byrne JAG and Recovery Act Byrne JAG Grants
                        Reviewed During Individual Grant Audits

                                                               Recovery Act Byrne
                                        Annual Byrne JAG          JAG Awards
      State or Local Grantee            Awards Reviewed            Reviewed
 District of Columbia                  FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 State of Florida                      FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 State of Indiana                      FYs 2007, 2008, 2009         FY 2009
 State of Kansas                       FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 State of Louisiana                    FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 State of Nevada                       FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 State of New Jersey                   FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 City of Atlanta, Georgia              FYs 2006, 2007, 2008
                                                                    FY 2009
 City of Jackson, Mississippi          FY 2007                      FY 2009
 City of Kenosha, Wisconsin            FYs 2006, 2007, 2008,
                                       2009                         FY 2009
 City of Providence, Rhode Island      FYs 2005, 2006, 2007,
                                       2008                         FY 2009
 Marion County, South Carolina         FY 2005                      FY 2009
Source: Office of the Inspector General Audit Reports



                                            72
       Two of the audits (Providence, Rhode Island, and Jackson, Mississippi)
also included other Department of Justice grants awarded with either
Recovery Act funds or non-Recovery Act funds, such as Office of Community
Oriented Policing Services (COPS) Hiring Recovery Program grants or COPS
Technology grants.

     To accomplish the audit objective, we evaluated OJP’s management of
awards for the Recovery Act Byrne JAG Program and the Recovery Act Byrne
Competitive Grant Program.

       For the Byrne JAG Program, we evaluated whether the formula awards
to states, territories, and local governments in a prompt, fair, and
reasonable manner. We evaluated the accuracy of the BJS’s formula
allocations. We also evaluated the BJA’s development of the solicitations,
evaluation of applications, and process for recommending and approving
awards. In addition, we evaluated whether OJP fully disclosed the use of the
$2 billion in Byrne JAG Program funds on its Recovery Act website. Finally,
we performed individual audits of 12 state and local Byrne JAG Program
grant recipients to evaluate compliance with grant requirements.

       For the Byrne Competitive Grant Program, we evaluated whether OJP
made discretionary awards in a prompt, fair, and reasonable manner. We
also evaluated the BJA’s and the OJJDP’s processes for evaluating grant
applications, and for recommending and approving applications for awards.
In addition, we evaluated whether OJP fully disclosed the use of the $225
million in Byrne Competitive Grant Program funds on its Recovery Act
website.




                                     73

                                                                       APPENDIX II

          Planned Uses of Recovery Act Byrne JAG Funds
              by the 56 State and Territories Funded
 State/Territory                              Planned Use of Funds
Alabama          The state planned to fund the following six projects: (1) drug and violent
                 crime task forces for providing expertise in drug interdiction, confronting
                 drug smuggling, and cooperating with federal and state authorities in
                 national anti-drug efforts; (2) state and local intelligence gathering and
                 sharing systems to address the void or gap in services; (3) law
                 enforcement equipment purchases for upgrading equipment, including but
                 not limited to vehicles, computers, radios, and weapons; (4) prevention
                 and education programs to forestall trouble by addressing and solving
                 problems that can cause crime as well as addressing crime-related
                 symptoms; (5) prosecution and court programs to continue employment
                 of prosecutors, investigators, and support personnel; and
                 (6) corrections and community corrections program to provide
                 rehabilitative transitional services that facilitate successful reentry of
                 offenders.
Alaska           The state planned to fund an additional five state troopers, one
                 administrative assistant, and one prosecuting attorney to increase the:
                 (1) number of investigations of internet crimes against children and
                 sexual abuse cases, (2) closure by arrest of sexual assault cases, and
                 (3) successful prosecution of cyber crimes.
American Samoa The territory planned to fund an increase in public safety through hiring of
                 employees in multiple categories including law enforcement, prosecution,
                 treatment/rehabilitation services, community oriented policing,
                 information technology and technical capacities, and administrative
                 assistants. The territory also planned to stimulate economic growth
                 through purchases of equipment, materials, and supplies from the private
                 sector and through travel to the mainland for specialized training in
                 various programs.
Arizona          The state planned to retain and create positions in the following four
                 priority areas: (1) multi-agency, multi-jurisdictional drug, gang, and
                 violent crime task forces and associated prosecution projects and civil
                 forfeiture efforts; (2) criminal justice information sharing projects;
                 (3) adjudication, forensic analysis, detention, and criminal justice system
                 support services; and (4) proven substance abuse prevention and
                 education programs.
Arkansas         The state planned to use the funds to: (1) provide assistance to state
                 and local law enforcement units to improve operational effectiveness in
                 controlling and deterring crime and support criminal justice projects and
                 activities including multi-jurisdictional drug task forces; (2) support
                 projects to improve the criminal justice system including correctional
                 facilities, justice sharing initiatives, judicial processing system, and
                 evidence procedures; and (3) administer JAG funding to units of local law
                 enforcement to assist with equipment needs.




                                            74

 State/Territory                             Planned Use of Funds
California       The state planned to fund local level multi-jurisdictional, multi-disciplinary
                 task force programs to: (1) reduce the amount of illegal drugs on
                 California streets, (2) remove children from illicit drug environments,
                 (3) eradicate marijuana gardens on public and private lands, (4) reduce
                 the number of weapons being transported across California borders for
                 illegal activities, and (5) dismantle the trafficking organizations that
                 commit the above crimes. The state planned to create or retain between
                 275 and 300 law enforcement positions over a 4-year period.
Colorado         The state planned to use the funds for the following seven programs:
                 (1) prevention and education programs, including delinquency prevention
                 and community policing efforts; (2) planning, evaluation, and technology
                 improvement programs, specifically those focusing on the improvement
                 and expansion of current knowledge about the criminal justice system to
                 improve decision-making and program implementation; (3) law
                 enforcement programs, including resource allocation, new equipment
                 purchases, and changing policies and procedures as necessary to
                 maximize resources in fighting crime; (4) corrections and community
                 corrections programs, including providing additional public correctional
                 resources, improving the corrections system, supporting intensive
                 supervision programs, and promoting long-range corrections and
                 sentencing strategies; (5) prosecution and court programs, including
                 expanding prosecutorial, defender, and judicial resources, and
                 implementing court programs with a special emphasis on management
                 and improvement based on better utilization of personnel or case routing;
                 (6) drug treatment and enforcement programs, including multi-
                 jurisdictional task forces that integrate federal, state and local law
                 enforcement agencies for the purpose of enhancing interagency
                 coordination and intelligence and facilitating multi-jurisdictional
                 investigations; and (7) crime victims and witness protection, including
                 programs to coordinate and integrate law enforcement, prosecution,
                 judicial efforts, and victim services to identify and respond to victims of
                 crime.
Connecticut      The state planned to use the funds to: (1) expand the information
                 system for the Department of Correction; (2) expand information sharing
                 systems between the Department of Correction, Board of Pardons and
                 Paroles, and local police; (3) upgrade the Automated Fingerprint
                 Information System; (4) increase drug task force investigations;
                 (5) increase the number of DNA samples; (6) expedite DNA processing;
                 (7) reduce collisions with police vehicles; (8) expand staff coverage at
                 domestic violence shelters; (9) increase access to sexual assault forensic
                 exams; (10) prepare assessments and evaluation reports on specific
                 Department of Correction programs; and (11) translate public information
                 materials.
Delaware         The state planned to use the funds for the following JAG program areas:
                 (1) law enforcement; (2) prosecution, defense, and courts;
                 (3) prevention and education; (4) corrections and community corrections;
                 and (5) planning, evaluation, and technology improvements. Actual
                 projects were not determined at the time of the application.




                                              75

 State/Territory                             Planned Use of Funds
District of      The state planned to use the funds to support the following six
Columbia         comprehensive funding initiatives: (1) prisoner re-entry to reduce
                 recidivism rates and increase the pro-social outcomes of youth and adults
                 returning to the District after incarceration; (2) evidence-based services
                 for adjudicated youth to reduce recidivism rates and increase the pro-
                 social outcomes of youth on probation and to strengthen and expand the
                 capacity of the District’s juvenile justice system to provide youth and their
                 families with evidence-based therapeutic services; (3) diversion initiatives
                 to reduce the number of court-involved, detained and imprisoned youth
                 and adults in the District by expanding and strengthening alternatives to
                 detention, prosecution, and incarceration services programs and systems
                 reform initiatives; (4) research and evaluation to improve the District’s
                 capacity to conduct rigorous research, evaluation demonstration projects,
                 and data management activities that are tailored to the needs of the
                 juvenile and criminal justice systems; (5) data and technology capacity
                 improvements to strengthen the permanent capacity of District juvenile
                 and criminal justice agencies and community based organizations to use
                 data and technology to strengthen core operations, improve collaboration
                 and increase transparency and accountability on program performance;
                 (6) at-risk youth and status offender diversion to strengthen the internal
                 operations, sustainability, and accountability of organizations that serve
                 at-risk adolescents and status offending youth; and (7) data indicators
                 project to produce and disseminate, on an ongoing basis, two monthly
                 data indicator reports for the juvenile and criminal justice system.
Florida          The state planned to use the funds to prevent and control crime and to
                 improve the functioning of the criminal justice system through funding
                 projects in the following areas: (1) prosecution and court programs;
                 (2) prevention and education programs; (3) corrections programs;
                 (4) drug treatment programs; (5) planning, evaluation, and
                 technology improvement programs; and (6) crime victim and witness
                 programs.
Georgia          The state planned to use the funds to promote working partnerships
                 between federal, state, and local governments to support a broad range
                 of activities to prevent and control crime and to improve the criminal
                 justice system under the following areas: (1) law enforcement;
                 (2) prosecution and court programs; (3) prevention and education
                 programs; (4) corrections and community corrections programs; (5) drug
                 treatment and enforcement programs; (6) planning, evaluation, and
                 technology improvement programs; and (7) crime victim and witness
                 programs.
Guam             The territory planned to use the funding to address programs under the
                 following priorities defined in its multi-year strategy: law enforcement,
                 sexual assault, treatment and rehabilitation, technology improvements,
                 and violent crime and evaluation.
Hawaii           The state planned to use the funding for programs that address sex
                 crimes and offenses, homicides and gang violence, property crimes, cyber
                 crimes, court services, specialized courts, offender treatment services,
                 mental health treatment and case management, youth services, reentry
                 programs and services, substance abuse treatment, drug enforcement,
                 and criminal justice information systems and technological needs.




                                             76

 State/Territory                             Planned Use of Funds
Idaho            The state planned to use the funds to support all state and local
                 components of the criminal justice system, from multi-jurisdictional drug
                 and gang task forces to crime prevention and domestic violence
                 programs, courts, corrections, treatment, and justice information sharing
                 initiatives.
Illinois         The state planned to use the funds in the priority areas of support for:
                 (1) programs which pursue violent and predatory criminals; (2) efforts
                 with law enforcement, prosecution, and probation to combat and disrupt
                 illegal drug use, violent crime, illegal gun and gang activity, and test drug
                 users; (3) programs which provide law enforcement agencies throughout
                 the state with necessary means to prevent, deter, or investigate crime
                 through staffing, training, special projects, or equipment in order to
                 improve public safety and quality of life; (4) prosecution efforts which
                 focus on prosecuting violent and predatory criminals and drug offenders;
                 (5) programs which contribute to the effectiveness and efficiency of the
                 criminal justice court system at state and county levels; (6) proven or
                 innovative prevention or intervention programs for juveniles and adults
                 identified as at-risk for involvement or already involved with the criminal
                 justice system to provide services aimed to mitigate risk factors that are
                 recognized as contributing factors of violent crime, drugs, gangs, guns or
                 other criminal behavior; (7) juvenile and adult re-entry programs and
                 programs that enhance jail or correctional facility security and safety;
                 (8) proven or innovative programs for those already involved in the
                 criminal justice system, those incarcerated, or those on probation which
                 are targeted to address recognized risk factors for recidivism by
                 mitigating risk factors that contribute to criminal behavior; (9) efforts to
                 implement integrated justice information systems throughout the state to
                 ensure that each component of the criminal justice system has access to
                 timely, complete, and accurate information necessary to make informed
                 decisions at each state of the criminal justice process; and (10) programs
                 which combat and disrupt criminal drug networks and programs that
                 provide substance abuse treatment.
Indiana          The state planned to use the funds to: (1) provide innovative law
                 enforcement programming to meet the needs of local Indiana
                 communities, (2) develop enforcement initiatives that target specific drug
                 crimes and offenders, (3) increase youth prevention programs,
                 (4) provide community based alternatives to incarceration, (5) develop
                 reentry programs, (6) enhance criminal justice information sharing
                 technology initiatives, and (7) create or maintain jobs in the criminal
                 justice field.
Iowa             The state planned to use the funds in a broad range of activities to
                 prevent and control crime and substance abuse and to improve the
                 criminal justice system. Priority areas for funding included substance
                 abuse prevention and treatment, youth development, drug enforcement
                 task forces, offender treatment and supervision, transitional services for
                 offenders, jail and prison diversion, and criminal justice system
                 enhancements.




                                             77

 State/Territory                            Planned Use of Funds
Kansas           The state planned to use the funds to preserve jobs for parole officers,
                 community corrections officers, juvenile correctional officers, special
                 agents for criminal investigations, criminal prosecutors, technical
                 specialists for criminal justice systems, and others working in the criminal
                 justice field. The state also planned to use the funds to maintain services
                 and programs with the least amount of interruption. These services and
                 programs include, but are not limited to, community corrections, juvenile
                 supervision and case management, internet safety, criminal investigations
                 and prosecutions, forensic evidence analysis, and training and prevention
                 efforts. In addition, the state planned to use the funds to purchase
                 equipment to facilitate and enhance justice information sharing, and
                 collaboration and problem solving at the state and local levels.
Kentucky         The state planned to use the funds for overtime for public safety officers,
                 enhanced surveillance and enforcement activities, training opportunities,
                 upgrading forensic and communications equipment, purchasing computer
                 and software technology, prevention programs, drug court and reentry
                 initiatives, and other related items.
Louisiana        The state planned to use the funds to: (1) establish or continue programs
                 to impact drug control and violent or non-violent crime and related
                 prosecution problems of the local jurisdictions across the state, as well as
                 projects that improve the criminal justice system and provide for effective
                 coordination of efforts; (2) address recidivism by strengthening those
                 areas of the criminal justice system where emphasis on prevention of
                 crime and drug abuse intervention, treatment, and rehabilitation has been
                 deficient; and (3) respond to the need for specialized law enforcement
                 and prosecutorial training for law enforcement, prosecution, and judicial
                 systems improvement.
Maine            The state planned to fund the following five objective areas:
                 (1) statewide multi-jurisdictional drug task force, (2) multi-jurisdictional
                 drug prosecution support, (3) Maine Integrated Community Safety
                 Information System, (4) correctional system improvement, and (5) law
                 enforcement and criminal justice initiatives.
Maryland         The state planned to focus use of the funds on security integration, a term
                 that means the state must have seamless coordination and consistent
                 information sharing between and among all agencies and entities involved
                 in the criminal justice system. Specific strategies for using the funds
                 include: an emphasis on violent adult and juvenile offenders; intelligence-
                 based parole and probation supervision; police, parole, and probation
                 partnerships; cross-border collaborations; data-driven policing strategies;
                 warrant service; gang enforcement; DNA and other laboratory
                 enhancements; gun trafficking initiatives; improvements in prison
                 security; and technological enhancements.
Massachusetts    The commonwealth planned to subgrant Byrne JAG Recovery Act funds to
                 support summer youth employment programs, community-based
                 prevention programs, district attorneys’ prosecution programs, victim
                 witness advocacy and community programs, sheriffs’ re-entry programs,
                 local law enforcement policing and programs, and state public safety
                 agencies’ core services.




                                             78

 State/Territory                             Planned Use of Funds
Michigan         The state planned to fund program goals that included: (1) the removal
                 of multi-jurisdictional narcotic offenders and conspiracies in the regional
                 area; (2) the reduction and solving of criminal activity; (3) increasing
                 community awareness (both regionally and locally) regarding the increase
                 in prescription and over-the-counter drug abuse and addiction among
                 youth and adults; (4) implementing long-term crime prevention strategies
                 within the target area that reduce crime and increase community
                 involvement and confidence in the criminal justice system; (5) improving
                 the operational effectiveness of law enforcement and prosecution through
                 the use of crime analysis, vertical prosecution, community involvement
                 and combined efforts; (6) increasing safety, productivity, communication
                 and efficiency for the criminal justice system and the service community;
                 (7) improving local correctional resources to resolve locally identified
                 problems in jails and detention centers with an emphasis on offenders
                 with substance abuse problems; (8) reducing substance abuse among
                 juvenile and adult offenders; and (9) offering a systems approach that
                 assists communities in responding to criminal justice issues unique to
                 their jurisdiction.
Minnesota        The state planned to use program funds in the areas of: (1) law
                 enforcement; (2) courts, prosecution, and public defense; (3) corrections;
                 (4) treatment; (5) prevention; and (6) crime victim services.
Mississippi      The state planned to coordinate use of funding with the present programs
                 that support victims of domestic violence, sexual assault and child abuse
                 victims, juvenile justice and child victims of crime. The state planned to
                 place major emphasis on family violence issues, concentrating on child
                 abuse and neglect, where resources will be made available to continue
                 funding multi-disciplinary teams to provide a coordinated approach to
                 child abuse investigations, prosecution, and treatment.
Missouri         The state planned to use the funds in the areas of: (1) multi-
                 jurisdictional drug task force; (2) upgrading criminal justice information
                 systems; (3) case management; (4) alternative sentencing;
                 (5) community oriented programs; (6) crime prevention; (7) youth
                 services; (8) drug treatment; and (9) crime victim and witness programs.
Montana          The state anticipated partial funding from Recovery Act monies of the
                 state’s seven multi-jurisdictional drug task forces. The state also
                 anticipated the possible funding of: (1) local law enforcement crime
                 prevention officers, (2) local community-based crime prevention council
                 programs, (3) corrections systems mental health personnel, (4) school
                 resource officers, (5) jail-based diversion and reentry train-the-trainer
                 program, and (6) a National Incident Based Reporting System software
                 upgrade.
Northern Mariana The territory planned to use the funds to provide full support to the law
Islands          enforcement and criminal justice state agencies through the creation of
                 45 new full time employees to assure effective implementation of their
                 mission. The employees requested would directly impact ongoing
                 programs focusing on addressing crime through the provision of services
                 directly to individuals and communities and on improving the
                 effectiveness and efficiency of the entire criminal justice system, including
                 the assurances of the safety of the community.




                                             79

 State/Territory                            Planned Use of Funds
Nebraska         The state planned to use the funding for the multi-jurisdictional drug and
                 violent crime task force, community prosecutorial activities, training
                 specific for drug and violent crime, and justice information sharing.
Nevada           The state planned to use the funding for: (1) retention and hiring of gang
                 and task force personnel, (2) increase drug and gang cases in task forces,
                 (3) increase drug and gang arrests in task forces, (4) consistent and
                 effective law enforcement training; (5) enhanced detentions and courts,
                 (6) increase drug treatment counseling, and (7) intelligence led policing
                 through technology.
New Hampshire    The state’s planned use of the funds included: (1) the enhancement of
                 investigative resources in the area of cold case and narcotics, (2) the
                 enhancement of prosecution resources in the area of state consumer
                 protection and county and local district court, (3) victim services in the
                 area of victim witness advocates and Child Advocacy Centers, and
                 (4) recidivism reduction and specialty court programs in the northern and
                 lesser-served areas.
New Jersey       The state planned to use the funds for its Safe Streets and Neighborhoods
                 Program focusing on three components to address violent crime: law
                 enforcement, prevention, and reentry. The law enforcement component
                 of the state strategy focuses on the support for interagency state, county,
                 and municipal level task forces targeting violent gangs, guns, and
                 narcotics through intelligence led, data driven, information sharing. The
                 prevention component of the state strategy focuses on comprehensive
                 efforts to reduce youth involvement with guns, gangs, and delinquency
                 through evidence-based programs that provide workforce readiness skills,
                 job placement, education, and youth development, expanding
                 intervention services offered to gang-involved youth and evidence based
                 truancy prevention programs. The reentry component of the state
                 strategy focuses on reducing recidivism through offering wrap-around
                 social services and workforce readiness skills to adult and juvenile
                 probationers and parolees at discharge and day reporting centers,
                 enhancing discharge planning for juvenile delinquents and offenders with
                 mental health needs, and establishing a pilot program for intervention
                 counselors to address technical parole violators.
New Mexico       The state planned to use the funds for the multi-jurisdictional task force.
                 The multi-jurisdictional task force approach, together with the
                 enforcement activities of the New Mexico State Police, will serve as the
                 foundation and the force required to eradicate drug trafficking, drug
                 abuse, and criminal activity associated with illicit drug abuse in New
                 Mexico.
New York         The state planned to use the funds in conjunction with the enactment of
                 the comprehensive Rockefeller Drug Law reforms to support local law
                 enforcement and prosecution programs, reentry services, substance
                 abuse treatment, probation, judicial diversion, alternative to incarceration
                 programs, and the operation of drug courts.




                                             80

 State/Territory                            Planned Use of Funds
North Carolina   The state planned to use the funds for: (1) evaluation and training to
                 improve court operations; (2) expansion of the Gang Net intelligence
                 information database, including probation offices, State Bureau of
                 Investigation, Homeland Security Intelligence network, and North Carolina
                 Justice Xchange; (3) support of overtime expenditures required to
                 expedite methamphetamine and violent crime investigations, and reduce
                 backlog at the State Bureau of Investigation Crime Lab; (4) 2-Year gang
                 prevention and intervention pilot programs in Cabarrus/Mecklenburg and
                 Nash/Edgecombe/Wilson/Halifax corridors of the state; (5) new additional
                 juvenile court counselors to assist the Department of Juvenile Justice and
                 Delinquency Prevention; (6) new community corrections intake officers;
                 (7) VIPER radios for improved communication in community corrections;
                 (8) VIPER equipment for local governments including State Highway
                 Patrol; (9) evidence based gang grants in consultation with Department of
                 Juvenile Justice and Delinquency Prevention; (10) establishment of a
                 statewide gang task force at the Governor’s Crime Commission;
                 (11) provide equipment help for successful Community Oriented Police
                 Services hiring applicants from local governments; and (12) training to
                 improve State Highway Patrol operations.
North Dakota     The state planned to use the funds to hire two forensic scientists and
                 purchase a DNA robot workstation for the State Crime Lab, to hire a
                 paralegal to assist with the handling of all civil commitment proceedings,
                 and to hire a grants/contracts officer for the Bureau of Criminal
                 Investigation.
Ohio             The state planned to use the funds in the following areas: (1) provide
                 safety measures and meet the needs of local communities through
                 innovative criminal justice programs; (2) develop enforcement and
                 training programs that target special needs victims or offenders;
                 (3) reduce impact of drug and firearm traffickers, gangs, pharmaceutical
                 diversion, terrorism, and other organized criminal activity on the health
                 and safety of Ohioans through multi-jurisdictional collaboration;
                 (4) reduce and prevent crime and the fear of crime through collaborative
                 prevention efforts to maintain order, solve problems, and improve the
                 quality of life in Ohio communities; (5) increase community-based
                 alternatives to incarceration and detention for non-violent offenders in
                 Ohio; (6) establish, expand, or improve Drug, Mental Health, and other
                 types of specialized dockets; (7) enhance court security systems, train
                 prosecution and court personnel; (8) support community mediation
                 programs that assist crime victims; (9) provide state and local officials
                 and practitioners needed information through research on priority Ohio
                 criminal justice issues and evaluation of programs related to Ohio criminal
                 justice priorities; and (10) reduce crime, increase public safety and
                 support the Ohio Incident-Based Reporting System.




                                            81

 State/Territory                            Planned Use of Funds
Oklahoma         The state planned to use the funds to: (1) reduce the trafficking,
                 importation, manufacturing, distribution, and possession of illegal drugs
                 and controlled substances throughout the state through the funding of
                 multi-jurisdictional drug task forces; (2) reduce violence related to gangs
                 and enhance public safety through prevention, enforcement, and
                 prosecution of gang-related crime; (3) assist local law enforcement
                 through the procurement of equipment; (4) promote technology
                 improvement and projects that enhance the integration of criminal history
                 records between criminal justice agencies that advance the functioning of
                 the criminal justice system; (5) reduce prison recidivism by providing
                 effective drug and alcohol treatment for incarcerated juvenile and adult
                 offenders; and (6) ensure the quality and timeliness of the prosecution of
                 capital crime cases within Oklahoma by establishing a Capital Litigation
                 Resource Prosecution Team.
Oregon           The Oregon State Police and the Oregon Criminal Justice Commission
                 proposed to use Oregon's Recovery Act Justice Assistance Grant to divert
                 some of the offenders convicted of Measure 57 crimes from prison if they
                 complete intensive “drug court” type programs. These programs will be
                 drug courts similar to Hawaii's Hawaii Opportunity Probation with
                 Enforcement program, which focuses on intensive supervision and
                 treatment, and immediate sanctions and rewards.
Pennsylvania     The state funding strategies included: (1) rectifying incomplete criminal
                 history records, (2) correcting inefficiencies in data management,
                 (3) improving insufficient system capacity, (4) rectifying insufficient law
                 enforcement/policing strategies, (5) overcoming prison/detention over-
                 utilization, (6) better handling offender management in communities,
                 (7) altering adult and juvenile problem behaviors, (8) publicizing
                 information on victims compensation and victims services, (9) mitigating
                 insufficient community-based collaborative problem solving,
                 (10) rectifying the problem of unknown program effectiveness, and
                 (11) providing assistance to meet training needs.




                                            82

 State/Territory                             Planned Use of Funds
Puerto Rico      Puerto Rico planned to use the funds for the following purposes:
                 (1) provide assistance to the state and local law enforcement units to
                 improve their operational effectiveness in controlling and deterring crime
                 and to a strike force composed of the State Police, State Bureau of
                 Special Investigations, and the Federal Bureau of Special Investigations to
                 dismantle and arrest members of interstate organized crime units;
                 (2) provide assistance to facilitate the processing of criminals through the
                 judicial system by making the criminal files, laboratory evidence, and
                 legal research available to the prosecutor before the trial; (3) provide
                 assistance to local and non-profit organizations, including faith based
                 organizations that provide services in areas of high criminal incidence and
                 drug distribution where youths are in high risk of getting involved in
                 criminal activities; (4) provide assistance to the Department of
                 Corrections to reduce the infiltration of drugs and weapons into the
                 correctional facilities; (5) reduce recidivism by assisting community
                 correctional programs by preparing the inmate to gain self confidence and
                 support before being released to the community; (6) provide additional
                 funds to the Department of Corrections for drug testing and treatment in
                 coordination with the Residential Substance Abuse Treatment program;
                 (7) fund the State Forensic Science Institute to update its criminal
                 laboratories and make forensic evidence available to law enforcement
                 agencies; and (8) fund projects providing assistance to severely battered
                 and exploited children, victims of domestic violence, and victims of violent
                 crimes, and for protecting witnesses against dangerous criminals.
Rhode Island     The state planned to fund goals that included: (1) more than 500 police
                 officers to benefit from 30 in-service trainings; (2) Rhode Island State
                 Police who will partner with Providence Police to patrol “hot spots” in the
                 evenings during the peak summer months and also from Thanksgiving
                 through the New Year’s Day holiday; (3) 80 adult High-Risk offenders will
                 be provided individualized re-entry services; (4) more than 50 juvenile
                 offenders will be provided food services job training; (5) disruption of an
                 identified drug ring; (6) 33 municipal police departments will purchase
                 needed technology and provide targeted officer overtime; (7) 250
                 targeted indigent defendants will be provided advocacy services;
                 (8) expansion of the Precious Metals and Pawns database; and (9) more
                 than 100 young adult probationers will be intensively supervised by a duo
                 of a police officer and a probation officer.
South Carolina   The state planned to fund goals that included: (1) drug and violent crime
                 enforcement to include multi-jurisdictional task forces, methamphetamine
                 enforcement, school resource officers, crime scene/forensic investigators;
                 (2) gang crime reduction programs by committing investigative resources
                 specifically to combat firearms violence and gang activity; (3) the
                 reduction of all sexual and domestic violence offenses through prevention,
                 enforcement, apprehension or adjudication; (4) the enhancement of state
                 and local forensic laboratories to include regional drug analysis
                 laboratories and crime lab backlog reduction programs; (5) law
                 enforcement communications programs which includes communication
                 equipment to include 800 MHz radios (mobile and portable), 800 MHz
                 user fees, laptops/mobile data terminals, and wireless connections; and
                 (6) law enforcement equipment which will provide local law enforcement
                 agencies and state agencies with updated equipment to enhance their
                 effectiveness, increase their technology, and enhance officer safety.


                                             83

 State/Territory                             Planned Use of Funds
South Dakota     The state planned to fund goals to: (1) ensure law enforcement agencies
                 are able to efficiently, effectively, and safely protect the lives, safety, and
                 property of all who visit and inhabit South Dakota; (2) continually
                 improve the technical operations of the interoperable communications
                 system by improving coverage by increasing the number of tower sites,
                 improving operation of subscriber radios through programming updates,
                 upgrading the network to the most recent standards, and increasing
                 number of users on the network; and (3) improve the functioning of the
                 criminal justice system in South Dakota.
Tennessee        The state planned to use the funds for programs including: (1) drug
                 courts, (2) correctional programs, (3) crime victim and witness programs,
                 (4) multi-jurisdictional drug and violent crime task forces, (5) criminal
                 justice professional enhancement training, (6) pretrial service delivery,
                 (7) technology improvement, and (8) community crime prevention.
Texas            The state planned to use the funds to: (1) increase programs that divert
                 juveniles away from criminal activities and toward productive life styles;
                 (2) increase programs that reduce crime and enhance resources for
                 prosecution of offenders; (3) increase programs that support solutions for
                 restoring victims of crime; (4) reintegrate offenders into the community;
                 and (5) reduce the potential for recidivism.
Utah             The state planned to use the funding to: (1) help maintain basic
                 statewide public safety services following budget cuts in 2009 and 2010;
                 and (2) help create, retain or restore criminal justice jobs in an effort to
                 stimulate the declining state and national economy.
Vermont          The state planned to use the funds to support the law enforcement
                 technology upgrades and new technologies needed to keep Vermont law
                 enforcement operating with the newest, most reliable, and robust
                 technologies.
Virgin Islands   The territory planned to use the funds toward goals that included: (1) law
                 enforcement programs to improve the operational effectiveness of law
                 enforcement; (2) prosecution and court programs to improve the
                 investigations and prosecution efforts especially related to drugs and
                 violent crimes in gangs and organized crime, promote alternatives to
                 detention, jail and imprisonment of non-violent offenders, and promote
                 the development of a Juvenile Drug Court Program; (3) prevention and
                 education programs to increase assistance to communities and
                 neighborhoods to prevent, reduce, and control crime; (4) corrections and
                 community corrections program to improve the correctional system;
                 (5) planning, evaluation, and technology improvement programs to
                 improve the Criminal Justice Record, improve the Forensic Unit for
                 improved and enhanced criminal investigative support and quality
                 assurance; and (6) crime victim and witness program to provide shelter
                 for victims and Witness Protection Program participants, and assistance
                 for victims of crime.
Virginia         The state planned to use the funds to hire or retain up to 685 deputy
                 positions in 123 Sheriffs’ offices statewide in FY 2010.




                                              84

State/Territory                            Planned Use of Funds
Washington      The state planned to use the funds toward the following goals: (1) create
                a gang prevention, intervention, and suppression program for targeted
                communities to reduce criminal gang activities in state prisons, reduce
                offender reentry risks of former gang members, initiate community-led
                local prevention and intervention projects for juveniles in communities,
                and provide for coalition building around assessment, planning,
                implementation, and enforcement; (2) retain prosecutor positions
                statewide; (3) distribute available funding to eligible designated units of
                local government in an initial solicitation to 135 jurisdictions and initiate a
                second distribution to local jurisdictions for competitive projects with a
                criminal justice nexus; (4) restore funding levels in the Byrne JAG multi-
                jurisdictional narcotics task force program to retain and restore 46 law
                enforcement positions, 10 administrative support positions, and 10
                prosecutor positions; (5) restore Byrne JAG Evaluation Program funding to
                research and evaluate functions; (6) retain and restore 16 state trooper
                positions through an existing cooperative agreement with the Washington
                State Patrol and enhance the agreement by creating 1 new supervisory
                position to reinstitute and operate the Byrne JAG Drug Task Force Peer
                Review Program; and (7) retain 2 State Administrative Agency program
                staff and create 1 new project position.
West Virginia   The state planned to use the funds toward goals to: (1) support five full
                time positions and provide a portion of two additional full time positions to
                plan, administer, and monitor the JAG formula grant program; and
                (2) support sub grantee projects that seek to address each of the
                identified priority areas established by the West Virginia Justice Assistance
                Grant Program Funding Committee as well as create and retain jobs in
                West Virginia. The priority areas are: Domestic Violence; Sexual
                Offenses; Violent Crime; Substance Abuse; and Juvenile Issues.
Wisconsin       The state planned to use the funds for: (1) creation of at least 94 jobs;
                (2) implementing 9 evidence-based prevention programs; (3) developing
                3 justice reinvestment programs, each with several projects; (4) funding
                6 identified programs for 3 years in the Department of Corrections;
                (5) supporting 2 justice system technology enhancement programs;
                (6) funding local law enforcement for 3 1-year grant programs;
                (7) funding 3 programs to reduce racial disparities in Wisconsin;
                (8) offering minority law student internships to 10 students; (9)
                supporting the State of Wisconsin for data collection software for traffic
                stops; and (10) providing for five programs to receive intensive data
                collection, performance measurement analysis, and evaluation.
Wyoming         The state planned to use the funds for six additional local law enforcement
                officers/deputies for assignment to the five Regional Drug Enforcement
                Teams to increase local law enforcement participation, coordination, and
                cooperation for the drug team that focuses enforcement efforts in their
                respective regions.




                                             85

                                                                                     APPENDIX III

            Basic Minimum Requirements Checklist 

       Used by the Bureau of Justice Assistance to Review 

                Recovery Act Grant Applications 


                             Basic Minimum Requirements Screening Checklist

                                                FY 2009

                                             Recovery Act:

                             Edward Byrne Memorial Competitive Grant Program



Applicant (Form 424-Box 5 Legal Name): ___________________________________________

GMS Applicant #: ___________________________                          Tracking #: ____________________

Federal Request: ___________________


The application contains an Abstract:
 Yes              No

Abstract Format
 Yes      No—12-point standard font
 Yes      No—1” standard margins
 Yes      No—Indicates title of Project
 Yes      No—Indicates the Category for which the applicant is applying
 Yes      No—Indicates Federal Request

The application contains a Program Narrative:
 Yes              No

Program Narrative Format:
  Yes    No—Double-spaced
  Yes    No—12-point standard font
  Yes    No—1” standard margins
  Yes    No—Narrative is 8 pages or less

Other Required Components:
  Yes    No—Standard 424 Form
  Yes    No—Budget Narrative
  Yes    No—Budget Detail Worksheet
  Yes    No—Project Timeline
  Yes    No—Reporting on the Use of Funds Certification
  Yes    No—Certification regarding Infrastructure Investments


Additional Comments:




Screened by/Date _____________________________

QC’d by/Date _________________________________




                                                       86
                                                                                                   APPENDIX IV

       Basic Minimum Requirements Checklist Used by 

  the Office of Juvenile Justice and Delinquency Prevention 

          to Review the Recovery Act National Youth 

                 Mentoring Grant Applications 

                                      Basic Minimum Requirements Screening Checklist

                                  FY 2009 Recovery Act National Youth Mentoring Programs



Applicant (Form 424-Box 5 Legal Name): ___________________________________________

GMS Applicant #: ___________________________                                 Tracking #: ____________________

Federal Request: ___________________         Date Application Submitted __________________

Project Period __________________________ Is Project Period for 3 years?
  Yes               No

The application was submitted by the April 20, 2009 deadline:
 Yes                No

Eligibility: Applicant is a National Organization:
  Yes                  No

The application contains a Program Narrative:
 Yes                No

Program Narrative contains the following sections:
  Yes    No—Statement of the Problem
  Yes    No—Impact/Outcomes, Evaluation, and Sustainment
  Yes    No—Project Design and Implementation
  Yes    No—Capabilities/Competencies

Program Narrative/Abstract Format:
  Yes    No—Double-spaced
  Yes    No—12-point standard font
  Yes    No—1” standard margins
  Yes    No—Narrative is 30 pages or less (including Project Abstract)

Other Required Components:
  Yes     No—Standard 424 Form
  Yes     No—Project Abstract (Is first page of Program Narrative and does not exceed 200 words)
  Yes     No—Budget Narrative
  Yes     No—Budget Worksheet
  Yes     No—Logic Model
  Yes     No—Project Timeline
  Yes     No—Resumes of Key Personnel
  Yes     No—Position Descriptions
  Yes     No—Letters of Support/Commitment and MOUs

Additional Comments:




Screened by/Date _____________________________

QC’d by/Date _________________________________




                                                            87
                                                                                                                APPENDIX V

       Basic Minimum Requirements Checklist Used by 

  the Office of Juvenile Justice and Delinquency Prevention 

           to Review the Recovery Act Local Youth 

                 Mentoring Grant Applications 

                                             Basic Minimum Requirements Screening Checklist

                                            FY 2009 Recovery Act Local Youth Mentoring Initiative



Applicant (Form 424-Box 5 Legal Name): ___________________________________________

GMS Applicant #: ___________________________                                            Tracking #: ____________________

Federal Request: ___________________        Date Application Submitted __________________

The Federal Request is within Allowable Limits ($500,000):
 Yes                   No

The application was submitted by the April 20, 2009 deadline:
 Yes                  No

Project Period __________________________ Is the Project Period Over 4 years?
  Yes                 No

Eligibility: Applicant has entered into a partnership with one or more public or private entities to form a “community partnership”, which
includes at a minimum one or more private organizations such as nonprofits, for-profits, community and faith-based organizations.
  Yes                    No

The application contains a Program Narrative:
 Yes                   No

Program Narrative contains the following sections:
  Yes      No—Statement of the Problem
  Yes      No—Impact/Outcomes, Evaluation, and Sustainment
  Yes      No—Project Design and Implementation
  Yes      No—Capabilities/Competencies

Program Narrative/Abstract Format:
  Yes      No—Double-spaced
  Yes      No—12-point standard font
  Yes      No—1” standard margins
  Yes      No—Narrative is 30 pages or less (including Project Abstract)

Other Required Components:
  Yes       No—Standard 424 Form
  Yes       No—Project Abstract (Is first page of Program Narrative and does not exceed 200 words)
  Yes       No—Budget Narrative
  Yes       No—Budget Worksheet
  Yes       No—SMART data
  Yes       No—Logic Model
  Yes       No—Project Timeline
  Yes       No—Resumes of Key Personnel
  Yes       No—Position Descriptions
  Yes       No—Letters of Support/Commitment and MOUs

Additional Comments:




Screened by/Date _____________________________

QC’d by/Date _________________________________




                                                                      88
                                                                             APPENDIX VI

         Description of the Office of Juvenile Justice and
             Delinquency Prevention’s Process for
               “Normalizing” Peer Review Scores

Title: Normalization Description  

As part of the peer review process, peer reviewers provide individual peer review scores for 
each grant application. After individual scores are obtained, the peer reviewers participate in 
consensus reviewers to discuss their results and attempt to seek consensus. As part of these 
discussions, the scores are adjusted to reflect more agreement. However, since some variance 
between the scores remain, it is necessary to normalize the peer review scores to minimize 
variance with peer reviewers who may have either bias to score too strictly or too leniently.  

Peer review scores are normalized according to the following steps.  

*        Using SAS, obtain the means and standard deviations of the raw scores by Consultant ID. 

*       Compute standardized z‐scores for each raw score, i.e., standardize them to a mean of 0 
and a standard deviation of 1 using the means and standard deviations of corresponding 
Consultant IDs. Z‐scores indicate the number of standard deviations away from a consultant’s 
mean score (positive or negative). This process redistributes the scores to more closely 
resemble a normal distribution graph, also known as the Bell Curve. It reduces the impact of 
outlying scores. 

*        Z‐scores are then normalized to a pre‐determined mean of 75 and a standard deviation of 
15, i.e., Normalized_score = z_score*15 + 75.  

*       Compute aggregate‐level statistics by Consultant ID, by Applicant ID, and overall. Copy 
results from SAS to Excel. 




                                                89

Example:

       Consider the following sample data:

           Consult 

App        ID        Score         

       1       123        54
       1      2130        65
       1      3500        44
       4       123        28
       4      2130        12
       4      3500        14
       5       123        95
       5      2130        97
       5      3500        71
       6       123        74
       6      2130        73
       6      3500        42
       7       123        83
       7      2130        66
       7      3500        49
       8       123        90
       8      2130        92
       8      3500        62
       9       123        91
       9      2130        94
       9      3500        91



First, compute means and standard deviations by Consultant ID:

       Consultant ID           Mean          Standard Deviation

       123                     73.57         24.43
       2130                    71.28         29.41
       3500                    53.29         24.45

Compute z-scores for each original score:

       z-score = (Original Score - Consultant Mean) / Consultant Standard Deviation

The z-score for the first score would be:

       z-score = (54 – 73.57) / 24.43
       z-score = -0.80106




                                               90

Normalize each z-score to a mean of 75 and a standard deviation of 15:

       Normalized Score = (z-score * 15) + 75

The normalized score for the first score would be:

       Normalized Score = (-0.80106 * 15) + 75
       Normalized Score = 62.98


Using another example, consider the last score in our example data (App 9, Cons ID 3500, Score
= 91):

       z-score = (Original Score - Consultant Mean) / Consultant Standard Deviation

       z-score = (91 – 53.29) / 24.45 

       z-score = 1.542331 


Normalize each z-score to a mean of 75 and a standard deviation of 15:

       Normalized Score = (z-score * 15) + 75 

       Normalized Score = (1.542331 * 15) + 75 

       Normalized Score = 98.13. 



Standard score
From Wikipedia, the free encyclopedia




comparison of various measures of the normal distribution: standard deviations, cumulative
percentages, Z-scores, and T-scores
"Standardize" redirects here. For industrial and technical standards, see Standardization.
For Z-values in ecology, see Z-value.


                                               91

In statistics, a standard score is a dimensionless quantity derived by subtracting the population
mean from an individual raw score and then dividing the difference by the population standard
deviation. This conversion process is called standardizing or normalizing.

Standard scores are also called z-values, z-scores, normal scores, and standardized variables.

The standard score indicates how many standard deviations an observation is above or below the
mean. It allows comparison of observations from different normal distributions, which is done
frequently in research.

The standard score is not the same as the z-factor used in the analysis of high-throughput
screening data, but is sometimes confused with it.

Contents
        1 Formula
        2 Standardizing in mathematical statistics

Formula

The standard score is:
                          x is a raw score to be standardized
where:                    μ is the mean of the population.
                          σ is the standard deviation of the population

The quantity z represents the distance between the raw score and the population mean in units of
the standard deviation. z is negative when the raw score is below the mean, positive when above.

A key point is that calculating z requires the population mean and the population standard
deviation, not the sample mean or sample deviation. It requires knowing the population
parameters, not the statistics of a sample drawn from the population of interest. But knowing the
true standard deviation of a population is often unrealistic except in cases such as standardized
testing, where the entire population is measured. In cases where it is impossible to measure every
member of a population, the standard deviation may be estimated using a random sample. For
example, a population of people who smoke cigarettes is not fully measured.

When a population is normally distributed, the percentile rank may be determined from the
standard score and statistical tables.

Standardizing in mathematical statistics
In mathematical statistics, a random sample X is standardized using the theoretical (population)
mean and standard deviation:


                                                92

where μ = E(X) is the mean and σ = the standard deviation of the probability distribution of X.

If the random variable under consideration is the sample mean:




then the standardized version is




                                               93

                                                            APPENDIX VII

  Results of Normalizing Peer Review Scores for Categories I
    through VIII of the Byrne Competitive Grant Program

        For Category I, the BJA selected for award 20 of the 28 highest scoring
  non-normalized applications. By using normalized scores, the 28 highest
  scoring applications would have been significantly different. As shown
  below, normalizing the scores resulted in 14 of the 28 highest scoring non-
  normalized applications dropping off the list. As a result, 14 applications
  that did not make the BJA’s list of 28 highest scoring non-normalized
  applications would have made the list based on normalized scores.

           Exhibit 27: Effects of Normalization of Peer Review Scores 

                  on the Ranking of Applications for Category I

                   of the Byrne Competitive Grant Solicitation 


                     BJA                     OIG          OIG
  Application      Average      BJA       Normalized   Normalized    Awarded
   Number           Score     Ranking       Score       Ranking       Grant
2009-G2445-MA-SU    98.00         1           95.42           5           Yes
2009-G4394-MI-SC    96.00         2           90.79          33           No
2009-G4920-MA-SC    95.83         3           93.68          14           Yes
2009-F9621-AZ-SU    94.67         4           90.04          38           Yes
2009-G3636-OR-SC    94.67         5           94.15          13           Yes
2009-G2703-PA-SC    94.33         6           94.85          10           Yes
2009-G4972-CA-SC    93.50         7           90.66          36           No
2009-G2796-WA-SC    93.17         8           92.72          18           Yes
2009-F4838-WA-SC    93.00         9           92.00          23           Yes
2009-F8379-MD-SC    93.00        10           91.75          25           Yes
2009-F5788-AZ-SC    93.00        11           88.95          48           Yes
2009-G0093-FL-SC    92.67        12           93.21          15           No
2009-G3280-FL-SC    92.00        13           96.31           2           Yes
2009-F3421-NY-SC    91.50        14           86.24          84           Yes
2009-G2391-MD-SC    91.50        15           89.02          47           No
2009-F5056-MI-SU    91.50        16           87.64          67           Yes
2009-F4680-MA-SC    91.33        17           89.31          43           No
2009-G3914-TX-SC    91.33        18           92.28          21           Yes
2009-G3526-MI-SC    91.17        19           87.69          66           Yes
2009-F6609-FL-SC    91.00        20           91.71          28           Yes
2009-G1570-WI-SC    90.83        21           91.81          24           No
2009-G5028-FL-SC    90.67        22           91.74          27           No
2009-G2719-AZ-SC    90.50        23           86.56          77           Yes
2009-G3407-PA-SC    90.50        24           90.69          35           Yes
2009-F5161-MD-SC    90.33        26           88.43          56           No
2009-F5967-MN-SC    90.33        25           94.20          12           Yes
2009-F6635-CA-SC    90.25        27           88.16          59           Yes
2009-G5373-NY-SC    90.17        28           84.52         114           Yes


                                        94

         For Category II, the BJA selected for award 19 of the 22 highest
   scoring non-normalized applications. By using normalized scores, the 22
   highest scoring applications would have been significantly different. As
   shown below, normalizing the scores resulted in 6 of the 22 highest scoring
   non-normalized applications dropping off the list. As a result, 6 applications
   that did not make the BJA’s list of 22 highest scoring non-normalized
   applications would have made the list based on normalized scores.

            Exhibit 28: Effects of Normalization of Peer Review Scores 

                  on the Ranking of Applications for Category II

                    of the Byrne Competitive Grant Solicitation 


                      BJA                      OIG           OIG
  Application       Average       BJA       Normalized    Normalized    Awarded
   Number            Score      Ranking       Score        Ranking       Grant
2009-G4128-CA-SU      98.50         1           95.24           3          Yes
2009-G4386-MS-SU      95.00         2           91.76           7          No
2009-G0795-CA-SU      94.00         3           93.88           4          Yes
2009-F6516-CA-SU      93.50         4           93.12           6          Yes
2009-G5349-CA-SU      93.33         5           91.54           8          Yes
2009-F9288-AZ-SU      93.17         6           98.33           1          Yes
2009-F6476-VT-SU      91.50         7           90.86           9          Yes
2009-F9405-AZ-SU      91.50         8           88.70          19          Yes
2009-F8315-MO-SU      91.33         9           89.31          12          Yes
2009-F4281-NY-SU      91.00        10           89.03          14          Yes
2009-F5310-FL-SU      90.83        11           88.77          18          Yes
2009-F8347-IA-SU      90.17        12           88.85          17          Yes
2009-F5596-CA-SU      89.67        13           89.27          13          Yes
2009-F7489-WA-SU      89.67        14           93.56           5          Yes
2009-F4280-OH-SU      88.83        15           96.35           2          Yes
2009-G2941-OR-SU      88.17        16           86.83          28          Yes
2009-G0923-CA-SU      87.50        17           86.00          37          No
2009-G2500-NV-SU      87.50        18           86.41          33          Yes
2009-G1173-MN-SU      87.00        19           85.14          41          Yes
2009-F9631-CA-SU      86.50        20           86.56          29          No
2009-G0099-WA-SU      86.00        21           84.10          49          Yes
2009-G3757-NJ-SU      86.00        22           89.92          10          Yes

         For Category III, the BJA selected for award 8 of the 11 highest
   scoring non-normalized applications. By using normalized scores, the 11
   highest scoring applications would have been significantly different. As
   shown in the following table, normalizing the scores resulted in 3 of the 11
   highest scoring non-normalized applications dropping off the list. As a
   result, 3 applications that did not make the BJA’s list of 11 highest scoring
   non-normalized applications would have made the list based on normalized
   scores.


                                          95

           Exhibit 29: Effects of Normalization of Peer Review Scores 

                on the Ranking of Applications for Category III 

                   of the Byrne Competitive Grant Solicitation 


                     BJA                      OIG          OIG
  Application      Average       BJA       Normalized   Normalized    Awarded
   Number           Score      Ranking       Score       Ranking       Grant
2009-G4043-CA-SU     92.33        1            97.92         2            Yes
2009-G5332-FL-SU     91.50        2            96.62         3            No
2009-G5274-OR-SU     88.83        3            93.48         4            Yes
2009-G5280-IL-SU     88.67        4            90.98         9            Yes
2009-G5154-MN-SU     88.50        5            91.08         8            Yes
2009-G4173-FL-SU     88.00        6            91.41         7            Yes
2009-G3619-OR-SU     87.50         7           92.52          5           No
2009-G4710-OH-SU     87.50         8           90.33         13           Yes
2009-G4807-UT-SU     87.17         9           90.34         12           Yes
2009-G1156-FL-SU     86.83        10           89.36         15           No
2009-G4685-CA-SU     85.67        11           99.91         1            Yes

         For Category IV, the BJA selected for award the 33 highest scoring
   non-normalized applications for award. By using normalized scores, the 33
   highest scoring applications would have been significantly different. As
   shown below, normalizing the scores resulted in 18 of the 33 highest scoring
   non-normalized applications dropping off the list. As a result, 18
   applications that did not make the BJA’s list of 33 highest scoring non-
   normalized applications would have made the list based on normalized
   scores.

           Exhibit 30: Effects of Normalization of Peer Review Scores 

                 on the Ranking of Applications for Category IV

                   of the Byrne Competitive Grant Solicitation 


                     BJA                      OIG          OIG
  Application      Average       BJA       Normalized   Normalized    Awarded
   Number           Score      Ranking       Score       Ranking       Grant
2009-G4219-CA-SU     99.00         1           100.19         6           Yes
2009-G4487-OH-SU     96.33         2            95.73        19           Yes
2009-G4894-WA-SU     96.33         3           100.42         4           Yes
2009-G5358-KY-SU     94.83         4            97.17        11           Yes
2009-G5364-OH-SU     94.67         5            94.49        22           Yes
2009-G4683-MD-SU     94.33         6           102.09         3           Yes
2009-G4950-TX-SU     93.67         7           108.30         1           Yes
2009-G3951-WI-SU     93.33         8            93.53        29           Yes
2009-G5267-MA-SU     92.67         9           100.28         5           Yes
2009-F8654-PA-SU     92.67        10           92.14         45           Yes
2009-G5299-WA-SU     92.50        11           96.72         13           Yes
2009-F8821-MS-SU     92.33        12           93.31         31           Yes




                                         96

                     BJA                      OIG          OIG
   Application     Average       BJA       Normalized   Normalized    Awarded
    Number          Score      Ranking       Score       Ranking       Grant
2009-G6692-NY-SU     92.33        13           92.53         41           Yes
2009-G1882-CA-SU     91.33        14           91.99         46           Yes
2009-G2533-KY-SU     91.00        15           92.15         44           Yes
2009-G1207-PA-SU     90.83        16           89.55         71           Yes
2009-G3212-NC-SU     90.67        17           93.97         26           Yes
2009-G2651-NC-SU     90.67        18           91.98         47           Yes
2009-G4051-CA-SU     90.67        19           92.97         36           Yes
2009-F8634-CA-SU     90.50        20           93.40         30           Yes
2009-G4663-AZ-SU     90.33        21           91.49         48           Yes
2009-G4976-OR-SU     90.33        22           91.45         49           Yes
2009-G4963-NY-SU     90.17        23           89.75         66           Yes
2009-F4699-AZ-SU     90.00        24           97.63         10           Yes
2009-G0874-CA-SU     89.83        25           90.89         51           Yes
2009-G2467-MA-SU     89.83        26           97.90          8           Yes
2009-G0267-CA-SU     89.67        27           90.33         57           Yes
2009-G5152-FL-SU     89.17        28           92.74         39           Yes
2009-F5714-CA-SU     89.17        29           90.09         62           Yes
2009-F7866-SC-SU     89.17        30           89.76         64           Yes
2009-F9375-ID-SU     89.17        31           90.74         52           Yes
2009-G3814-WI-SU     89.17        32           90.47         55           Yes
2009-G3658-CA-SU     89.00        33           87.37        107           Yes

         For Category V, the BJA selected for award 12 of the 14 highest
   scoring non-normalized applications. By using normalized scores, the 14
   highest scoring applications would have been significantly different. As
   shown below, normalizing the scores resulted in 12 of the 14 highest scoring
   non-normalized applications dropping off the list. As a result, 12
   applications that did not make the BJA’s list of 14 highest scoring non-
   normalized applications would have made the list based on normalized
   scores.

           Exhibit 31: Effects of Normalization of Peer Review Scores 

                 on the Ranking of Applications for Category V

                   of the Byrne Competitive Grant Solicitation 


                     BJA                      OIG          OIG
   Application     Average       BJA       Normalized   Normalized    Awarded
    Number          Score      Ranking       Score       Ranking       Grant
2009-F4965-OH-SU     98.00        1            93.37         7            Yes
2009-G4156-KS-SU     97.50        2            91.10         17           Yes
2009-G0032-LA-SU     96.00        3            91.86         13           Yes
2009-G5230-MA-SU     95.67        4            88.74         38           No
2009-G4895-NY-SU     95.50        5            88.77         37           Yes
2009-F7468-MN-SU     95.33        6            91.43         16           Yes
2009-F9718-MN-SU     94.83        7            89.04         35           Yes



                                         97

                     BJA                      OIG          OIG
  Application      Average       BJA       Normalized   Normalized    Awarded
   Number           Score      Ranking       Score       Ranking       Grant
2009-F5872-GA-SU     94.17         8           90.28         23           Yes
2009-G5085-LA-SU     93.67         9           90.10         27           No
2009-G2229-MO-SU     93.33        10           87.37         51           Yes
2009-G1780-MO-SU     92.67        11           86.86         57           Yes
2009-G4949-NY-SU     92.67        12           86.85         58           Yes
2009-F9507-NY-SU     92.50        13           86.41         65           Yes
2009-G3842-MN-SU     92.33        14           85.19         74           Yes

         For Category VI, the BJA selected for award 14 of the 20 highest
   scoring non-normalized applications. By using normalized scores, the 20
   highest scoring applications would have been significantly different. As
   shown below, normalizing the scores resulted in 17 of the 20 highest scoring
   non-normalized applications dropping off the list. As a result, 17
   applications that did not make the BJA’s list of 20 highest scoring non-
   normalized applications would have made the list based on normalized
   scores.

           Exhibit 32: Effects of Normalization of Peer Review Scores 

                 on the Ranking of Applications for Category VI

                   of the Byrne Competitive Grant Solicitation 


                     BJA                      OIG          OIG
  Application      Average       BJA       Normalized   Normalized    Awarded
   Number           Score      Ranking       Score       Ranking       Grant
2009-G3398-OR-SU     100.00        1           89.12         52           Yes
2009-G3666-OR-SU     100.00        2           89.12         53           No
2009-G4591-OR-SU     98.33         3           86.79         95           No
2009-F9934-WA-SU     97.83         4           90.25         31           Yes
2009-G5295-OH-SU     97.67         5           90.13         36           Yes
2009-G1970-WA-SU     97.50         6           85.63        112           Yes
2009-F6686-OR-SU      97.33        7           85.50        115           No
2009-G3303-MO-SU      97.33        8           89.77         41           Yes
2009-G3942-AK-SU      97.33        9           85.39        121           Yes
2009-G0508-OH-SU      97.00       10           89.53         46           Yes
2009-G2090-OH-SU      97.00       11           89.69         43           Yes
2009-G4896-AK-SU     97.00        12           85.20        122           No
2009-G4932-CA-SU     96.83        13           91.64         17           Yes
2009-G3678-OR-SU     96.67        14           89.72         42           Yes
2009-G5326-OR-SU     96.67        15           84.46        130           No
2009-F9757-IL-SU     96.33        16           89.16         51           Yes
2009-G4155-OR-SU     96.17        17           83.77        140           Yes
2009-F8068-CO-SU     96.00        18           95.25         4            Yes
2009-G4110-WA-SU     95.50        19           82.83        160           No
2009-F6109-OK-SU     95.50        20           95.47         3            Yes




                                         98

         For Category VII, the BJA selected the nine highest scoring non-
   normalized applications for award. By using normalized scores, the nine
   highest scoring applications would have been significantly different. As
   shown below, normalizing the scores resulted in six of the nine highest
   scoring non-normalized applications dropping off the list. As a result, six
   applications that did not make the BJA’s list of nine highest scoring non-
   normalized applications would have made the list based on normalized
   scores.

            Exhibit 33: Effects of Normalization of Peer Review Scores 

                 on the Ranking of Applications for Category VII 

                    of the Byrne Competitive Grant Solicitation 


                      BJA                      OIG           OIG
  Application       Average       BJA       Normalized    Normalized    Awarded
   Number            Score      Ranking       Score        Ranking       Grant
2009-G4430-MI-SU      97.83         1           94.80          4           Yes
2009-G0280-WA-SU      97.67         2           91.75          10          Yes
2009-G4953-OH-SU      97.00         3           91.21          15          Yes
2009-G5286-IN-SU      96.50         4           90.59          20          Yes
2009-G0764-MI-SU      95.33         5           89.51          30          Yes
2009-G2932-OK-SU      95.33         6           97.97           1          Yes
2009-F9172-CA-SU      95.00         7           92.29           9          Yes
2009-G0536-CO-SU      94.50         8           88.77          36          Yes
2009-G5204-OH-SU      93.67         9           87.95          45          Yes

        For Category VIII, the BJA grouped the applications into the following
   two sub-categories:

         	 applications proposing to work collaboratively with State
            Administering Agencies; and

         	 applications proposing to provide training, technical assistance,
            public awareness, and outreach strategies on one of seven areas.

        For the first sub-category, the BJA selected the highest scoring non-
   normalized applications for award. The application the BJA selected would
   have been the same using the normalized scores.

         For the second sub-category, the BJA selected four of the eight highest
   scoring applications for award. By using normalized scores, the eight
   highest scoring applications would have been significantly different. As
   shown in the following table, normalizing the scores resulted in three of the
   eight highest scoring non-normalized applications dropping off the list. As a
   result, three applications that did not make the BJA’s list of eight highest


                                          99

   scoring non-normalized applications would have made the list based on
   normalized scores.

           Exhibit 34: Effects of Normalization of Peer Review Scores 

                on the Ranking of Applications for Category VIII 

       (Second Sub-category) of the Byrne Competitive Grant Solicitation 


                     BJA                    OIG           OIG
   Application     Average      BJA      Normalized    Normalized   Awarded
    Number          Score     Ranking      Score        Ranking      Grant
2009-F6038-FL-SU     93.33        1          92.81         3           No
2009-F5629-NY-SU     92.83        2          92.86         2           Yes
2009-G5182-VA-SU     90.67        3          89.89         6           No
2009-G4956-VA-SU     89.67        4          90.07         4           Yes
2009-G3132-MI-SU     88.83        5          86.61         12          Yes
2009-G3926-VA-SU     88.33        6          95.84          1          No
2009-G1066-VA-SU     87.33        7          83.16         28          No
2009-F3544-MD-SU     87.17        8          84.25         22          Yes




                                      100

                                                                                     APPENDIX VIII

               Office of Justice Programs' Response
                     to the Draft Audit Re'port

                                                     u.s. Department of Justice
                                                     Office of Justice Programs

                                                     Office of the Assistant Attorney General



                                                     WaslriJlgto/l. D.C. 20531




                                                                                 AUG 202010"
MEMORANDUM TO:               Glenn A. Fine
                             Inspector General
                             United States Department of Justice

THROUGH:                     Raymond J. Beaudet
                             Assistant Inspector General for Audit
                             Office of the Inspector General
                             United States Department of Justice
                             6ct;7YI.~ ~./
FROM:                        Laurie O. Robinson 0 tJ·­
                             Assistant Attorney General

SUBJECT:                     Response to Office of the Inspector General's Drdft Audit Report,
                             A/ldiJ ofthe Office ofJustice Programs' RecovelY Act and
                             Non-Recovery Act Programs for Edward Byrne Memorial Justice
                             Assistance Grants and Byrne Competiti\'e Grants

This memorandum provides a response to the 15 recommendations directed to the Oftice of
Justice Programs (OJP) included in the Oftice of the Inspector General's (OlG's) draft audit
report transmitted on August 13,2010, entitled, Audit ofthe Office ofJustice Programs'
RecovelY Act and Non-Recovery Act Programs for Edward Byrne Memorial Justice Assistance
Grants and Byrne Competitive Grants.

OJP has completed corrective actions to address seven of the draft audit report recommendations,
and we request closure of those recommendations. For the remaining eight draft audit report
recommendations, we anticipate implementing corrective actions by April 30, 2011. For ease of
review. the draft audit report recommendations are restated in bold and are followed by OJP's
response.

l.     We recommend that the Office of Justice Programs establish procedures to ensure
       that future Byrne JAG solicitations: (1) clearly describe what material is required to
       be submitted with the grant application, and (2) instruct applicants that
       applications lacking any of the required material will be sent back for additional
       information.

       The OJP agrees with tlus recommendation. The Bureau of Justice Assistance (BJA)
       revised its Fiscal Year (FY) 2010 Justice Assistance Grant (JAG) solicitations to ensure
       that requirements are clearly described and optional items are labeled as such. The FY
       2010 solicitations describe required material (e.g., a program narrative) as attachments




                                             101
       that "must be submitted" and optional material as information that the applicant is being
       "requested to provide." The FY 2010 JAG solicitations can be found at the following
       website pages: http://www.ojp.usdoj.gov/BJ..vgrantll0JAGLocaISol.pdf
        and http://www.ojp.usdoj.gov/aTA/grantilOJAGStateSol.pdf.

       Solicitation language similar to the following was also added to notify applicants that
       withholding special conditions will be applied to applications that lack any required
       material: "Failure to submit an appropriate review narrative may result in the attachment
       of a withholding special condition at the time of award, preventing the drawdown of
       funds until the required information is submitted." The OJP requests closure of this
       recommendation.

2. 	   We recommend that the Office of Justice Programs do not process future Byrne
       JAG applications until required material is received.

       The OJP agrees, in part, with this recommendation. While the OJP does not stop
       processing awards for applicants that fail to submit all required material, we agree tllat
       grantees should not have access to award funds unless they submit all required material.
       OJP addresses the absence of application documents in the post-award phase by including
       a withholding special condition (and corresponding withholding action in the Grants
       Management System (GMS» that denies a grantee access to tlle funds until all required
       materials are submitted and the withholding special condition is released.

       B.IA included language in its FY 2010 JAG solicitations notifying applicants that
       withholding special conditions are applied to applications iliat are lacking any required
       material. BJA applied these spe~ial conditions to any applications that did not contain all
       required material. The OJP requests closure ofiliis recommendation.

3. 	   We recommend that the Office of Justice Programs provide additional training and
       oversight of Byrne JAG grant recipients to ensure that they:

       • 	 establish adequate internal controls for managing and safeguarding Byrne JAG
           Program funds;
       • 	 expend Byrne JAG funds in accordance with program guidelines and maintain
           adequate documentation to support expenditures;
       • 	 establish and implement adequate property management procedures to ensure
           property purchased with grant funds are adequately protected against loss and
           waste;
       • 	 establish policies and procedures for monitoring subrecipients' activities to
           provide reasonable assurance that subrecipients administer Byrne JAG funds in
           accordance with program guidelines;
       • 	 submit financial and progress reports in a timely manner;
       • 	 submit financial, progress, and Recovery Act reports containing accurate data;
           and

                                                2




                                        102 

       • 	 maintain adequate documentation to show they are meeting the goals and
           objectives oftheir Byrne JAG grants.

       The OJP agrees with this recommendation. The Office of the Chief Financial Officer
       (OCFO) will review the content of its Regional Financial Management Training
       Seminars (RFMTS) and the OJP Financial Guide to ensure guidance on proper internal
       controls, adequate documentation, property management procedures, subrecipient
       monitoring, and financial and progress reporting are adequately addressed. By March 31,
       2011, OCFO anticipates developing a training module specific to subrecipient
       monitoring. This training may be incorporated into the RFMTS as a breakout session,
       andlor launched as a Computer-Based Training effort. In addition, by March 31,201 t,
       OCFO will work with BJA to provide financial grant administration training covering
       subrecipient monitoring, and the other topics listed above, at BJA-sponsored
       conferences.

4. 	   We recommend that the Office of Justice Programs revise the Byrne Competitive
       Grant Program funding information contained on its website to make it clear that
       $2.25 million of program funds will be used by the NIJ. The revised website
       information should include details about the planned use of the funds, a description
       of how the transfer and use of the NIJ funds meets the purposes of the Recovery
       Act, and links to any solicitations associated with these funds.

       The OIP agrees with this recommendation. BJA provided $2.25 million to the National
       Institute of Justice (NIJ) to support the evaluations of state and local law enforcement
       programs related to a variety of activities. including: combating criminal narcotics
       activity along the southern border, efforts to combat crime in rural areas, and programs
       funded by the Edward Byrne Memorial Competitive Grant Program. Information on
       NIl's use of these funds, including summary descriptions of projects awarded in FY 2009
       and FY 2010, how NIJ's evaluation and research activities support Recovery Act grant
       programs and purpose areas, and links to the respective solicitations, was recently posted
       to BJA's Recovery Act website page, which can be found at
       http://www.ojp.usdoLgov/BJNrecoveryact.html. The OJP requests closure of this
       recommendation.

5. 	   We recommend that the Office of Justice Programs direct OJJDP to establish a
       policy similar to BJA's policy that clearly defines the solicitation requirements that
       must be met for applications to be peer reviewed.

       The OJP agrees with this recommendation. In April 2010, OJJDP implemented Basic
       Minimum Review (BMR) guidelines for applications submitted for FY 2010
       solicitations. The memorandum and guidelines issued by the Acting OJJDP
       Administrator to OJJDP staff and the OJP Peer Review Contractor are attached (see
       Attachment I). The OJP requests closure of this recommendation.



                                                3




                                        103 

6, 	   We recommend that the Office of Justice Programs establish procedures to ensure
       that applications are treated consistently when determining whether the
       applications meet the basic minimum requirements and should be passed on to the
       peer review process,

       The OJP agrees with this recommendation. By February 28, 2011, OJP will develop and
       implement procedures to ensure that applications are consistently treated when
       determining whether they meet the BMR requirements and should proceed to the peer
       review process.

7. 	   We recommend that the Office of .Justice Programs establish and implement a
       requirement that applicants be notified of the reasons for denying the applications.

       The OJP agrees with this recommendation. By February 28, 2011, OJP will review and
       revise current procedures and requirements relating to the application denial notification
       process, including the content ofthe applicant dellialletters. These procedures will be
       issued to OJP staff and the OJP Peer Review Contractor.

8. 	   We recommend that the Office of Justice Programs ensure that the reasons for
       denying applications al'e accurately recorded in the Grants Management System.

       The Office of Justice Programs agrees with this recommendation. The process of
       documenting reasons for denying applications in GMS is currently covered in the OlP's
       Grant Managers Manual (GMM). Specifically, in accordance with Section 6.3.1 of the
       GMM, when the bureau or program office determines that an application will not be
       funded, the grant manager selects "deny" in GMS. The system then prompts the grant
       manager to select a reason for denial/rejection (See Attachment 2). The Office of Audit,
       Assessment, and Management (OAAM) will work with OJP's bureaus and program
       offices to review the current list of denial reasons in GMS. and revise as necessary. The
       OAAM will also work with OCIO to incorporate any changes in GMS by April 30,2011.

9. 	   We recommend that the Office of Justice Programs ensure that denial letters sent to
       rejected applicants accurately describe the peer review panel that evaluated the
       applicants' applications.

       The OJP agrees with this recommendation, and concurs that all peer review information
       communicated to applicants must be accurate. By February 28, 2011, OJP will review
       and revise current procedures and requirements relating to the application denial
       notification process, including the content of the applicant denial letters. These
       procedures will be issued to OJP staff and the OJP Peer Review Contractor.




                                                4




                                        104 

10. 	   We recommend that the Office of Justice Programs ensure that the peer reviewers
        selected to evaluate applications are approved by Bureau of Justice Assistance
        leadership.

        TIle OIP agrees with this recommendation. For FY 2010, in accordance with the OJP
        Peer Review Procedures Manual, 8.IA implemented a policy to ensure that peer
        reviewers selected to evaluate applications were approved by BlA leadership (see
        Attachment 3). The OlP requests closure of this recommendation.

11. 	   We recommend til at the Office of Justice pJ·ograms establish a requirement that
        future funding recommendation memoranda include explanations for all
        applications not recommended for funding that received an equal or higber score
        than the lowest scoring application recommended for funding.

        The OJP agrees with this recommendation. In FY 2011, OIP will continue to comply
        with the Office of the Assistant Attorney General's policy directives, dated March 10,
        2009, lune 9, 2009, and March 19,2010 (see Attachments 4-6), which outline required
        infornlation to be included in all funding recommendation memoranda. The AAG policy
        directives provide that funding recommendation memoranda include explanations for all
        applications not recommended for funding that received an equal or higher score than the
        lowest scoring application recommended for funding.

        The March 20 I 0 directive also establishes a new tier, or "banding," system, whereby OlP
        bureaus and program offices rate applications and stratify them into various groups based
        upon their overall responsiveness to the solicitation and other related factors. The
        rationale for establishing the various tiers, as well as ranking the applications and
        assigning them into these tiers, must be clearly described in the funding recommendation
        memoranda. Additionally, a general description must be provided to explain the rationale
        for selecting all applications recommended for funding. Further. whenever an application
        is selected from a lower tier and there are still applications in a higher tier that have not
        been funded, a detailed justification must be provided in the funding recommendation
        memoranda. The OJP requests closure of this recommendation.

12. 	   We recommend that the Office of Justice Programs ensure that future funding
        recommendation memoranda comply fully with the requirements contained in the
        Associate Attorney General's May 2008 policy directi"\:e, and tbe requirement
        established based on Recommendation 8 above.

        TIle OJP agrees with this recommendation. The May 2008 Associate Attorney General's
        policy directive is reinforced and supplemented by policy memorandums issued by the
        OJP's Office of the Assistant Attorney General in March 2009, June 2009, and March
        2010 (see Attachments 4-6). In FY 2011, OJP will continue to comply with these policy
        directives to ensure that all funding recommendation memoranda accurately describe the
        process used to evaluate applications and make funding recommendations, and will


                                                  5




                                          105 

        continue to do so for future recommendation memoranda. The OlP requests closure of
        this recommendation.

13. 	   We recommend that the Office of .Justice Programs ensure that future funding
        recommendation memoranda accurately describe the process used to evaluate
        applications and make funding recommendations.

        The OJP agrees with this recommendation. In FY 20) I, OJP will continue to comply
        "...ith th« Office of the Assistant Attorney General's policy directives, dated March 10,
        2009, June 9, 2009, and March 19, 20ID (see Attachments 4-6). The March 2010
        directive requires that funding recommendation memoranda include a detailed and
        accurate description of the process used in evaluating applications and making ftmding
        recommendations. The OlP requests closure of this recommendation.

14. 	   We recommend that the Office of Justice Programs ensure that the normalized peer
        review scores are accurately calculated before making award recommendations
        based on the normalized scores.

        The OJP agrees with this recommendation. By December 31, 20 I0, OlP will issue
        guidance to the OJP Peer Review Contractor and direct the OJP Peer Review Contractor
        to establish data quality control checks that ensure the accuracy of the nornJalization
        process.

15. 	   We recommend that the Office of Justice Programs consider standardizing the
        circumstances under which normalization of peer review scores should be used for
        all bureaus and program offices.

        The Office of Justice Programs agrees with this recommendation. By December 31,
        2010, the OJP will internally discuss and consider the circumstances under which
        normalization of peer review scores should be used for all bureaus and program offices.

Thank you for your continued cooperation. If you have any questions regarding this response,
please contact Maureen A. Henneberg, Director, Office of Audit, Assessment, and Management,
on (202) 616-3282.


cc: 	   Beth McGarry
        Deputy Assistant Attorney General 

         for Operations and Management 


        James H. Burch, II
        Acting Director
        Bureau of Justice Assistance



                                                 6




                                         106 

Jeff Siowikowski
Acting Administrator
Office of Juvenile Justice and Delinquency Prevention

John Laub
Director
National Institute of Justice

Maureen A. Henneberg
Director
Office of Audit, Assessment, and Management

Leigh Benda
Acting Chief Financial Officer

Jeffery A. Haley
Deputy Director, Audit and Review Division
Office of Audit, Assessment, and Management

Richard A. Theis
Assistant Director, Audit Liaison Group
Justice Management Division




                                          7




                                     107 

                                                       U.S. Department of Justice              Attachment 1

                                                       Office of Justice Programs

                                                       Office of Juvenile Justice and Delinquency Preventioll


 Office (!f the Admini.'ilralor                         Wo,dlinglWI.   /).c.   2053/




        OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
                            POLlCY GUIDANCE
      BASIC MINIMUM REVIEW (BMR) PROCESS FOR FY 2010 COMPETITIVE
                             SOLICITATIONS


The Office of Juvenile Justice and Delinquency Prevention (OJIDP) already has begun to solicit
for its FY 2010 grant applications, and various questions have arisen concerning interpretation of
solicitation language, particularly language related to requirements that must be satisfied in order
for an application to proceed to peer review (BMR). Consistent with OJP policy, for FY 2010,
OJJDP will use the following guidelines in its BMR process. These guidelines are designed to
balance inclusiveness (allowing OJJDP to peer review as many grant applications as justifiable
within the general parameters of our solicitations), without providing significant competitive
advantages to those applicants that appear to substantially disregard the general submission rules.
This approach will allow OJJDP to minimize elimination of grant applications from peer review
for minor technical infractions, while preserving the basic integrity of the OJIDP solicitation.

The basic substantive concepts to be implemented in the BMR process for OJJDP's FY 2010
solicitations (including those that have already been closed, but as to which peer review is not yet
complete [i.e., final peer review scores have not yet been received by the program office];
 those that are currently open; and those that have yet to be released) are:


I.      Applications must be submitted by an eligible type of applicant.

        Each applicant submitting an application under a particular solicitation must be a type of
        applicant eligible to submit an application under the terms of the solicitation and the
        underlying Jaw. All applications from applicants not meeting this criterion will be
        identified in the BMR process and will not be submitted to peer review.

2.      Applicants must request funding within programmatic funding constraints.

        Each applicant must submit an application within the funding request limitations (if
        applicable) of the particular solicitation. All applications that submit for sums greater
        than those allowed under a solicitation (or fail to provide for a required match) will be
        identified in the BMR process, and will not be submitted to peer review.


                                            Page I of 4




                                               108
3. 	   Applications must be responsive to the funding purpose or goal of the solicitation
       under which it is submitted.

       Each applicant must submit an application within the scope ofthe solicitation. Should
       the relevant OJJDP grant manager for a particular solicitation realize prior to peer review
       that an application is not ....ri.thin the scope of the solicitation (e.g., a proposal to receive
       training when the solicitation is for an entity to deliver training) then that applicant is
       ineligible, and this application will not be submitted to peer review. (fhis allows but
       does not affirmatively require OJJDP staff to make such a determination for each
       application prior to peer review.)

4. 	   Applications that fail to include items designated as "critical elements" shall not be
       fonvarded for peer review. For OJJDP, those "critical elements" are (a) a Program
       Narrative; (b) a Program Budget; (c) a Budget Narrative; and (d) if applicable, a
       Tribal Resolution.

       Critical elements are those that are viewed by OJJDP as so critical to a viable application
       that they must be submitted with the application in order for it to proceed to peer review.
       Any application reviewed in the BMR process that does not contain all elements
       designated by OJJDP to be critical for a particular solicitation shall not be submitted to
       peer review.

       It is OJJDP's general policy that submission of the following four elements is critical for
       an application to be submitted to peer review: Program Narrative; Program Budget;
       Budget Narrative; and, if applicable, Tribal Resolution. The Budget Narrative and the
       Program Budget may be combined in one document. Accordingly, any application which
       submits either a Budget Narrative or a Budget Detail Worksheet will be considered to
       include the budget-related critical elements. OJJDP may identify additional elements as
       critical elements on a solicitation-by-solicitation basis, as needed. However, all such
       critical elements must be clearly identified as required for peer review in any solicitation
       posted after the effective date of this policy. For those solicitations that were posted prior
       to the effective date of this policy, the four elements identified above are to be the critical
       elements for purposes of determining whether an application proceeds to peer review. If
       OIJDP chooses to add any other element as critical for BMR purposes for any
       solicitation(s) already posted, that element must be clearly identified by OJJDP, in a
       specific written determination, as a critical element for BMR review for the particular
       solicitation(s), and used for that solicitation's BMR process.

5. 	   Applications that are disconred before, during, or after the BMR process to clearly
       have been submitted either in the wrong category within a solicitation, or under the
       wrong solicitation within GMS, may (if otherwise warranted) be moved by OJJDP



                                             Page 2 of 4




                                                109 

       to the "correct" category or solicitation for peer review and consideration for
       funding under the following circumstances.

       (a) The application would have been submitted in a timely manner had it been submitted
       correctly.
       (b) The application clearly is eligible for the category or solicitation to which it would
       be moved. All such applications must have a separate BMR review corresponding to the
       BMR for the category or solicitation to which it would be moved, and it must pass all
       such requirements in order to undergo peer review.
       (c) The submission in the wrong solicitation or category is discovered prior to the
       finalization ofthe peer review scores in the "correct" solicitation or category to which the
       application would be moved.
       (d) There is a clear indication that the application was submitted to the wrong category or
       under the wrong solicitation. Evidence may include, but is not limited to, direct, post­
       submission communication from the applicant, review of program abstracts or narratives,
       submission of forms specific to a particular category or solicitation, or other credible
       evidence.
       (e) OJJDP inserts clear contemporaneous documentation in the record explaining the
       reason that an application is being moved between categories or solicitations.
       (f) The point of contact for each applicant whose application is moved by OJJDP to a
       different category or solicitation must be informed contemporaneously by OJJDP that the
       application is being moved to a different category or solicitation prior to its consideration.

       (g) If the point of contact for the applicant objects to the move within a timely period, the
       application will not be considered under the new category or solicitation, but will instead
       be considered under the originally submitted category or solicitation.

6. 	   Applications for competitive discretionary awards that have ignored length-related
       format requirements (e.g., font, margins, line spacing, page limits, andlor word
       count limits) will proceed to peer review under the following circumstances:

       If the program narrative fails to comply with the length-related restrictions, such that it
       provides an significant competitive advantage, the failure to comply may be considered in
       peer review and in final award decisions. In this instance, the peer review contractor will
       be instructed to note these deviations from the solicitation format requirements for use in
       the final decision process within OJP. After peer review is completed, and the peer band
       is established, as part of the final recommendation/decision process, OJJOP may assess
       and take into account whether, in its judgment, failure to follow format requirements
       provided an significant competitive advantage to a non-compliant application under
       consideration, and also whether such failure is of such significance that it creates a
       concern about the ability of OJJDP to work with the applicant should it become a grantee.


                                            Page 3 of 4




                                             110 

 Because such applications will be submitted to peer review, the peer reviewers may, in
 their discretion, consider such deviations to the extent such deviations affect their
 individual review of the application.



                                                                It
                                                                   Effective Date
Acting Administrator
Office of Juvenile Justice &1d Delinquency Prevention




                                   Page40f 4




                                     111
                                                        Attachment 2




        OJP Grant Manager's
              Manual
Approved by:




La~
Assistant Attorney General
                                    .~(;z.(IO
                                   Date




Prepared by OJP
Grants Management Division                      August 2010




                             112
SECTION 6.3 REJECTIONS, WITHDRAWALS, DENIALS, AND
    APPEALS
This section covers OJP's policies and procedures for handling application rejections,
withdrawals, denials, and appeals . Only an applicant can withdraw an application. OJP
can deny either an application for discretionary funding or an applicant for formula or
block grant funding. In either case, the applicant can appeal OJP's decision by
foflowing OJP's established appeals process. Section 6.3.1 addresses the guidelines
and procedures regarding application rejections. Section 6.32 describes the process
for handling applicant withdrawals. Finafly, Section 6.3.3 covers the denial and appeals
procedure.

6.3.1         REJECTIONS FOR DISCRETIONARY GRANTS
PURPOSE AND POLICY
This section describes the rejection process for discretionary funding applications. OJP
foflows the rejection procedures so that the applicant is notified of the reason(s) for not
receiving a grant award. This procedure requires that the applicant is aware of the
criteria that OJP used in reaching the decision to reject the application, and understands
that OJP can reject any application. In addition, applicants can also withdraw from
consideration, which is one of the reasons a rejection can be made.
When the bureau or program office determines that an application will not be funded,
the grant manager clicks "deny" in GMS. The system them prompts the grant manager
to select a reason for denial/rejection. For competitive discretionary applications, after
the peer review process, the peer review contractor prepares a rejection letter that
includes the peer review comments. The bureau or program office approves the letter
to be sent to the applicant. OJP notifies afl applicants responding to a solicitation of the
results of their applications at the same time; therefore, afl rejection letters are sent to
unsuccessful applicants after award packages (notifications) have been sent to afl
successful applicants. This is generally done within 180 calendar days from receipt of a
complete application, and only after the Congressional notification process has been
completed (see Section 6.6.3 on award notification).
Staff should not inform an applicant whether they have been approved or denied before
OJP announces the awards and sends rejection letters. If applicants inquire about the
status of their application prior to award announcements and rejection letters, grant
managers should inform them that the application is still in the review process. If the
rejected applicant contacts OJP concerning the rejection, staff should review and
discuss only the reasons for rejection specifically contained in the rejection letter.




Grant Manager's Manual, August 2010                                         Page 83




                                           113 

   • 	 Evaluating the financial integrity and financial capability of applicants for awards 

       to assess the risk of potential fraud, waste, abuse, or mismanagement of Federal 

       funds; 

   • 	 Examining and reconciling proposed costs to determine if the budget and budget 

       narrative accurately translate project costs; and, 

   • 	 Ascertaining that costs are reasonable, necessary, allocable, and allowable 

       under applicable Federal cost principles and agency regulations for fulfilling the 
     i
       overall objectives of the grant program. 

Bureaus and program offices request a financial review by forwarding the application to
GFMD in GMS. The action of forwarding an application to GFMD indicates the bureau's
or program office's intent to fund the program, its completion of a program office
solicitation checklist (please see Appendix 6-8 at the end of this chapter) and its review
of OCFO's Guidance for GMS Application and Redbook Submission (Appendix 6-C at
the end of this chapter). This ensures that OJP awards grant funds to eligible recipients
who possess the financial integrity and financial capability necessary to administer
Federal funds adequately and appropriately.
The grant manager ensures that all issues raised during the OCFO financial review
have been satisfactorily addressed so that OCFO may issue the financial clearance
prior to issuance of a new award. For new awards to applicants delinquent in
submitting financial status reports and audit reports from previous awards, OJP may
withhold funds andlor add a special condition to withhold funds. Typically, OJP does
not withhold funds for formula grants, although bureaus and program offices have the
discretion to do so.
OJP may consider grantee past performance (e.g., whether a prior grantee successfully
completed all prior grant requirements) in making funding decisions on future awards.
For new grantees, OJP may require additional financial information.
The OCFO Financial Guide notifies every applicant for funding that the application may
be rejected andlor access to funds restricted for any of the following reasons:
   • 	 An ·open" audit report where the grantee has not attempted to resolve or has 

       taken no action to resolve findings; 

   • 	 An "open resolved" audit report where the grantee has not attempted to close the 

       report after an agreed upon resolution strategy; 

   • 	 An overdue audit report;
   • 	 A delinquent Federal debt;
   • 	 Delinquent financial, progr!;!mmatic progress reports, or final reports for all OJP 

       grants; 

   • 	 Poor cash management; or,
   • 	 Noncompliance with any legislative, regulatory, or administrative requirements.




Grant Manager's Manual, August 2010 	                                        Page 77




                                           114 

PROCEDURE
 1.    Send budget to OCFO for review.
      Once an application is selected for funding by the bureau or program office, the
      grant manager approves the application from the "Not Initiated" (non-competitive
      discretionary grants) or ·Peer Review" (competitive discretionary grants) tab in
      GMS. This will place the application in the "Initial Review" tab in GMS and make
      the application viewable to GFMD.
      Bureaus and program offices must send an e-mail to notify GFMD which
      applications are ready for review, since no auto-notification exists, and GFMD
      can view all applications. GFMD performs the necessary steps to conduct a
      financial review and issues a Financial Review Memorandum usually within 10
      business days of receiving the request for financial review. "OCFO
      Responsibilities" at the end of the Procedures section provides more detailed
      information on the steps GFMD performs during the financial review.
2.     Obtain sole source justification and approval, if required.
      The program office enters an explanation into the "Sole Source Justification" field
      in GMS to approve the primary recipient's request to award sole source
      procurements in excess of $100,000, if GFMD approves the application. Sole
      source procurements do not follow competitive practices and allow the recipient
      to subaward contracts under grants without competition, if justified and approved
      by GFMD.
3.    Conduct initial review.
      Grant managers work with the applicant to resolve any issues raised in the Initial
      Financial Review Memorandum, issued by the GFMD financial analyst to the
      grant manager. Often the applicant will have to respond to budget questions
      from OCFO. The budget questions are sent to the grant manager in GMS in the
      form of an Initial Financial Review Memorandum. The grant manager is
      responsible to work with the applicant to resolve these issues. For issues that
      require a necessary change, the grant manager needs to initiate a "change
      request" to the applicant in GMS for budget modifications. The grant manager
      should inform OCFO when the application has been updated, and attach
      appropriate correspondence to the grantee in GMS.
4.    Receive Final Financial Clearance Memorandum (FCM).
      The GFMD financial analyst prepares, submits, and approves the FCM in GMS.
      This memorandum contains a recommendation to either fund or reject the
      application, and any recommended actions regarding financial management and
      grants administration.
      If GFMD cannot complete its financial review process, it may issue a conditional
      financial clearance memorandum by which the award can be made, but is
      subject to a complete financial review by GFMD at a later date. These awards
      have a special condition prohibiting obligation, expenditure, or drawdown of


Grant Manager's Manual, August 2010                                       Page 78




                                         115 

                                                                                   Attachment 3




                                 C>-_. _--  U.s. o.partMant of J ... llc.




                      Approval Guidelines for Peer Reviewer Selection


        In accordance with the Office of Justice Programs' Peer Review Procedures Manual
(page 10, paragraph 4, bullet point 6, "Reviewer Selection Process"), as the Bureau of Justice
Assistance's (BJA) Acting DirectC1r, I delegate to the Associate Deputy Directors in the Policy
Office the authority to review and approve the names of peer reviewers suggested by the Policy
Advisors managing BJA FY 2010 solicitations.

         For all FY 2010 competitive solicitations, peer reviewer selections must be vetted
through the Policy Advisor overseeing the solicitation and must be subsequently approved by the
Associate Deputy Director supervising the grant program. This approval process is necessary to
facilitate quick turnaround on reviewer selection in order to process peer reviews in a fair and
expedient manner.

        Upon receipt of the signed memo from BJA leadership confinning that the list of
reviewers is approved, the peer reviewer contractor (Lockheed Martin) will send out an
electronic invitation to the approved reviewers.



APPROVED and ISSUED:




Date:




                                            116
                                                                                               Attachment 4
                                                       u.s. Department of .'ustire
                                                       Office of   JU~licc   Programs

                                                       Offi(;e oj '''.(' AssiY/a1l/ Arrame), Gcr!c'ya/




                                                      March 10, 2009




MEMORANDUM TO:                 Jim Burch. Acting Director, BJA
                               Michael Sinclair, Acting Director, BJS
                               Kristine Rose, Acting Director, NIJ
                               JeffSlowikowski, Acting DIrector, OJJDP
                               Joye Frost, Acting Director, OVC
                               Dennis Greenhouse, Director, CCDO
                               Dawn Doran, Acting Director, SMART Office

fROM:                          Laurie O. Robinson                  ~
                               Acting Assistant Attorney Gene~

SUBJECT:                       Documentation of Discretionary A ward Recommendations
                               and Decisions

        Recent OIG reports and Hill oversight hearings have underscored the importance of
documenting the decIsions we make regarding discretionary grant awards. I know we all share
the goal oftransparcllcy here.

      I, therefore, want to contmue the practice of documenting all discretionary funding
recommendations and decisions as set out below.

        All final approved award recommendation memoranda for grant programs undergoing
external or internal peer reviews must include the following:

           A list of applications received to ineludc the lowest scoring application to be funded
           and every application scoring higher, regardless of whether it was funded . This ItS!
           may be divided into categories and subcategories if they were published in the
           solicitation.
           A brief explanation as to why an application on the above list was not funded.

        All dIscretionary recommendations made absent a peer review process must be
documented; you must clearly explain the choices made, thc reasons for the choices, and the
policy considerations on which the decisions were based. Clear explanatory language should be
used so that the rationale and the final decisions are readily understandable to an outside reader.




                                                117
        All final award decisions must be documented as required by this memorandum,
including any changes made as a result of discussions between those recommending grants and
the final decision maker. Such changes in the final approved award decision memorandum must
retlect who made the decision to vary from a recommendation memo - and his or her reasons for
it.

        Thanks so much Cor your cooperation, and let me know ifyOll have any questions.

cc: 	   Beth McGarry, Deputy Assistant Attorney General
        Marlene Beckman, Policy Advisor, OAAG
        Phelan Wyrick, Policy Advisor, OAAG
        I3recht Donoghue, Policy Advisor, OAAG




                                             118 

                                                  u.s. Dcparlnwllt ell' .Jusl.in:
                                                                                             Attachment 5
                                                  Ofhl'c: oj .hJ~liGl! Pl'Ilgrams


                                                  OfJice (~j' Ihe AS.I'i.l'illlli Al/ol'llt'Y G('III'ruf

                                      .-- ---.- -.----..-- ..--------.-.-..-.....             -~.-------    .....,




                                                    June 9, 2009



 MEMORANDUM TO:                James Burch, Acting Director, BJA
                               Michael Sinclair, Acting Director, BJS
                               Kristina Rose, Acting Director, NlJ
                               .IeffSlowikowski, Acting Director, OJJDP
                               Joye Frost, Acting Director, avc
                               Delmis Greenhollse, Director, CCDO
                               Dawn Doran, Acting Director, SMART Office

 FROM:                         Lauric O. Robinson                ~
                               Acting Assistant Attorney General ~

 SUBJECT:                      Documentation of American Reinvestment and Recovery
                               Act Discretionnry Award RecommelLdations and Decisions


When recommending or making American Recovery and Reinvestment Act (Recovery
Act) award decisions. it is important to address the Recovery Act's purpose. Consistent
with guidance li'OIn the Office of Management and Budget and the President's March 20,
2009, Memorundum, the Office of Justice Programs should support projccts that have a
demonstrated or potential ability to deliver programmatic results; optimize economic
activity and the number of jobs created or saved in relation to the federal dollars
obligated; and achieve long-term public benefits.

As a result, in addition to the award recollllllendation memo requirements olltlined in my
March 10,2009, memo (please see attached), I require that all Recovery Act
discretionary award recommcndation memos include specific information about job
creation lind/or job retention for each applicant recommended for a Recovery Act
award. Please note that while the total number of jobs an applicant proposes to create
andlor retain is not expected to be the determinative factor in funding decisions; thc
applicant's capacity to achieve the goals Sl!t out by the Recovery Act must be
satisfactorily addressed.

Thanks so much for your cooperation, and let me know if you have any           question~ .


cc:    Mary Lou Leary, DL'puty Assistant Attorney General




                                           119
      Beth McGarry, Dl.!puty Assistant Attomey General
      Lynn Ovennuno, Senior Advisor, OAAG
      Gena Tyner-Dawson, Senior Advisor, OAA<3
      Thomas Abt, Counselor to the AAG
      Marlene Beckman, Policy Advisor, OAAG
      Phelan Wyrick, Policy Advisor, OAAG
      Brc;cht Donoghue. Policy Advisor, OAAG

Attachment




                                      120 

                                                     u.s. Department of Justice       Attachment 6

                                                     Office of Justice Programs

                                                     Office of the Assistant Attorney General


                                                     lIIuM"gron. V . C. 2053 J




MAR 19 2010
MEMORANDUM TO:                Jim Burch, Acting Director
                              Bureau of Justice Assistance

                              Michael Sinclair, Acting Director
                              Bureau of Justice Statistics                                           i
                                                                                                     I

                                                                                                     I
                              Kristina Rose, Acting Director
                              National Institute of Justice                                          I
                              Jeff Slowikowski, Acting Administrator
                              Office of Juvenile Justice and Delinquency Prevention
                                                                                                     I
                                                                                                     I
                              Joye Frost, Acting Director
                              Office for Victims of Crime

                              Dennis Greenhouse, Director
                              Community Capacity Development Office

                              Linda Baldwin, Director
                              Office of Sex Offender Sentencing, Monitoring, Apprehending,
                                Registering and Tracking


FROM:                         Laurie O. Robinson                df'---'
                              Assistant Attorney General         '\)

SUBJECT:                      Revised Guidance for Preparing Funding Recommendation
                              Memoranda for Assistant Attorney General Approval

As you are aware, in February 2010, I approved a change to the peer review process that
implements a procedure whereby applications are scored by peer reviewers, and, based on the
resulting peer review scores, the applications are banded into tiers. With the change to the peer
review process, prior guidance regarding the preparation of funding recommendation
memoranda requires a few updates. In addition, in light of recent Office of the Inspector General
reviews, I would like to reiterate my expectations regarding what information shOUld be inc/uded
in the funding recommendation memoranda submitted to me for approval.




                                            121
At a minimum, the funding recommendation memoranda for all competitive discretionary grant
programs should include:

I. 	 A background section that:
        a. 	 States the categories and/or priority areas of the solicitation. Specifically, you must
             list the categories or priority areas that were outlined in the solicitation.
        b. 	 Summarizes the peer review banding methodology used to establish the tiers.
             Specifically, you must describe your rationale for how the point spread for each band
             was determined.

2. 	 A list of all applications recommended for funding, including:
         a. 	 Application number,
         b. 	 Applicant legal name,
         c. 	 Award amount,
         d. 	 Application's tier status, and
         e. 	 The applicable solicitation category and/or priority area.

3. 	 A general description of the factors that were used to make decisions regarding which
     applications to recommend for funding (i.e., geography, administration priorities, grantee
     past perfonnance, or funding was sufficient to make awards to all tier 1 applicants).

    If all of the applications recommended for funding are selected from Tier I, you are not
    required to provide a detailed justification for each selection. It is understood that the
    application was among the highest-rated applications and, thus, recommended for funding. If
    all applications in Tier 1 have been selected for funding, and funds are still available to
    continue making selections, applications from Tier 2 may be selected without providing a
    detailed justification for each selection. However, as previously stated, you must, at a
    minimum, include a general description to document your rationale regarding which
    applications to recommend for funding (i.e., geography, administration priorities, grantee
    past performance, or funding was sufficient to make awards to all tier 1 applicants).

4. 	 A detailed justification for selecting an application from a lower tier if applications are still
     eligible for selection in a higher tier. As part of the justification, you must list (Application
     number, Applicant legal name, Award Amount, and Application'S tier status) all higher­
     ranking applications that were not selected for funding.




                                                   2




                                                122 

5. 	 A detailed justification for selecting any application from Tier 3, which are qualitatively
     described as not recommended for funding. You must describe how you will ensure that the
     concerns raised during peer review will be addressed post-award.

Thank you for your continued cooperation. Please let me know if you have any questions.

cc: 	   Mary Lou Leary, Principal Deputy Assistant Attorney General
        Beth McGarry, Deputy Assistant Attorney General for Operations and Management
        Thomas Abt, Counselor' to the Assistant Attorney General
        Marlene Beckman, Policy Advisor, OAAG
        Brecht Donoghue, Policy Advisor, OAAG
        LeToya Johnson, Senior Advisor, OAAG
        Gena Tyner-Dawson, Senior Advisor, OAAG
        Phelan Wyrick, Policy Advisor, OAAG




                                                3




                                             123 

                                                              APPENDIX IX

                  Office of the Inspector General 

                 Analysis and Summary of Actions 

                  Necessary to Close the Report 



      The OIG provided a draft of this audit report to OJP, and OJP’s
response is incorporated in Appendix VIII of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to close the report.

Summary of Actions Necessary to Close Report

  1.	   Resolved. OJP concurred with our recommendation that it establish
        procedures to ensure that future Byrne JAG solicitations: (1) clearly
        describe what material is required to be submitted with the grant
        application, and (2) instruct applicants that applications lacking any
        of the required material will be sent back for additional information.

        In its response, OJP stated that the BJA revised its FY 2010 Justice
        Assistance Grant (JAG) solicitations to ensure that requirements are
        clearly described and optional items are labeled as such. OJP
        provided website links to the BJA’s FY 2010 JAG solicitations. OJP
        also stated that solicitation language similar to the following was also
        added to notify applicants that withholding special conditions will be
        applied to applications that lack any required material: "Failure to
        submit an appropriate review narrative may result in the attachment
        of a withholding special condition at the time of award, preventing
        the drawdown of funds until the required information is submitted."

        We reviewed the FY 2010 JAG solicitations and agree that the
        language in the solicitations address our concerns in this area.
        However, OJP did not provide procedures that will ensure that future
        solicitations contain the applicable language.

        This recommendation can be closed when we receive evidence
        showing that OJP has established appropriate procedures for
        ensuring that future Byrne JAG solicitations: (1) clearly describe
        what material is required to be submitted with the grant application,
        and (2) instruct applicants that applications lacking any of the
        required material will be sent back for additional information.



                                      124

2.	   Resolved. OJP stated that it concurred in part with our
      recommendation that it not process future Byrne JAG applications
      until required material is received. OJP stated that it does not stop
      processing awards for applicants that fail to submit all required
      material. Instead, OJP stated that it addresses the absence of
      application documents in the post-award phase by including a
      withholding special condition that denies a grantee access to the
      funds until all required materials are submitted and the withholding
      special condition is released. OJP stated that BJA included language
      in its FY 2010 JAG solicitations notifying applicants that withholding
      special conditions are applied to applications that lack any required
      material.

      We agree that OJP’s and the BJA’s actions to withhold funds from
      grantees until all required material is submitted is an acceptable
      alternative action to our recommendation.

      This recommendation can be closed when we receive evidence
      showing that OJP has established appropriate procedures for
      ensuring that future solicitations contain the withholding special
      condition language.

3.	   Resolved. OJP concurred with our recommendation that it provide
      additional training and oversight of Byrne JAG grant recipients
      related to maintaining adequate internal controls over grant funds,
      expending grant funds and maintaining support for expenditures,
      implementing adequate property management procedures,
      monitoring subrecipient activities, submitting financial and progress
      reports in a timely manner, and submitting accurate financial,
      progress, and Recovery Act reports.

      In its response, OJP stated that the Office of the Chief Financial
      Officer (OCFO) will review the content of its Regional Financial
      Management Training Seminars (RFMTS) and the OJP Financial Guide
      to ensure guidance on proper internal controls, adequate
      documentation, property management procedures, subrecipient
      monitoring, and financial and progress reporting are adequately
      addressed. By March 31, 2011, the OCFO anticipates developing a
      training module specific to subrecipient monitoring. This training
      may be incorporated into the RFMTS as a breakout session, or
      launched as a computer-based training effort. In addition, by
      March 31, 2011, the OCFO will work with BJA to provide financial
      grant administration training covering subrecipient monitoring, and
      the other topics listed above, at BJA-sponsored conferences.


                                    125

      This recommendation can be closed when we receive documentation
      showing that OJP has developed an appropriate training module and
      has provided such training at BJA-sponsored conferences or through
      other training mechanisms.

4.	   Closed. We recommended that OJP revise the Byrne Competitive
      Grant Program funding information contained on its website to make
      it clear that $2.25 million of program funds will be used by the NIJ.
      OJP concurred with the recommendation and stated that it made the
      recommended changes to the BJA’s Recovery Act website, and OJP
      provided a link to the website page containing the revised language.
      We reviewed the revised language on the BJA’s Recovery Act website
      and determined it was adequate to close this recommendation.

5.	   Closed. We recommended that OJP direct OJJDP to establish a
      policy similar to BJA’s policy that clearly defines the solicitation
      requirements that must be met for applications to be peer reviewed.
      In its response, OJP provided OJJDP’s Basic Minimum Review
      guidelines established in April 2010. In August 2010, we explained
      to an OJJDP official the procedures established by the BJA and asked
      the official if OJJDP had developed similar procedures. The OJJDP
      official told us that OJJDP had not developed such procedures. We
      were not aware of the OJJDP’s April 2010 guidelines at the time of
      the audit. We have reviewed the OJJDP’s April 2010 guidelines and
      concluded that they adequately define the solicitation requirements
      that must be met for applications to be peer reviewed. Therefore, we
      consider this recommendation closed.

6.	   Resolved. OJP concurred with our recommendation that it establish
      procedures for treating applications consistently when determining
      whether the applications meet the basic minimum requirements and
      should be passed on to the peer review process.

      In its response, OJP stated that by February 28, 2011, it will develop
      and implement procedures to ensure that applications are
      consistently treated when determining whether they meet the basic
      minimum requirements and should proceed to the peer review
      process.

      This recommendation can be closed when we receive evidence
      showing that OJP has developed and implemented appropriate
      procedures for ensuring that applications are consistently treated



                                   126

      when determining whether they meet the basic minimum
      requirements and should proceed to the peer review process.

7.	   Resolved. OJP concurred with our recommendation that it establish
      and implement a requirement that applicants be notified of the
      reasons for denying the applications.

      In its response, OJP stated that by February 28, 2011, it will review
      and revise current procedures and requirements relating to the
      application denial notification process, including the content of the
      applicant denial letters. These procedures will be issued to OJP staff
      and the OJP Peer Review Contractor.

      This recommendation can be closed when we receive evidence
      showing that OJP has issued guidance requiring that applicants be
      notified of the reasons for denying the applications.

8.	   Resolved. OJP concurred with our recommendation that it ensure
      that the reasons for denying applications are accurately recorded in
      the Grants Management System.

      In its response, OJP stated that the process for documenting reasons
      for denying applications in the Grants Management System is
      covered in OJP’s Grant Managers Manual. OJP also stated that its
      Office of Audit, Assessment, and Management (OAAM) will work with
      OJP’s bureaus and program offices to review the current list of denial
      reasons in the Grants Management System and revise the list as
      necessary. OJP stated that OAAM will also work with the Office of the
      Chief Information Officer to incorporate any changes in the Grants
      Management System by April 30, 2011.

      While OJP’s planned actions will be beneficial, OJP did not describe
      how it will ensure that the reasons selected in the Grants
      Management System for denying applications are the actual reasons
      applications are denied. Our audit found that the reason usually
      selected in the Grants Management System was “Competitive
      process selected other applicants,” when the actual reason the
      application was denied was one of the other 15 reasons selectable in
      the Grants Management System. Therefore, we believe that OJP
      should establish quality control procedures to verify that the reasons
      selected in the system are the actual reasons for denying the
      applications.




                                   127

      This recommendation can be closed when we receive documentation
      showing that OJP has established appropriate procedures for
      ensuring that the reasons selected in the Grants Management
      System for denying applications are the actual reasons the
      applications were denied.

9.	   Resolved. OJP concurred with our recommendation that it ensure
      that denial letters sent to rejected applicants accurately describe the
      peer review panel that evaluated the applicants’ applications.

      In its response, OJP stated that by February 28, 2011, it will review
      and revise current procedures and requirements relating to the
      application denial notification process, including the content of the
      applicant denial letters. These procedures will be issued to OJP staff
      and the OJP Peer Review Contractor.

      This recommendation can be closed when we receive evidence
      showing that OJP has established appropriate procedures for
      ensuring that denial letters sent to rejected applicants accurately
      describe the peer review panel that evaluated the applicants’
      applications.

10.	 Closed. We recommended that OJP ensure that the peer reviewers
     selected to evaluate applications are approved by Bureau of Justice
     Assistance leadership. In its response, OJP provided the BJA’s
     guidelines for approving peer reviewers that were established during
     the audit in February 2010. Both during the audit and in the draft
     audit report we disclosed to BJA officials that peer reviewers were not
     properly approved by BJA leadership. However, we did not receive
     the February 2010 guidelines until OJP provided them in its response
     to the draft audit report. We reviewed the BJA’s February 2010
     guidelines and determined that these guidelines are adequate.
     Therefore, this recommendation is closed.

11.	 Closed. OJP concurred with our recommendation that it establish a
     requirement that future funding recommendation memoranda include
     explanations for all applications not recommended for funding that
     received an equal or higher score than the lowest scoring application
     recommended for funding.

      In its response, OJP provided details of the new tier, or “banding”
      system that it established in March 2010 for ranking applications.
      Under the tier system, OJP’s bureaus and program offices rate
      applications and stratify them into various groups based upon their


                                    128

    overall responsiveness to the solicitation and other related factors.
    OJP established a requirement that the rationale for establishing the
    various tiers, as well as ranking the applications and assigning them
    into the tiers must be clearly described in the funding
    recommendations memoranda. OJP also required that when an
    application is selected from a lower tier and there are still
    applications in a higher tier that have not been funded, a detailed
    justification must be provided in the funding recommendation
    memoranda.

    We reviewed OJP’s March 2010 directive and agree that OJP’s actions
    adequately address this recommendation. Therefore, this
    recommendation is closed.

12.	 Resolved. OJP concurred with our recommendation that it ensure
     that future funding recommendation memoranda comply fully with
     the requirements contained in the Associate Attorney General’s May
     2008 policy directive, and the requirement established based on
     Recommendation 11 above.

    In its response, OJP stated that the May 2008 Associate Attorney
    General’s policy directive is reinforced and supplemented by policy
    memoranda issued by OJP's Office of the Assistant Attorney General
    in March 2009, June 2009, and March 2010. OJP also stated that in
    FY 2011 it will continue to comply with these policy directives to
    ensure that all funding recommendation memoranda accurately
    describe the process used to evaluate applications and make funding
    recommendations, and will continue to do so for future
    recommendation memoranda.

    While OJP’s response indicates that it will continue to comply with the
    policy directives, our audit results showed that BJA did not fully
    comply with the May 2008 Associate Attorney General’s policy
    directive requiring that award recommendation memoranda contain a
    list of all applications received including the lowest scoring
    application funded as well as every application scoring higher,
    regardless of whether it was selected for funding, and briefly explain
    why a listed application was not recommended for funding. The BJA
    also did not comply with the March 2009 policy issued by OJP’s Office
    of the Associate Attorney General that reiterated the May 2008
    requirements. Specifically, we found that for Category I of the Byrne
    Competitive Grant solicitation, the BJA excluded 24 applications from
    the funding recommendation memorandum that were peer reviewed.
    Twenty-two of the 24 excluded applications had a higher score than


                                 129

    the lowest scoring application recommended for funding, including 10
    of the 12 highest scoring applications. The BJA did not provide an
    explanation in its memorandum for excluding these 22 higher scored
    applications.

    This recommendation can be closed when we receive evidence
    showing that OJP has established appropriate procedures for
    ensuring that future funding recommendation memoranda comply
    fully with the requirements contained in the Associate Attorney
    General’s May 2008 policy directive and subsequent policy contained
    in the March 2009 directive from the Office of the Assistant Attorney
    General regarding the preparation of funding recommendation
    memoranda.

13.	 Resolved. OJP concurred with our recommendation that it ensure
     that future funding recommendation memoranda accurately describe
     the process used to evaluate applications and make funding
     recommendations.

    In its response, OJP stated that the May 2008 Associate Attorney
    General’s policy directive is reinforced and supplemented by policy
    memoranda issued by OJP's Office of the Assistant Attorney General
    in March 2009, June 2009, and March 2010. OJP also stated that in
    FY 2011 it will continue to comply with these policy directives. OJP
    stated that the March 2010 directive requires that funding
    recommendation memoranda include a detailed and accurate
    description of the process used in evaluating applications and making
    funding recommendations.

    While OJP’s response indicates that it will continue to comply with the
    policy directives, our audit results showed that BJA’s funding
    recommendation memoranda for the Byrne Competitive Grant
    solicitation did not accurately describe the process used to evaluate
    applications and make funding recommendations. Specifically, we
    found that the funding recommendation memoranda appeared to
    indicate that only 2,623 applications met the solicitation
    requirements and applications not meeting the solicitation
    requirements were excluded from further consideration and peer
    review. As noted in the report, the BJA sent 649 applications forward
    to peer review that did not meet the solicitation requirements. In
    addition, some of these 649 applications did not meet one or more of
    the solicitation requirements for which other applications were denied
    further consideration. These facts were not contained in and
    explained by the funding recommendation memorandum.


                                 130

    This recommendation can be closed when we receive documentation
    showing that OJP has established appropriate procedures for
    ensuring that future funding recommendation memoranda accurately
    describe the process used to evaluate applications and make funding
    recommendations.

14.	 Resolved. OJP concurred with our recommendation that it ensure
     that the normalized peer review scores are accurately calculated
     before making award recommendations based on the normalized
     scores.

    In its response, OJP stated that by December 31, 2010, it will issue
    guidance to the OJP Peer Review Contractor and direct the OJP Peer
    Review Contractor to establish data quality control checks that
    ensure the accuracy of the normalization process.

    This recommendation can be closed when we receive evidence
    showing that OJP has issued guidance requiring the OJP Peer Review
    Contractor to establish data quality control checks that ensure the
    accuracy of the normalization process.

15.	 Resolved. OJP concurred with our recommendation that it consider
     standardizing the circumstances under which normalization of peer
     review scores should be used for all bureaus and program offices.

    In its response, OJP stated that by December 31, 2010, it will
    internally discuss and consider the circumstances under which
    normalization of peer review scores should be used for all bureaus
    and program offices.

    This recommendation can be closed when we receive documentation
    showing that OJP has: (1) discussed and considered the
    circumstances under which normalization of peer review scores
    should be used for all bureaus and program offices; and (2) issued
    policy changes, as appropriate, based on the discussions and
    consideration.




                                 131

